<html>
<title> - H.R. 2534, H.R. 4530 and H.R. 4822</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
                  H.R. 2534, H.R. 4530 and H.R. 4822

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             June 13, 2002

                               __________

                           Serial No. 107-127

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

80-171              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                Anibal Acevedo-Vila, Puerto Rico
Chris Cannon, Utah                   Hilda L. Solis, California
Bob Schaffer, Colorado               Betty McCollum, Minnesota
Jim Gibbons, Nevada
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 13, 2002....................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     9
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 2534, H.R. 4530 and H.R. 4822.     2
    Rehberg, Hon. Dennis, a Representative in Congress from the 
      State of Montana...........................................    14
        Prepared statement on H.R. 4822..........................    16
    Solis, Hon. Hilda L., a Representative in Congress from the 
      State of California........................................    10
        Prepared statement on H.R. 2534..........................    13
    Taylor, Hon. Charles, a Representative in Congress from the 
      State of North Carolina....................................    17
        Prepared statement on H.R. 4530..........................    18

Statement of Witnesses:
    Anderson, Becky, Executive Director, HandMade In America, 
      Asheville, North Carolina..................................    53
        Prepared statement on H.R. 4530..........................    55
    Blakely, Hon. Lara Larramendi, Mayor, City of Monrovia, 
      California.................................................    64
        Prepared statement on H.R. 2534..........................    65
    Huskins, Betty R., Vice President, Public Affairs and 
      Corporate Development, AdvantageWest-North Carolina, 
      Fletcher, North Carolina...................................    62
        Prepared statement on H.R. 4530..........................    63
    Morrison, Patricia, Deputy Assistant Secretary for Land and 
      Minerals Management, Bureau of Land Management, U.S. 
      Department of the Interior, Washington, D.C................    19
        Prepared statement on H.R. 4822..........................    21
    Pilcher, Steven L., Executive Vice President, Montana 
      Stockgrowers Association, Helena, Montana..................    50
        Prepared statement on H.R. 4822..........................    51
    Ruiz, Joseph R. ``Rick'', Governing Board Member, San Gabriel 
      and Lower Los Angeles Rivers and Mountains Conservancy, 
      Santa Monica, California...................................    34
        Prepared statement on H.R. 2534..........................    35
    Stevenson, Katherine, Associate Director of Cultural Resource 
      Stewardship and Partnerships, National Park Service, U.S. 
      Department of the Interior, Washington, D.C................    23
        Prepared statement on H.R. 2534..........................    24
        Prepared statement on H.R. 4530..........................    25
    Tureck, Hugo, Vice-Chairman, Friends of the Missouri Breaks 
      Monument, Coffee Creek, Montana............................    36
        Prepared statement on H.R. 4822..........................    37

Additional materials supplied:
    Billings Gazette article ``Rehberg Bill Seeks To Aid Ranchers 
      in Breaks'' submitted for the record.......................     8
    Great Falls Tribune article ``Bold lines should be drawn 
      inside the Breaks'' submitted for the record...............     7
    Map of the Upper Missouri River Breaks National Monument.....     5
    Seilstad, Carl, et al., Letter to Hon. Dennis Rehberg 
      submitted for the record...................................     6


  LEGISLATIVE HEARING ON H.R. 2534, TO AUTHORIZE THE SECRETARY OF THE 
 INTERIOR TO CONDUCT A SPECIAL RESOURCE STUDY OF THE LOWER LOS ANGELES 
RIVER AND SAN GABRIEL RIVER WATERSHEDS IN THE STATE OF CALIFORNIA, AND 
FOR OTHER PURPOSES; H.R. 4530, TO DIRECT THE SECRETARY OF THE INTERIOR 
 TO CONDUCT A STUDY OF THE SUITABILITY AND FEASIBILITY OF ESTABLISHING 
 THE BLUE RIDGE HERITAGE AND CULTURAL PARTNERSHIP STUDY AREA IN NORTH 
 CAROLINA, AND FOR OTHER PURPOSES; AND H.R. 4822, TO CLARIFY THAT THE 
 UPPER MISSOURI RIVER BREAKS NATIONAL MONUMENT DOES NOT INCLUDE WITHIN 
  ITS BOUNDARIES ANY PRIVATELY OWNED PROPERTY, AND FOR OTHER PURPOSES.

                              ----------                              


                        Thursday, June 13, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 1324, Longworth House Office Building, Hon. George P. 
Radanovich [Chairman of the Subcommittee] presiding.

  STATEMENT OF HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning. The Subcommittee on National 
Parks, Recreation, and Public Lands will come to order. The 
Subcommittee will hear testimony on H.R. 2534, H.R. 4530, and 
H.R. 4822.
    Our first bill, H.R. 2534, introduced by our Subcommittee 
colleague, Representative Hilda Solis of California, which 
would authorize the Secretary of the Interior to conduct a 
special resource study of the Lower Los Angeles River and San 
Gabriel River watersheds in the State of California.
    Mr. Radanovich. The next bill, H.R. 4530, introduced by 
Representative Charles Taylor of North Carolina, would direct 
the Secretary of the Interior to conduct a study of the 
suitability and feasibility of establishing the Blue Ridge 
Heritage and Cultural Partnership Study Area in western North 
Carolina as a National Heritage Area.
    Mr. Radanovich. Our last bill, H.R. 4822, introduced by our 
Committee colleague Dennis Rehberg of Montana, would clarify 
that the Upper Missouri River Breaks National Monument does not 
include within its boundaries any privately owned property.
    Mr. Radanovich. Before turning my time over to Mrs. 
Christensen, I would ask unanimous consent that Mr. Taylor and 
Mr. Rehberg be permitted to sit on the dais following their 
statements. Without objection, so ordered.
    While we are doing unanimous consents, I would request 
unanimous consent that the following documents that I have 
would be submitted for the record on behalf of Congressman 
Rehberg. Hearing no objection, so ordered.
    [The prepared statement of Mr. Radanovich follows:]

 Statement of The Honorable George P. Radanovich, a Representative in 
                 Congress from the State of California

    Good morning. The hearing will come to order. The Subcommittee on 
National Parks, Recreation, and Public Lands will hear testimony on 
three bills, H.R. 2534, H.R. 4530, and H.R. 4822.
    The first bill, H.R. 2534, introduced by our Subcommittee colleague 
Representative Hilda Solis of California, would authorize the Secretary 
of the Interior to conduct a special resource study of the Lower Los 
Angeles River and San Gabriel River watersheds in the State of 
California.
    The next bill, H.R. 4530, introduced by Representative Charles 
Taylor of North Carolina, would direct the Secretary of the Interior to 
conduct a study of the suitability and feasibility of establishing the 
Blue Ridge Heritage and Cultural Partnership Study Area in western 
North Carolina as a National Heritage Area.
    Our last bill, H.R. 4822, introduced by our Committee colleague, 
Dennis Rehberg of Montana, would clarify that the Upper Missouri River 
Breaks National Monument does not include within its boundaries any 
privately owned property.
    Before turning the time over to Mrs. Christensen, I would ask 
unanimous consent that Mr. Taylor and Mr. Rehberg be permitted to sit 
on the dais following their statements. Without objection [PAUSE], so 
ordered.
    I now turn to the Ranking Member, Mrs. Christensen, for any opening 
statement she may have.
                                 ______
                                 
         Long Arm of the Government Rankles Western Landowners

       ANGER INFORMS BUSH REVIEW OF CLINTON MONUMENT DESIGNATIONS
                             BY ERIC PIANIN
                      WASHINGTON POST STAFF WRITER
                    SUNDAY, APRIL 29, 2001; PAGE A05

    ESCALANTE, Utah--Quinn Griffin has peacefully raised cattle on a 
remote plateau of Federal land here for decades, but when he missed a 
deadline for removing his herd last summer, U.S. government cowboys 
swooped down in helicopters and airlifted his cows off the mountain.
    The government auctioned off some of his cattle, threatened to put 
him out of business, and then sent him a $50,000 bill to cover its 
costs.
    Griffin, a businessman and civic leader in southern Utah's 
picturesque Grand Staircase-Escalante region, says the government's 
action would have been unthinkable at one time. But all that changed 
after the Clinton administration declared the vast, rugged area a 
national monument four years ago.
    ``It's a serious situation when they take your cattle and sell them 
without giving you a chance,'' Griffin said. ``Everybody here believes 
this is happening because of the monument.''
    Griffin's complaint about Federal heavy-handedness has echoes 
across the West. As the government heightens its role as manager over 
an increasing expanse of Federally protected land, the volume of 
complaints by landowners is rising. People who have lived in remote, 
sprawling areas such as the Grand Staircase all their lives, or who 
moved to them in search of solitude or a feeling of independence, 
bristle at what they say are Federal efforts to micromanage their lives 
and restrict access to the land.
    ``They've tightened the reins, but the people around here weren't 
ready for it because they were used to going their own way,'' said 
Sharol Bernardo, who operates a motel and gift shop. ``And believe me, 
this town likes to go its own way.''
    It is that sentiment that President Bush and Vice President Cheney 
are tapping into when they talk about their roots in the West, and the 
endless possibilities and rugged individualism suggested by its vast 
open spaces. It is helping to guide the Administration as it examines 
whether to undo some of former president Bill Clinton's actions, on 
land use as well as the environment.
    Many of the grievances are reminiscent of the ``sagebrush 
rebellion'' of the 1970s and 1980s, when Western conservatives raised 
the battle cry against what they deemed excessive Federal control of 
land. They were given new life as the Clinton administration vastly 
expanded the government's reach.
    Over the last four years, Clinton made unprecedented use of the 
1906 Antiquities Act to establish 19 national monuments in areas his 
administration deemed unique or historic. Tough restrictions were 
imposed on commercial and recreational activities on nearly 6 million 
acres of Federal land.
    Bush has ordered a review of Clinton's actions. Western property 
owners, local officials and environmentalists are watching what happens 
in the Grand Staircase--the first and most controversial of the 
monument designations--for signs of what direction Bush will take. 
Although the Administration has said an outright repeal is unlikely, it 
is considering shrinking the size of some areas and easing rules 
governing private activity.
    The Grand Staircase is a tableau of rust-hued mountain cliffs, 
mesas, desert and wild rivers. The 1.9 million-acre monument contains a 
vast geological stairway to the West, rising 5,500 feet to the rim of 
Bryce Canyon. Pioneering geologist Clarence Dutton first dubbed it the 
Grand Staircase. Farther to the east, the massive Kaiparowits Plateau 
and the Canyons of the Escalante are rich in history and archaeological 
and geological wonders.
    The monument designation in September 1996 had a dramatic impact. 
Local officials, businessmen and residents complain that, in the name 
of preserving the area's natural beauty, the Federal Government has 
imposed overly restrictive grazing policies and hampered recreational 
activities.
    They also say the government effectively torpedoed plans by a Dutch 
mining company to open a coal mine that would have created hundreds of 
jobs. Within two years of Clinton's decision, Andalex Resources Co. 
sold its leases on 34,000 acres of land to the Federal Government for 
nearly $17 million, according to officials with the Bureau of Land 
Management (BLM), which administers Federal lands.
    Small business operators say excessive regulation has hurt them. 
Sue Fearon, an outfitter in nearby Boulder, Utah, who offers guided 
tours of the area's red rock canyons, says some competitors have gone 
out of business since the BLM limited the size of camping groups to 12 
and barred horses from coming within 200 feet of a river or stream, to 
prevent pollution.
    ``Gradualism gets you every time, and if I'm gradually being forced 
out, let's be up front about it,'' Fearon said. ``I'm afraid that after 
the cows go, commercial interests like mine are next.''
    BLM officials and environmental groups describe the Grand Staircase 
as an unfolding success story. They note that at the same time precious 
natural resources are being protected, tourism has doubled, to nearly 1 
million visitors annually.
    ``Although the controversy is heated initially, over time these 
places prove their value and become popular,'' said monument manager 
Kate Cannon. ``The Grand Canyon and Grand Teton initially were 
monuments with a great deal of controversy around them, and now they 
are some of the best-loved pieces of protected land.''
    At the core of the complaints about Federal intrusiveness is the 
proclamation issued by Clinton for governing the monument region. 
Rather than seeking to cultivate the Grand Staircase as a national 
park, and therefore encourage its accessibility to tourists, hikers and 
sportsmen, the BLM's principal mandate is to protect natural resources 
and limit the amount of commercial activity around the areas.
    The land bureau's staff has nearly doubled, to 65 employees, over 
the past four years, and many have little experience working with 
residents of the provincial and insular area. In the past, the skeletal 
land management workforce tended to be lax or flexible in enforcing 
grazing and other regulations. Now the officials closely adhere to the 
rules, which has created hard feelings.
    Residents complain that many jobs sparked by the monument's 
creation are low-paying and that what added tourism there has been--the 
number of visitors tapered off last year during a heat wave--has 
brought little benefit to the economy.
    ``Tourism is a hard row to hoe, and if making beds, cleaning 
toilets and flipping pancakes makes it, we would have made it a long 
time ago,'' said Joe C. Judd, Chairman of the Kane County Commission.
    The fight over grazing that led the Federal Government to airlift 
Quinn Griffin's cattle off the plateau was as much a clash of values 
and customs as a battle over the specific terms of the government's 
grazing permits. The three ranchers involved--Griffin, a local 
businessman and former teacher; his uncle, Gene Quinn; and Mary 
Bullock--have raised cattle on 50 Mile Mountain, a remote plateau near 
Escalante, for decades.
    Griffin, 49, was born in Provo, Utah, 150 miles to the north. He 
grew up in Escalante and returned here to marry and raise a family of 
six children after attending high school in Elko, Nev.
    The soft-spoken Griffin has taught classes at a church, dabbled in 
real estate and helped launch a community-based campaign to expand 
educational opportunities. But like his father before him, he has 
devoted much of his energy to raising cattle on the plateau.
    Mountaintop grazing is challenging and risky because the weather is 
uncertain and cattle are difficult to control and move on and off the 
mountain. Yet Griffin and others cling to the practice because of the 
challenge and the solitude.
    ``It's remote. You're by yourself,'' he said. ``Sometimes during 
the winter, you're the only people around for 30 miles. If you like to 
be on a horse, that's the place to be.''
    When the BLM last spring ordered the three ranchers to cut short 
their grazing season by a month and remove nearly 400 head of cattle in 
an effort to preserve the land, they balked, then tried to comply. By 
then, however, the bureau had swept in with cowboys on horseback and in 
helicopters, and accused the three of bad faith.
    BLM officials say they extended the Sept. 1 deadline but eventually 
were forced to act to uphold the terms of the grazing permits and to 
prevent the cattle from destroying the vegetation. Griffin and Bullock 
contend they were singled out as part of a broader effort to end 
grazing on the plateau.
    Several environmental groups allied with the BLM, including the 
Southern Utah Wilderness Alliance and the Grand Canyon Trust, oppose 
grazing on 50 Mile Mountain and many other areas of the monument. Some 
environmentalists say the relatively cheap grazing permits issued by 
the government are a form of welfare to ranchers and a detriment to the 
land.
    The Grand Canyon Trust, a preservation group, has been buying 
grazing permits of ranchers along the Escalante River and its 
tributaries, which abut 50 Mile Mountain. Last May, before the 
controversy erupted, Cannon, the monument manager, urged Bullock to 
consider selling her grazing permit to the Grand Canyon Trust.
    Bullock contends that the BLM began its crackdown as punishment 
after she rejected entreaties from the Grand Canyon trust to discuss 
selling her permit--a contention that bureau and trust officials deny. 
``They want my ranch, so they just beat me up to sell it,'' she said.
    2001 The Washington Post Company
                                 ______
                                 
    [The documents submitted for the record by Mr. Radanovich 
follow:]

[GRAPHIC] [TIFF OMITTED] T0171.001

[GRAPHIC] [TIFF OMITTED] T0171.011

[GRAPHIC] [TIFF OMITTED] T0171.012

[GRAPHIC] [TIFF OMITTED] T0171.013

[GRAPHIC] [TIFF OMITTED] T0171.014

                                ------                                


    Mr. Radanovich. With that, I would like to turn to the 
Ranking Member, Mrs. Christensen, for any opening statement 
that you may have.

STATEMENT OF HON. DONNA M. CHRISTENSEN, A DELEGATE IN CONGRESS 
                    FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. As you said, we 
are going to be considering three unrelated bills this morning. 
I would like to welcome our colleagues here this morning.
    The first bill, H.R. 2534, sponsored by our friend and 
Subcommittee colleague, Representative Solis, authorizes the 
Secretary of the Interior to study the feasibility and 
suitability of establishing a unit of the National Park System 
which would include parts of the Lower Los Angeles and San 
Gabriel Rivers, as well as a portion of the San Gabriel 
Mountains. The study area would include parts of Los Angeles 
and Orange Counties as well as parts of the city of Los 
Angeles.
    We look forward to hearing from our witnesses on some of 
the very unique issues raised by using such an urban setting 
for a unit of the National Park System. We congratulate 
Representative Solis on the legislation and we are really happy 
that your bill is having a hearing today.
    Our next bill, H.R. 4530, would direct the Secretary of the 
Interior to conduct a study of the suitability and feasibility 
of creating a National Heritage Area encompassing much of 
Western North Carolina. The study proposed by H.R. 4530 would 
help to better understand the unique resources of the region 
and, thus, its appropriateness as a National Heritage Area. The 
bill also calls for identification of a potential management 
authority for the Heritage Area which is dedicated to working 
in partnership with residents, business interests, nonprofit 
organizations, and local and State governments to promote the 
area.
    As we are all aware, the process for the creation of new 
Heritage Areas continues to be an issue before this Committee. 
In our view, each new Heritage Area proposal should be reviewed 
carefully, particularly during the consideration of Mr. 
Hefley's larger legislation.
    Finally, the bill H.R. 4822, introduced by Mr. Rehberg, 
provides that the Upper Missouri Breaks National Monument shall 
not include within its exterior boundaries any privately owned 
properties. I hope today's hearing will help to clear up some 
of the misunderstandings that I think have surrounded this 
national monument.
    Two points need to be stressed. First, that including 
private land within the exterior boundary does not make that 
land a part of the national monument, and on that point, both 
the monument proclamation and the Antiquities Act are clear. 
Second, neither the monument proclamation or the Antiquities 
Act give the BLM any authority to subject these lands to 
regulation and management as a part of the national monument.
    There has been a lot of focus on the Upper Missouri Breaks 
boundary map, which contained Federal, State, and private 
lands. This map reflects the fact that public lands are 
intermingled with State and private lands in many sections and 
that monument features bisect all of these lands. This is not 
uncommon. Intermingled public and private lands are common in 
the West. Numerous national monuments and national forests have 
such intermingled public and private lands. Members will need 
to look closely at H.R. 4822. The legislation calls into 
question not only the exterior boundary of the Upper Missouri 
Breaks National Monument, but also the basis for the boundaries 
of numerous national monuments and national forests around the 
country.
    Mr. Chairman, I appreciate the presence of our witnesses 
here this morning and look forward to their insights on the 
legislation we are going to consider.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    I will now recognize Representative Solis from California 
to speak on her bill, or for your opening statement, I should 
say.

STATEMENT OF HON. HILDA L. SOLIS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Solis. Thank you, Mr. Chairman. I really appreciate the 
opportunity to have this hearing today and want to thank you 
and your staff for working with us on being able to see that 
this day has actually come about. So I want to thank you 
personally and I also want to recognize our Ranking Member, 
Donna Christensen, and members of the Committee.
    I would like to just express again my optimism to see this 
bill come to fruition. Some of you may know that this bill is 
something very, very special and unique to those of us in 
Southern California. While I am representing the 31st 
Congressional District, I do believe that the impact will have 
more of a profound effect on many thousands of Southern 
Californians who could possibly enjoy the potential for a 
National Park Service in this particular area.
    H.R. 2534, the Lower Los Angeles and San Gabriel Rivers 
Watershed Study Act, would direct the National Park Service to 
study the Lower Los Angeles River and the San Gabriel River and 
portions of the San Gabriel Mountains for potential National 
Park Service designation. The bill would provide the framework 
for the future of our regional rivers and could eventually 
provide recreational and environmental opportunities for more 
than two million people.
    Rivers and mountains have served as the lifeblood of the 
San Gabriel Valley since the Gabrieleno Indian Tribe first 
settled there many centuries ago. However, over time, the area 
has been threatened by development, industry, and even 
abandonment. I am hopeful that this bill will serve as the 
first step in redefining the San Gabriel Valley and exploring 
ways that we can protect and revitalize our natural resources.
    My community is presently made up of about 60 percent 
Hispanic population, about 30 percent Asian population, and the 
remainder other. We experience extremely high levels of 
unemployment rates and would also say that, for the most part, 
people might think that folks in our district may not care 
about the environment. That could be far away from the truth, 
because many folks in our district do care very much about the 
environment and the quality of life there.
    However, I want to also explain that our district is 
nestled with three Superfund sites, each within the radius of 
31 miles, 17 gravel pits that resemble moon craters--if you 
were to take a drive through my district, you would note that--
and a watershed that is among the dirtiest in the nation. One 
of our priorities is preserving and cleaning up the 
environment. The Park Service designation would benefit some of 
the poorest of our society who breathe polluted air and live 
next to congested freeways. This will allow our children to 
enjoy and learn about our natural resources.
    According to a recent study by the University of Southern 
California's Sustainable Cities Program, three to four acres of 
open or green space are needed per 1,000 people for a healthy 
environment. Unfortunately, in my district, in this area, there 
is less than one-half acre of land per 1,000 people. I fear 
that this statistic will become more alarming as the population 
in Los Angeles and Southern California dramatically doubles. 
Lack of open space does not just mean decreased recreational 
opportunities. As you know, areas without open or green space 
have greater incidence of cardiovascular disease, asthma, 
diabetes, infant mortality, birth defects, and even cancer.
    I am concerned that if recreational opportunities and 
natural resources are ignored in the Valley, our children will 
grow up at greater risk of health problems, completely 
surrounded by superhighways and concrete buildings. Open and 
green space is a precious commodity in my region. It needs to 
be protected and preserved and more should be done to make it 
available. If we wait too long, we may not have this ability or 
opportunity to do this.
    The National Park Service now operates several urban parks 
that are similar to the area that I am requesting to be 
studied, so this is not a first-time approach. I would point 
out that in the communities of Atlanta in Georgia, we have 
urban parks, the heart of the New York metropolitan area, the 
San Francisco, California area, and the Twin Cities 
metropolitan area in Minnesota. These are all urban parks. The 
study could be the foundation for a park that would follow the 
lead of these original urban parks and provide working families 
in these communities with the environmental and recreational 
opportunities that over-development often prevents.
    The need to revitalize our rivers and improve our 
recreational opportunities inspired the creation of nine local 
conservancies already that exist in that area. One, I had the 
opportunity to work on, which is the Los Angeles River and 
Mountains Conservancy, which currently falls pretty much along 
the line of where we see the National Park Service conducting 
the study. The conservancies are charged with cleaning up 
abandoned areas, buying and preserving what is left of our 
natural beauty, and revitalizing the area and providing 
recreational and educational opportunities for residents.
    Most will tell you that their biggest challenge is finding 
enough money to fulfill their mission to preserve this type of 
area. That is where the Federal Government can play a big role, 
and with the potential of the National Park Service, we can 
help to revitalize these areas. In addition to providing 
funding, preservation, and recreational sites, it will also 
protect historically and nationally significant areas, and I 
want to point out maybe two items there.
    In the communities of the San Gabriel Valley, back in the 
1930's, Franklin Delano Roosevelt established what they call 
Rurban Homesteads, and what that meant was that people that 
were on limited income, that were below the poverty level, that 
had jobs that made anywhere from $600 to $1,000 a month, were 
still considered poor and did not have enough money or food 
items to supplement their families with. So through the Federal 
Government, these homesteads were established and one still 
exists alongside of the San Gabriel River. So that is one 
historical site that is currently there.
    The other thing that I want to bring to your attention is 
what we call the eagle indentation that is found on a rock that 
is known as Eagle Rock in the city of Los Angeles. The 
existence there goes way back to 15 million years. That is a 
historical site, as well, and also to mention that the 
Gabrieleno Indian Tribe made their home in the San Gabriel 
Valley. So I would say that there are many, many artifacts, 
historical sites that help to contribute to the rationale for 
establishing this type of national park survey.
    I would also want to bring to your attention that in the 
area known as Whittier Narrows Recreation Area along the San 
Gabriel River, there are over 296 species of birds, 230 types 
of plants, and 24 kinds of animals. As you can see, this is a 
very lively area. We have, if I might share with the members, 
also photographs of the area because I know there may be some 
questions with regard to the highly urbanized area, and there 
are some open spaces on that river, believe it or not. I have 
had the opportunity to participate in different activities 
there, in cleanup projects, but also to expose most of our 
young people and children to the geological as well as the 
historical facets of that particular area.
    I just want to close by saying that this is a very personal 
project. Having grown up in the area and having not had the 
ability as a young child to go out to far places like Yosemite 
and Sequoia National Forests where other folks in my community 
may have had the opportunity, but because of our family status 
at the time, we were limited to going within an hour, an hour-
and-a-half away from our homes, and many families continue to 
enjoy the uniqueness of this area.
    So with that, I would thank the Chairman and our members of 
the Committee for their time and would also, just to close, ask 
for unanimous consent to submit any letters of endorsement and 
letters from my colleagues in other cities that are supporting 
this legislation.
    Mr. Radanovich. Any objection?
    [No response.]
    Mr. Radanovich. So ordered. Thank you very much.
    Ms. Solis. Thank you very much.
    [The prepared statement of Ms. Solis follows:]

Statement of The Honorable Hilda L. Solis, a Representative in Congress 
                      from the State of California

    Mr. Chairman, Ranking Member Christian-Christensen, and Members of 
the Committee, I would like to thank you for holding this important 
hearing today and giving me the opportunity to testify on this bill 
which means so much to my community.
    H.R. 2534, the Lower Los Angeles and San Gabriel Rivers Watershed 
Study Act, would direct the National Park Service to study the Lower 
Los Angeles River, the San Gabriel River and portions of the San 
Gabriel Mountains for potential NPS designation. This bill could 
provide the framework for the future of our regional rivers and could 
eventually provide recreational and environmental opportunities for 
more than two million residents.
    Rivers and mountains have served as the lifeblood of the San 
Gabriel Valley since the Gabrieleno Indian Tribe first settled there 
many centuries ago. However, in the modern age, the area has been 
threatened by development, industry and neglect. I am hopeful that this 
bill will serve as the first step in redefining the San Gabriel Valley 
and exploring ways that we can protect and revitalize our natural 
resources.
    My community is 60% Latino and 30% Asian. We have an extremely high 
unemployment rate and most would assume that our main concern is 
putting food on our tables. However, with three Superfund sites within 
31 miles, 17 gravel pits that resemble moon craters, and a watershed 
that is among the dirtiest in the nation, one of our priorities is the 
environment. The Park Service designation would benefit some of the 
poorest of our society who breathe polluted air and live next to 
superhighways. This will allow our children to enjoy and learn about 
our natural resources.
    According to the University of Southern California's Sustainable 
Cities Program, three to four acres of open or green space are needed 
per 1,000 people for a healthy environment. Unfortunately, in the San 
Gabriel Valley, there is less than one half acre of land per 1,000 
people. I fear that this statistic will become more alarming as the 
population of Los Angeles dramatically increases in the coming years. 
Lack of open space doesn't just mean decreased recreational 
opportunities. As you know, areas without open or green space have 
greater incidences of cardiovascular disease, asthma, diabetes, infant 
mortality, birth defects and cancer.
    I am concerned that if recreational opportunities and natural 
resources are ignored in the San Gabriel Valley, our children will grow 
up at greater risk of health problems, completely surrounded by 
superhighways and concrete buildings. Open and green space is a 
precious commodity in my region; it needs to be protected and 
preserved, and more should be added as it becomes available. If we wait 
too long, we may not have the ability to even consider a measure like 
this one.
    The National Park Service now operates several urban parks that are 
similar to the area I am requesting to be studied, such as those in 
Atlanta, GA, the heart of the New York Metropolitan area, San 
Francisco, CA, and the Twin Cities Metropolitan Area in Minnesota. This 
study could be the foundation for a park that will follow the lead of 
these original urban parks and provide working families in my community 
with the environmental and recreational opportunities that over-
development often prevents.
    The need to revitalize our rivers and improve our recreational 
opportunities inspired the creation of nine local conservancies in the 
Los Angeles area that are kept afloat by state, local and private 
funds. These conservancies are charged with cleaning up abandoned 
areas, buying and preserving what is left of our natural beauty, 
revitalizing the area and providing recreational and educational 
opportunities for residents. Most will tell you that their biggest 
challenge is finding enough money to fulfill their mission and preserve 
their work. This is where we can help.
    Federal input and future potential designation by the National Park 
Service will help these groups restore the San Gabriel Valley for both 
the environment and recreation. In addition to providing funding, 
preservation and recreational areas, it will also protect several 
historically and nationally significant areas.
    The El Monte Rurban Homesteads are one example of a historically 
significant area. In 1933, many citizens of Los Angeles County had an 
annual family income that was only between $600 and $1,000, even though 
they were employed. President Franklin Roosevelt devised a program to 
build simple homes on small plots of land that could be intensely 
cultivated in order to supply the families with their major food 
requirements. These were known as subsistence homesteads--also called 
``rurban'' homes in recognition of their rural and urban nature. Some 
of these homesteads still stand on the banks of the San Gabriel River 
today. They were the beginning of the government's effort to help 
families devastated by the Depression and also the inspiration for 
modern public housing.
    Another example of this region's significance is a natural 
formation known as Eagle Rock in the San Gabriel Mountains. According 
to geologists, the rock and its eagle-like indent were formed about 10 
to 15 million years ago. This area was first inhabited by the 
Gabrieleno Indian Tribe and has served as a site for church ceremonies, 
educational hikes and community events for centuries. The famed bandit 
Tiburcio Vasquez also occupied the rock in the days before his final 
robbery and capture in 1874.
    There are some areas that are also havens for hikers, bird 
watchers, and other nature enthusiasts. In just one area, the Whittier 
Narrows Recreation Area, along the San Gabriel River there are 296 
species of birds, 230 types of plants and 24 kinds of animals. In the 
San Gabriel Mountains, the river runs close to wild. Anglers can still 
catch trout, bass, bluegill, carp, catfish and other varieties in the 
San Gabriel or its lakes.
    By protecting our past, we can also help to preserve the future. 
The Lower Los Angeles River, San Gabriel River and San Gabriel 
Mountains provide many historically and nationally significant areas 
that deserve the protection of the National Park Service. Most 
importantly, these areas provide the potential for recreational, 
educational and open space opportunities that our families deserve.
    I thank the Chairman, Ranking Member and the Committee for your 
time and would be happy to answer any questions.
                                 ______
                                 
    Mr. Radanovich. Any other opening statements?
    [No response.]
    Mr. Radanovich. If not, we will go to our first panel then. 
Our first panel includes the Honorable Charles Taylor 
representing the 11th District from North Carolina here to 
speak on H.R. 4530 and also the Honorable Denny Rehberg, who 
represents the entire State of Montana, speaking on H.R. 4822.
    Mr. Rehberg, we will begin with you. Welcome to your 
Committee and please begin your testimony.

STATEMENT OF HON. DENNIS REHBERG, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MONTANA

    Mr. Rehberg. Thank you, Mr. Chairman. We are here today to 
debate an issue as old as our republic. In fact, the issues 
before us deal very much with the same concerns that led our 
Founding Fathers to declare their independence from an 
overbearing monarchy almost 300 years ago.
    In the late-night hours of January 17, 2001, President 
Clinton and Interior Secretary Bruce Babbitt created the Upper 
Missouri River Breaks National Monument, encompassing nearly 
400,000 acres of Federally owned land. With less than 90 hours 
remaining in his Presidency, the Administration did not consult 
the Congressional delegation, the Governor, or the private 
property owners whom the Act would directly affect. In fact, 
Mr. Chairman, landowners have still yet to be formally notified 
by the U.S. Government that they are inside the boundary, 
almost a year and a half after the proclamation.
    In the rush to complete the Executive Order, more than 
80,000 acres of private property were included within the 
boundaries of the new monument. Ranchers and farmers that have 
worked the same land for generations awoke to find their family 
farms scooped up inside the boundary of an enormous new Federal 
monument. Let there be no mistake, Mr. Chairman. The Federal 
Government's decision to include the 80,000 acres of private 
land in the monument's boundary sends one clear and 
unmistakable message to the families involved: Washington wants 
your land.
    The Antiquities Act of 1906 states that lands included in a 
monument ``shall be confined to the smallest area compatible 
with the proper care and management of the object to be 
protected.'' This provision of the Antiquities Act was 
deliberately ignored in this case of this monument. As you can 
clearly see from the map in the front of the room, and why do 
you not turn the map so they can see it--as you can clearly 
see, private property is indicated by the fluorescent pink 
color. Private property was included not for proper care and 
management of the monument, but for future acquisition and 
inclusion in the monument. Officials at the BLM have stated as 
much publicly.
    My point in bringing this to the Committee's attention is 
that it indicates a blatant abuse of the Antiquities Act, that 
the inclusion of more than 80,000 acres of private property 
represents, and frankly, it ultimately brings into question the 
legality of the monument. But my point in coming before the 
Committee today and in introducing this legislation is not to 
question the legality of the monument. I support the monument. 
Rather, I am here to represent the landowners in my State who 
wish to be taken out of its boundaries.
    These landowners have asked me, their representative, to 
stand up and defend their private property rights, and today, I 
am heeding their call for action in much the same spirit as 
Nobel Laureate August Von Hayek spoke almost 60 years ago to 
the day, on the eve of the final collapse of the German 
government in World War II, Mr. Von Hayek reminded future 
generations that private property is the most important 
guarantee of freedom, not only for those who own property but 
for those who do not.
    Mr. Chairman, my legislation has only one effect in its 
desired outcome that rightly heeds the warnings of the past by 
safeguarding our rights for the future. H.R. 4822 respects the 
private property rights of fourth and fifth generation ranchers 
and farmers who have appealed to my office to remove their 
lands from the monument boundary. The legislation before the 
Committee today does not change the size of the Federal 
monument by one square inch, nor does it limit the amount of 
land accessible to the public. My bill would simply remove 
private property from within the boundary of the monument.
    As various lobbying organizations from Washington, D.C., 
and Montana have geared up for the debate over the legislation, 
one fact seems to have been tossed aside in the stampede to 
ignore the rights of those affects. None of the folks opposed 
to my legislation are personally impacted by the monument. In 
fact, the minority witness we will hear from today lives 
outside the monument boundary. As H.R. 4822 does not alter the 
size of the Federal monument by one square inch, the minority 
testimony is not only irrelevant, it is a direct affront to the 
private property rights of those within the boundary pleading 
for this Congress to act.
    Mr. Chairman, H.R. 4822 has the unanimous support of 
locally elected county commissioners representing the Upper 
Missouri River Breaks National Monument. H.R. 4822 has the 
strong support of Governor Martz. The largest daily newspaper 
in the region, the Great Falls Tribune, long an advocate for 
the monument, editorialized this past week in support of my 
legislation. Quoting now from the editorial, ``In addition to a 
clear map they can hold up when a tourist wanders onto their 
land, what the landowners are seeking is anything that might 
give them more leverage down the road in the event the larger 
public interest does not square with their own. We do not see 
much of a downside to that. The original framers of the 
monument should not either.''
    Most importantly, Mr. Chairman, this legislation has the 
strong support of the private landowners who are actually 
affected. In the end, that should be all that matters to this 
Committee and the Congress. H.R. 4822 will keep the entire 
monument intact, allow for complete public access, and uphold 
the constitutionally guaranteed private property rights of the 
landowners upon whose behalf I stand today. Thank you, Mr. 
Chairman.
    Mr. Radanovich. Thank you, Mr. Rehberg.
    [The prepared statement of Mr. Rehberg follows:]

   Statement of The Honorable Dennis R. Rehberg, a Representative in 
                   Congress from the State of Montana

    Mr. Chairman, we are here today to debate an issue as old as our 
Republic. In fact, the issues before us deal very much with the same 
concerns that led our founding fathers to declare their independence 
from an overbearing monarchy almost three hundred years ago.
    In the late-night hours of January 17th, 2001, President Clinton 
and Interior Secretary Bruce Babbitt created the Upper Missouri River 
Breaks National Monument--encompassing nearly 400,000 acres of 
Federally owned land.
    With less than ninety hours remaining in his Presidency, the 
Administration did not consult with the Congressional Delegation, the 
Governor or the private property landowners whom the Act would directly 
affect. In fact, Mr. Chairman, landowners still have yet to be formally 
notified by the U.S. government that they are inside the boundary--
almost a year and a half after the proclamation.
    In the rush to complete the executive order, more than 80,000 acres 
of private property were included within the boundaries of the new 
Monument. Ranchers and farmers that have worked the same land for 
generations awoke to find their family farms scooped up inside the 
boundary of an enormous new Federal monument.
    Let there be no mistake, Mr. Chairman. The Federal Government's 
decision to include more than 80,000 acres of private land in the 
Monument's boundary sends one clear and unmistakable message to the 
families involved: ``Washington Wants Your Land''.
    The Antiquities Act of 1906 states that lands included in a 
monument, quote, ``shall be confined to the smallest area compatible 
with the proper care and management of the object to be protected...'' 
This provision of the Antiquities Act was deliberately ignored in the 
case of this Monument. As you can clearly see from the map at the front 
of the room,--private property is indicated by the fluorescent pink 
color--private property was included not for proper care and management 
of the Monument, but for future acquisition and inclusion in the 
Monument. Officials at the BLM have stated as much publicly.
    My point in bringing this to the Committee's attention is that it 
indicates the blatant abuse of the Antiquities Act that the inclusion 
of more than 80,000 acres of private property represents. And, frankly, 
it ultimately brings into question the legality of the Monument. But my 
point in coming before the Committee today and introducing this 
legislation is not to question the legality of the Monument. I support 
the Monument. Rather, I am here to represent the landowners in my state 
who wish to be taken out of its boundaries. These landowners have asked 
me, their Representative, to stand up and defend their private property 
rights, and today I am heeding their call for action in much the same 
spirit as Nobel Laureate August Von Hayek spoke almost sixty years ago 
to the day. On the eve of the final collapse of the German government 
in World War II, Mr. Von Hayek reminded future generations that: 
``private property is the most important guarantee of freedom, not only 
for those who own property, but for those that do not.''
    Mr. Chairman, my legislation has only one affect and it is a 
desired outcome that rightly heeds the warnings of the past by 
safeguarding our rights for the future. H.R. 4822 respects the private 
property rights of fourth and fifth generation ranchers and farmers who 
have appealed to my office to remove their lands from the Monument 
boundary. The legislation before the Committee today does not change 
the size of the Federal Monument one square inch--nor does it limit the 
amount of land accessible to the public. My bill would simply remove 
private property from within the boundary of the Monument.
    As various lobbying organizations from Washington, D.C. and Montana 
have geared up for the debate over this legislation, one fact seems to 
have been tossed aside in the stampede to ignore the rights of those 
affected: none of the folks opposed to my legislation are personally 
impacted by the Monument boundary. In fact, the minority witness we 
will hear from today lives outside the Monument boundary. As H.R. 4822 
does not alter the size of the Federal Monument by one square inch, the 
minority testimony is not only irrelevant, it is a direct affront to 
the private property rights of those within the boundary pleading for 
this Congress to act.
    Mr. Chairman, H.R. 4822 has the unanimous support of locally 
elected county commissioners representing the Upper Missouri River 
Breaks National Monument. H.R. 4822 has the strong support of Governor 
Martz. The largest daily newspaper in the region, the Great Falls 
Tribune, long an advocate for the Monument, editorialized this past 
week in support of my legislation. Quoting now from the editorial: ``In 
addition to a clear map they can hold up when a tourist wanders onto 
their land, what the landowners are seeking is anything that might give 
them more leverage down the road in the event the larger public 
interest doesn't square with their own...We don't see much of a 
downside to that, the original framers of the Monument shouldn't 
either.''
    Most importantly Mr. Chairman, this legislation has the strong 
support of the private landowners who are actually affected. In the 
end, that should be all that matters to this Committee and the 
Congress.
    H.R. 4822 will keep the entire Monument intact, allow for complete 
public access and uphold the Constitutionally guaranteed private 
property rights of the landowners upon whose behalf I stand today.
                                 ______
                                 
    Mr. Radanovich. Mr. Taylor, please begin your testimony, if 
you would, and welcome to the Committee, on H.R. 4530.

STATEMENT OF HON. CHARLES TAYLOR, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Taylor. Mr. Chairman, as a former member of this 
Subcommittee back when we operated on stone years ago, I am 
pleased to be here with you in support of H.R. 4530, to 
authorize a study of the Blue Ridge National Heritage Area.
    The study will not call for condemnation of further land in 
Western North Carolina, which I am against. It will not call 
for any additional purchase of government land. But it will 
allow us to have a study of the cultural assets and hopefully 
direct the residents and guests how most to effectively observe 
and visit those assets.
    The Blue Ridge and Great Smokey Mountains of North Carolina 
remain the most biologically diverse temperate environments on 
earth and have a rich cultural heritage. Prominent features 
include Mount Mitchell, the highest mountain in the Eastern 
United States; America's first National First, the Pisgah; the 
Nantahala, a National Forest and the Cradle of Forestry, the 
first School of Forestry; and the Great Smokey Mountains 
National Park and the Blue Ridge Parkway.
    Western North Carolina also has the richest culture in the 
Southeast. Famous for its distinctive style in weaving, 
pottery, jewelry, woodwork, and music, the mountainous region 
of North Carolina is a melting pot of different cultures. 
Craftspeople in the area account for a large portion of the 
economy. The Biltmore House, the Johnson Farm, and the Cherokee 
Reservation are just a few of the places that preserve the 
history of the area. Our literary legacy is rich, too, with the 
longtime homes of National Poet Laureate Carl Sandburg and 
Thomas Wolf and O'Henry, all located in Western North Carolina.
    Preservation, development, and enhancement of these 
biological and cultural features are important and worthy of 
designation under the National Heritage Area Program. HandMade 
in America and Advantage West have worked together to develop 
the proposed Blue Ridge National Heritage Area. It is my hope 
that the Committee and the National Park Service will move 
forward rapidly with not only the study for H.R. 4530, but also 
for the actual designation of the Blue Ridge National Heritage 
Area.
    Ms. Becky Anderson, who is Executive Director of HandMade 
in America, is with us today. She has 30 years' experience in 
economic and community development in Western North Carolina 
and has served as Director of Economic Development for the 
Asheville Chamber of Commerce and Director of Asheville's 
Downtown Development Office.
    Betty Huskins, who is also with me, has worked to improve 
the quality of life in communities throughout the mountains of 
North Carolina through sustainable economic development. As 
Vice President of Public Affairs and Corporate Development for 
AdvantageWest, a regional public/private economic development 
partnership, her work includes marketing and growing tourism in 
the region, much of which is focused on the region's rich 
cultural heritage.
    Mr. Chairman, I thank you and the Committee for hearing 
this bill and the witnesses who will be here. Thank you.
    Mr. Radanovich. Thank you, Mr. Taylor.
    [The prepared statement of Mr. Taylor follows:]

   Statement of The Honorable Charles H. Taylor, a Representative in 
               Congress from the State of North Carolina

    Mr. Chairman (George Radanovich), and Members of the Subcommittee, 
I am pleased to come before you today in support of H.R. 4530 to 
authorize a study of the Blue Ridge National Heritage Area.
    The Blue Ridge and Great Smokey Mountains of North Carolina remain 
the most biologically diverse temperate environments on earth, and have 
a rich cultural heritage. Prominent features include Mt. Mitchell, the 
highest mountain in the Eastern United States, America's first National 
Forest, the Pisgah; the Nantahala a National Forest, the Cradle of 
Forestry, and of course the Great Smoky Mountains Nation Park and the 
Blue Ridge Parkway.
    Western North Carolina also has the richest culture in the 
Southeast. Famous for its distinct style in weaving, pottery, jewelry, 
woodwork, and music, the mountainous region of North Carolina is a 
melting pot of different cultures. Craftspeople in the area account for 
a large portion of the economy. The Biltmore House, Johnson Farm, and 
the Cherokee Reservation are just a few of the places that preserve the 
history of the area. Our literary legacy is rich too, with the long 
time home of our national Poet Laureate, Carl Sandburg at Connemara in 
Henderson County, and of course, Asheville, the home of Thomas Wolf and 
O'Henry.
    Preservation, development, and enhancement of these biological and 
cultural features are important, and worthy of designation under the 
National Heritage Area Program. Handmade in America and Advantage West 
worked together to develop the proposed Blue Ridge National Heritage 
Area. It's my hope that the Committee and the National Park Service 
will forward rapidly with not only the study called for in H.R. 4530, 
but also the actual designation of the Blue Ridge National Heritage 
Area.
    Ms. Becky Anderson, is Executive Director of HandMade in America. 
She has 30 years experience in economic and community development in 
Western North Carolina serving as Director of Economic Development for 
the Asheville Chamber of Commerce, the Director of Asheville's Downtown 
Development Office and Director of Community Development for Land of 
Sky Regional Council.
    Betty Huskins has worked to improve the quality of life in 
communities throughout the mountains of North Carolina through 
sustainable economic development. As Vice President - Public Affairs & 
Corporate Development for AdvantageWest, a regional public/private 
economic development partnership, her work includes marketing and 
growing tourism in the region, much of which has focused on the 
region's rich cultural heritage.
    Mr. Chairman, I thank the Committee for hearing this bill and these 
witnesses.
                                 ______
                                 
    Mr. Radanovich. Originally, we were expecting a vote at 
around 11:00, but it looks like they are a little bit earlier 
today, multiple votes, it sounds like. But I think with that, 
gentlemen, thank you so much for your testimony, and again, you 
are welcome to join us on the dais for the rest of the hearing.
    We are going to be considering all three bills during the 
course of this hearing and we will begin that by introducing 
our next panel, panel two, which includes Katherine Stevenson, 
Associate Director of Cultural Resource Stewardship and 
Partnerships of the National Park Service, and Ms. Patricia 
Morrison, Deputy Assistant Secretary for Land Minerals 
Management of the BLM.
    Welcome to the panel. If we can, I would like to get 
through, assuming that we are going to keep testimony to 5 
minutes, if we can quickly begin our statements, then we will 
recess and allow members to go vote and then we will come back 
and open it up for questions.
    Ms. Morrison, welcome to the panel, and if you would begin 
your testimony, that would be terrific.

STATEMENT OF PATRICIA MORRISON, DEPUTY ASSISTANT SECRETARY FOR 
   LAND AND MINERALS MANAGEMENT, BUREAU OF LAND MANAGEMENT, 
                        WASHINGTON, D.C.

    Ms. Morrison. Thank you, Mr. Chairman. My name is Patricia 
Morrison. I am the Deputy Assistant Secretary for Land and 
Minerals Management and I am here testifying on behalf of the 
Department of Interior, as well as the Bureau of Land 
Management, one of the agencies under our jurisdiction.
    The testimony I am going to give is with respect to H.R. 
4822, and I would first like to thank you, Mr. Chairman, and 
the Subcommittee for inviting the Department of Interior to 
testify on this bill.
    The bill we are going to testify on, again, is H.R. 4822. 
It is on the Upper Missouri River Breaks Boundary Clarification 
Act, and while we at BLM believe that the Presidential 
proclamation establishing the monument makes it clear that the 
proclamation covers only Federally owned lands within the 
monument boundaries, the Department does support this bill, 
H.R. 4822, because it would provide additional comfort to the 
landowners, the private and State landowners that are located 
within the monument boundaries, and that the monument 
designation will not impact the management of those lands.
    This will also help us at the Department to engage with 
some of our local partners in a more constructive fashion that 
we believe will result in a more broadly supported management 
plan for the Upper Missouri River Breaks National Monument.
    President Clinton, as it has been noted, created this 
national monument by Proclamation 7398 on January 17 of 2001 
under the authority of the Antiquities Act of 1906. That Act, 
the Antiquities Act, allows the President in certain 
circumstances to create a monument from land that is owned or 
controlled by the United States. The proclamation states 
clearly that the monument consists of ``all lands and interests 
in lands owned or controlled by the United States within the 
boundaries of the area described on the map entitled Upper 
Missouri River Breaks National Monument attached to and forming 
a part of this proclamation.''
    The problem is, is that the map shows a boundary that 
enclosed private and State land, not just Federally owned or 
controlled lands. It was undoubtedly intentional that the map 
boundaries enclosed private and State land, as well, because 
the proclamation also states, and I quote, ``Lands and interest 
in land within the proposed monument not owned by the United 
States shall be reserved as a part of the monument upon 
acquisition of title thereto by the United States.''
    The proclamation does not make a claim to non-Federal 
property--I want to make that clear--within the area that it 
identifies as a monument. The legal uncertainty created by the 
proclamation goes to the status of that non-Federal land within 
this area that the Federal Government may later acquire, not to 
the scope of the Federal Government's current interests or even 
to the reach of its existing acquisition authorities.
    Although the uncertainty created by the proclamation does 
not affect the title held by those private and State 
landowners, it may affect their interests, and if the land that 
the United States acquires within the monument area 
automatically obtains monument status, as the proclamation 
asserts, the prospects for economic activity could possibly be 
altered. Accordingly, those private and State landowners can 
benefit significantly from Congressional reaffirmation of the 
status of those non-Federal lands, i.e., the State and private 
lands.
    The Department of Interior does support H.R. 4822 as a 
means of providing that reaffirmation to the residents of the 
Upper Missouri River Breaks area. The legislation offered by 
Representative Rehberg would help reassure those who have 
expressed concerns regarding the proclamation of January of 
2001. It would reaffirm that the private lands are not within 
the boundary of the Upper Missouri River Breaks National 
Monument and it would direct the Department of the Interior to 
provide a map for the management planning purposes to reflect 
the actual Federal lands that make up the monument itself.
    In light of this specifically, the Department urges the 
Committee to amend Section 2(a) of the Act by striking ``any 
privately owned property'' and inserting in lieu of there ``any 
property not owned or controlled by the Federal Government at 
the time of the issuance of the proclamation.''
    The legislation currently refers to privately owned 
property, which leaves out roughly 39,000 acres of State-owned 
land. We believe that the same assurances provided to the 
private landowners should also be given to the State of Montana 
and any other non-Federal landowner that might possess property 
within the proclamation boundary.
    This concludes my testimony, and again, I thank you, Mr. 
Chairman and Subcommittee, for allowing the Department of 
Interior to testify on this bill.
    Mr. Radanovich. Thank you very much, Ms. Morrison.
    [The prepared statement of Ms. Morrison follows:]

Statement of Patricia Morrison, Deputy Assistant Secretary for Land and 
Minerals Management, Bureau of Land Management, U.S. Department of the 
                                Interior

    Thank you for giving me the opportunity to testify on behalf of the 
Department of the Interior on H.R. 4822, the Upper Missouri River 
Breaks Boundary Clarification Act. While we believe that the 
Presidential proclamation establishing the monument makes it clear that 
the proclamation covers only Federally-owned lands within the monument 
boundaries, the Department supports H.R. 4822 because it would provide 
additional comfort to the private and state owners of lands located 
within the monument boundaries that the monument designation will not 
impact management of their lands. This will also help us to engage some 
of our local partners in a more constructive fashion that we believe 
will result in a more broadly supported management plan for the Upper 
Missouri River Breaks National Monument.
    President Clinton created the Upper Missouri River Breaks National 
Monument by Proclamation 7398 on January 17, 2001 under the Antiquities 
Act of 1906. The Antiquities Act allows the President in certain 
circumstances to create a monument from land that is owned or 
controlled by the United States. The Proclamation stated clearly that 
the Monument consists of ``all lands and interests in lands owned or 
controlled by the United States within the boundaries of the area 
described on the map entitled 'Upper Missouri River Breaks National 
Monument' attached to and forming part of this proclamation''. The 
problem is that the map showed boundaries that enclosed private and 
state land as well--not just Federally-owned or controlled lands. It 
was undoubtedly intentional that the map boundaries enclosed private 
and state land as well, because the Proclamation also said ``Lands and 
interests in land within the proposed monument not owned by the United 
States shall be reserved as a part of the monument upon acquisition of 
title thereto by the United States''. The Proclamation makes no claim 
to non-federal property within the area that it identifies as the 
monument. The legal uncertainty created by the Proclamation goes to the 
status of non-federal land within this area that the Federal Government 
may later acquire, not to the scope of the Federal Government's current 
interests or even to the reach of its existing acquisition authorities. 
Although the uncertainty created by the Proclamation does not affect 
the security of title held by private and state landowners, it may 
affect their interests. If land that the United States acquires within 
the monument area automatically obtained monument status, as the 
Proclamation asserts, the prospects for economic activity in the region 
could be altered. Accordingly, private and state landowners can benefit 
significantly from congressional reaffirmation of the status of these 
non-federal lands. The Department of the Interior supports H.R. 4822 as 
a means of providing that reaffirmation to residents of the Upper 
Missouri Breaks area.

Background
    The proclamation, issued by President Clinton, designated 377,346 
acres of Federal lands as a national monument, running along 149 miles 
of the Missouri River. It includes the Wild and Scenic River corridor 
of the Upper Missouri River as well as large blocks of land managed by 
the Bureau of Land Management, and a small number of acres managed by 
the U.S. Fish & Wildlife Service. The monument boundary also contains 
nearly 82,000 acres of private land and 39,000 acres of state land.
    The language of the proclamation states clearly that the monument 
itself is established on ``all lands and interests in lands owned or 
controlled by the United States within the boundaries of the area 
described on the map... consist[ing] of approximately 377,346 
acres....'' On these Federal lands, the monument proclamation imposed a 
number of restrictions, including the withdrawal from entry, location, 
selection, sale or leasing under the public land laws, the mining laws 
and mineral leasing laws. It also prohibits off road motorized and 
mechanized vehicle use, except for emergency or administrative 
purposes. The proclamation does provide for continued livestock grazing 
and management of oil and gas development on existing leases.
    The formal planning for the Monument began on April 24, 2002, with 
the publication of a notice in the Federal Register. We are currently 
undergoing a 120-day scoping period. In addition to seeking public 
comment, the BLM's Lewistown field office plans to hold a series of 11 
open houses throughout north central Montana beginning July 8 and 
continuing through August 6. The Monument staff will also seek to 
engage the public through regular updates on the website as well as 
through local media outlets. The BLM expects to release a draft plan by 
the summer of 2004, which will be followed by an additional public 
comment period.

The Status of Non-Federal Lands Within the Monument
    The Antiquities Act of June 8, 1906, authorizes the President to 
designate national monuments on lands owned or controlled by the 
Federal Government at the time of the monument proclamation. The 
Antiquities Act states, ``The President of the United States is 
authorized, in his discretion, to declare by public proclamation 
historic landmarks, historic and prehistoric structures, and other 
objects of historic or scientific interest that are situated upon the 
lands owned or controlled by the Government, and may reserve as part 
thereof parcels of land, the limits of which in all cases shall be 
confined to the smallest area compatible with the proper care and 
management of the objects to be protected.''
    The proclamation of January 17, 2001, sets apart and reserves lands 
and interests in lands owned or controlled by the United States within 
the boundaries of the national monument described on the map made part 
of the proclamation. The proclamation also recognizes the standing of 
all valid, existing rights and interests within the monument 
boundaries. Although the proclamation makes clear that non-federal 
lands within the boundary of the monument are not a part of the 
monument, owners of private and state land within the monument remain 
concerned about the monument's implications for non-federal lands.

H.R. 4822
    The legislation offered by Representative Rehberg would help 
reassure those who have expressed concerns regarding the proclamation 
of January 17, 2001. It would reaffirm that private lands are not 
within the boundary of the Upper Missouri River Breaks National 
Monument and it would direct the Department of the Interior to provide 
a map for management planning purposes to reflect the actual Federal 
lands that make up the monument itself.
    H.R. 4822 would give non-federal landowners the assurance that 
their cooperation is voluntary and, hopefully, will improve their 
participation as partners with our Federal land managers. The 
Department notes that this in no way prevents willing sellers from 
working with the Administration to add their lands to the monument 
where all parties believe it is appropriate.
    The Department urges the Committee to amend Section 2(a) of the Act 
by striking ``any privately owned property'' and inserting in lieu 
thereof ``any property not owned or controlled by the Federal 
Government at the time of issuance of that Proclamation''. The 
legislation currently refers only to privately owned property, which 
leaves out the roughly 39,000 acres of state-owned lands. We believe 
that the same assurances provided to private landowners should also be 
given to the State of Montana and any other non-federal landowner that 
might possess property within the proclamation boundary.
Conclusion
    This concludes my statement. I'd like to thank the Committee for 
providing the Department the opportunity to testify on H.R. 4822 today.
                                 ______
                                 
    Mr. Radanovich. Kate, welcome back to the Committee. I know 
you have been here many times before. Please begin your 
testimony, if you would, regarding the two bills, H.R. 2534 and 
H.R. 4530. As I mentioned, after we hear from both of you, we 
will recess briefly to vote and come back. If you would remain 
available for questions until we get back, that would be much 
appreciated.

   STATEMENT OF KATHERINE STEVENSON, ASSOCIATE DIRECTOR FOR 
 CULTURAL RESOURCE STEWARDSHIP AND PARTNERSHIPS, NATIONAL PARK 
                   SERVICE, WASHINGTON, D.C.

    Ms. Stevenson. Thank you, Mr. Chairman, and thank you for 
the opportunity to present the Department's views on H.R. 4530 
and H.R. 2354. I will summarize my remarks and submit the full 
text for the record.
    The bill to study the Lower Los Angeles River and San 
Gabriel Watersheds, H.R. 2354, the Department does not oppose 
this bill. However, the Department believes that any funding 
available should be directed toward completing previously 
authorized studies, of which we have quite a few. Should we 
undertake such a study, however, we would recommend combining 
it with the study proposed in H.R. 2715, which is a bill to 
evaluate and study the suitability and feasibility of 
establishing the Rim of the Valley Corridor as a unit of the 
National Park Service of Santa Monica National Recreation Area. 
These bills affect nearly adjacent territories, so there could 
be some economy of scale in dealing with the two bills 
together.
    We understand the potential of these areas to provide 
recreational opportunities for urban communities because NPS 
has already had an involvement in Santa Monica National 
Recreation Area as well as through our Rivers, Trails, and 
Conservation Assistance Programs in L.A. Any such study would 
require, however, extensive public meetings and community 
involvement and would likely require substantial staff time.
    H.R. 4530, Blue Ridge Heritage and Cultural Partnership 
Study Area, the Department supports this bill but reiterates 
the comments made earlier regarding a backlog of studies in the 
National Park Service. This study would assess 25 counties in 
the Southern Appalachian Region of Western North Carolina for 
its potential as a National Heritage Area. The area encompasses 
just over 10,000 square miles. Because extensive work has 
already been done for this area by HandMade in America and the 
Blue Ridge Heritage Initiative, we anticipate that a 
significant amount of information could be drawn from existing 
studies, thus reducing the time and effort required by the 
National Park Service.
    Mr. Chairman, this concludes my remarks. I will be happy to 
answer any questions you may have.
    Mr. Radanovich. Thank you very much for a very good summary 
and I appreciate the testimony.
    [The prepared statement of Ms. Stevenson on H.R. 2534 
follows:]

   Statement of Katherine Stevenson, Associate Director of Cultural 
  Resource Stewardship and Partnerships, National Park Service, U.S. 
               Department of the Interior, on H.R. 2534,

    Mr. Chairman, thank you for the opportunity to present the 
Department's views on this bill to study the lower Los Angeles River 
and San Gabriel watersheds in the Los Angeles Basin.
    The Department does not oppose the bill. However, the Department 
did not request additional funding for this study in Fiscal Years 2003. 
We believe that any funding requested should be directed towards 
completing previously authorized studies. Presently, there are 37 
studies pending, of which we expect to transmit 7 to Congress by the 
end of 2002. To meet the President's Initiative to eliminate the 
deferred maintenance backlog, we must continue to focus our resources 
on caring for existing areas in the National Park System. Thus, we have 
concerns about adding new funding requirements for new park units, 
national trails, wild and scenic rivers or heritage areas at the same 
time that we are trying to reduce the deferred maintenance backlog. As 
such, the Department will identify all acquisition, one-time and 
operational costs of the proposed site. At this time, those costs are 
unknown.
    In addition to H.R. 2534, Congressman Adam Schiff has introduced 
H.R. 2715, a bill to evaluate and study the suitability and feasibility 
of establishing the Rim of the Valley Corridor as a unit of Santa 
Monica Mountains National Recreation Area. These bills affect nearly 
adjacent territories in the Los Angeles basin and affect nearly 
identical large constituencies. As any study would include a public 
involvement component, combining the planning effort to evaluate both 
areas would not only be less confusing to the public but also more 
cost-effective for the government. Since a study of the San Gabriel and 
Lower Los Angeles Rivers is estimated to cost approximately $500,000, 
there could be considerable efficiencies gained by combining and 
narrowing the focus of these two proposed studies.
    While some familiar with the Lower Los Angeles River and San 
Gabriel River watersheds may think of them as concrete-lined ditches, 
the rivers provide an important opportunity for low-impact recreation 
for many urban residents in adjacent communities. Several successful 
efforts have already been undertaken to provide bikeways and hiking 
areas along the river's banks. Additionally, small tracts of green 
space have been acquired to provide outdoor recreation opportunities in 
the form of playgrounds for children, picnic areas, benches for rest 
and respite from the urban environment and for areas to walk and 
bicycle. Many areas have been replanted with a variety of native 
vegetation to enhance the local environment.
    This study will assess habitat quality, access to urban open space, 
low-impact recreation and educational uses, wildlife and habitat 
restoration and protection and watershed improvements along the Los 
Angeles and San Gabriel watersheds as well as the Valley of the Rim 
corridor surrounding the San Fernando and La Crescenta Valleys. This 
latter corridor consists of portions of the Santa Monica Mountains, 
Santa Susanna Mountains, San Gabriel Mountains, Verdugo Mountains, San 
Rafael Hills and the connector to Los Padres and San Bernardino 
National Forests.
    The National Park Service has some familiarity with the region and 
these watersheds. Our National Park Service Rivers and Trails 
Conservation Assistance Program continues to have interaction with 
communities along the Los Angeles River and has provided technical 
assistance for outdoor recreation potential. Additionally, the Santa 
Monica Mountains National Recreation Area provides protection for 
153,750 acres while providing recreational opportunities for 
approximately 530,000 visitors annually.
    The watershed of the Los Angeles and San Gabriel Rivers contains 
important natural resources, which are disappearing in Los Angeles 
County. The continuous greenbelt corridors serve as habitat for 
breeding, feeding, resting or migrating birds and mammals, while 
allowing migration to take place around and amongst the urban areas. 
The higher reaches of the watershed also contain significant examples 
of rock outcroppings, as well as native vegetation.
    This area has a rich cultural heritage, which is evident by the 
approximately 9 properties within the boundaries of the study area on 
the National List of Historic Places and 96 properties on the state 
register of historic places. These properties weave a rich tapestry of 
the cultural history of the area and include Mission San Gabriel 
Archangel, the mission founded in 1771 by the Spanish missionaries who 
were moving up the coast of California; Mission San Fernando Rey de 
Espana, founded in 1797; Merced Theatre, the first building built 
expressly for theatrical purposes in Los Angeles, dating back to 1870; 
Lummis House, constructed by Charles F. Lummis, an author, editor, 
poet, athlete, librarian, historian and archeologist during his life 
from 1859-1928; Los Encinos State Historic Park, used as a headquarters 
by the Franciscan padres before they built Mission San Fernando; 
Angeles Flight Railway, which was an incline railway built in 1901 to 
carry residents up the hill from the downtown shopping district; and 
Alvarado Terrace Historic District, which includes 12 buildings 
displaying prime examples of architecture and social history from 1900-
1924.
    The Los Angeles River and San Gabriel River watershed is adjacent 
to the Angeles National Forest and contains state, county and local 
parks within. The recreational experience would be heightened by the 
establishment of trail connections and linkages for the urban 
populations of Los Angeles, as well as for visitors. These connections 
would also allow users to leave the populated areas and connect to the 
prime natural areas in the region. These trails would be used for 
hiking, mountain biking, nature study and bird watching.
    A study will outline public-private partnerships, which are core to 
preserving large tracts of open space such as are included in this 
study. The San Gabriel and Lower Los Angeles Rivers and Mountains 
Conservancy (RMC) was established as an independent State agency within 
the Resources Agency of the State of California in 1999. It was 
established to preserve urban space and habitats in order to provide 
for low-impact recreation and educational uses, wildlife and habitat 
restoration and protection and watershed improvements. The RMC has 
brought diverse groups together to work in partnership to protect the 
precious resources within these two watersheds.
    Any study that is undertaken along the San Gabriel and Lower Los 
Angeles Rivers will involve extensive public meetings, extended comment 
periods and more complex analyses because issues and options in a 
large, urban area with such a diverse and extensive group of 
stakeholders at all levels of government would be considered.
    This concludes my testimony. Thank you for the opportunity to 
discuss this issue and I would be willing to answer any questions you 
may have on this issue.
                                 ______
                                 
    [The prepared statement of Ms. Stevenson on H.R. 4530 
follows:]

   Statement of Katherine Stevenson, Associate Director for Cultural 
  Resource Stewardship and Partnerships, National Park Service, U.S. 
                Department of the Interior, on H.R. 4530

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 4530. This bill would direct 
the Secretary of the Interior to study the suitability and feasibility 
of establishing the Blue Ridge Heritage and Cultural Partnership Study 
Area in North Carolina.
    The Department supports H.R. 4530, with minor amendments as 
described later in this testimony. However, we did not request 
additional funding for this study in Fiscal Year 2003. We believe that 
any funding requested should be directed towards completing previously 
authorized studies. Altogether, there are 37 studies pending, of which 
we hope to transmit at least 7 to Congress by the end of 2002. To meet 
the President's Initiative to eliminate the deferred maintenance 
backlog, we must continue to focus our resources on caring for existing 
areas in the National Park System. We have concerns about adding new 
funding requirements for new park units, national trails, wild and 
scenic rivers or heritage areas at the same time that we are trying to 
reduce the deferred maintenance backlog. To estimate these potential 
new funding requirements, the Administration will identify in each 
study all of the costs to establish, operate and maintain the proposed 
site. At this time those costs are unknown.
    H.R. 4530 calls for studying an area comprised of 25 counties in 
the Southern Appalachian Region of Western North Carolina, along with 
any other areas adjacent to or in the vicinity of the area to be 
studied that have similar heritage aspects. The 25-county area 
described in the bill, which comprises 10,503 square miles, is bounded 
by the states of Virginia on the north, Tennessee on the west, and 
Georgia and South Carolina on the South. Asheville is the largest city 
in this region. The Blue Ridge Mountains and Great Smoky Mountains, 
part of the Appalachian Mountain range, run through this area. Two 
units of the National Park System, the Blue Ridge Parkway and Great 
Smoky Mountains National Park, are partially located within the study 
area. It also contains two national forests, five state parks, four 
recreational areas and six wilderness areas.
    The region's crafts and countryside, its traditional music, its 
Cherokee Indian history and traditions, and its agricultural heritage 
have helped shape a unique cultural identity for the Southern 
Appalachian Region. These resources have been incorporated into a 
variety of tourist, resource and nature-based programs throughout the 
area that have heightened awareness of the value of the cultural 
heritage of the region and earned national and international 
recognition for Western North Carolina.
    The study area is home to about 4,000 craftspeople who contribute 
an estimated $122 million annually to the region's economy. The region 
is considered the origin of both the traditional and contemporary craft 
movements in the United States. The area is known for a range of crafts 
including pottery, weaving, woodworking, ceramics, quilts, spinning, 
basketry, jewelry design, printmaking, glass making, photography, metal 
and ironwork.
    The music of the Blue Ridge Mountains is a distinctive style that 
includes stringband, bluegrass, unaccompanied ballad singing, blues and 
sacred music. The wealth and vitality of the traditional music is 
recognized in the Blue Ridge Music Center which was developed on the 
Blue Ridge Parkway by the National Park Service. With roots in the 
British Isles, Europe and Africa, musicians in the region have 
contributed to many contemporary American musical forms.
    The Eastern Band of Cherokee Indians is a strong and influential 
presence in the region. Two dialects of the Cherokee language continue 
to be spoken. Cherokee traditional artists have received recognition at 
state and national levels. The music and dance traditions are also 
maintained. These traditions are being shared with tourists through a 
series of Cherokee Heritage Trails. The trails' focus on traditional 
culture is intended to be educational and provide economic 
sustainability.
    The agricultural heritage of the region reflects the natural 
resources and the traditions of the people who worked the land to make 
a living and survive. The patterns of the Cherokee agricultural 
practices were combined with the European practice of raising 
livestock. The early small, self-sufficient farms still influence the 
region's present day agricultural heritage.
    The study called for by H.R. 4530 would have a head start relative 
to other studies authorized by Congress because much work toward 
meeting the National Park Service's criteria for national heritage area 
studies has already been done for this area. A report entitled Blue 
Ridge Heritage & Cultural Partnership was prepared for an organization 
known as the Blue Ridge Heritage Initiative, with the involvement of 
the National Park Service. The organization HandMade in America, Inc., 
which is one of the organizations the bill specifically requires 
consultation with, was one of the key partners in this effort, along 
with many other state and regional organizations. Using the information 
that has already been compiled in that report will facilitate the 
National Park Service's study.
    The Department supports H.R. 4530 with minor amendments to correct 
what appears to be an unintentional error in the language of the bill. 
As introduced, H.R. 4530 authorizes a study of the suitability and 
feasibility of ``establishing a study area.'' Studies for determining 
whether an area should be a national heritage area typically authorize 
a study of the suitability and feasibility of ``establishing a national 
heritage area.'' We would be happy to work with the Subcommittee to 
develop amendments to reword H.R. 4530 accordingly.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. With that, we are going to recess, and 
again, we will be back very shortly. Thank you.
    [Recess.]
    Mr. Radanovich. We are back in session. I am going to open 
up the floor for questions of our two witnesses. Mrs. 
Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman, and thank you 
for allowing me to go first. I do have some questions for Ms. 
Morrison.
    First, it has been alleged there was a technical mistake in 
drafting the Upper Missouri River Breaks National Monument 
proclamation that resulted in a violation of U.S. law and 
endangering of private property. Are there any violations of 
U.S. law in the proclamation? Have you seen it? Have you noted 
any violations of law?
    Ms. Morrison. No, Congresswoman.
    Mrs. Christensen. I have parks at home with a lot of 
private property within the parks. Other monuments across the 
country have private holdings within the parks. Why do we have 
to create this sort of uncertainty? Do you support H.R. 4822?
    Ms. Morrison. Yes, ma'am.
    Mrs. Christensen. For this one park. Does that not create a 
lot of uncertainty for everyone else? If you have to make a 
statement regarding the private property rights for this one 
park, what happens to my parks in St. John, or monuments--
sorry? What happens to the other monuments that have private 
property in it? Is it not correct to assume that there is no 
infringement on the management rights of those private property 
holdings even though those properties are within a monument or 
a park? Why do we need this bill?
    Ms. Morrison. This bill specifically addresses the Upper 
Missouri River Breaks. I think it is correct to point out that 
there are other monuments in the same situation, and because of 
that and because of the focus on this bill, the Department of 
Interior is undertaking a study, a look, at those other 
monuments, as well.
    Mrs. Christensen. There is a scenic river leading up and 
adjacent to the area where the Upper Missouri River Breaks 
National Monument is and there is a significant amount of 
private property within that scenic river area over which the 
BLM does have the right to condemn the property and take it 
over. That is not true in the monument. In the case of the 
monument, there is no right of condemnation.
    Ms. Morrison. That is correct.
    Mrs. Christensen. It is only if the people want to sell.
    Ms. Morrison. It is a willing buyer-willing seller 
standard, that is correct.
    Mrs. Christensen. So why is this property within the 
monument considered to be at more risk than the lands, the 
private property adjacent to it in the scenic river where 
condemnation can take place, and I believe that has been there 
for over 20 years and nothing has happened?
    Ms. Morrison. I cannot really address that issue today. We 
can certainly get back to you. I am not familiar with your 
scenic river example, but it is that the Montana residents here 
have raised a concern and have obviously brought this to the 
attention of Congressman Rehberg.
    Mrs. Christensen. Is there reason for their concern? Within 
the Antiquities Act and the way the actual declaration of the 
monument, is there reason for concern, more--
    Ms. Morrison. I cannot really speak to the reasons for 
their concern specifically. I can certainly work with the 
Subcommittee and Congressman Rehberg to find out what those 
specific concerns are. I just know that they have brought them 
to the attention of their Congressman.
    Mrs. Christensen. Do the interim management guidelines for 
the national monument threaten private property rights?
    Ms. Morrison. I do not believe they do, no.
    Mrs. Christensen. Will the final management plan for the 
monument threaten private property rights?
    Ms. Morrison. No, it will not.
    Mrs. Christensen. Yet you support the bill?
    Ms. Morrison. Support the bill simply because it reconfirms 
what I believe already is stated in the proclamation and the 
Antiquities Act.
    Mrs. Christensen. And the Department has no concern over 
the other parks and the monuments that have similar private 
property?
    Ms. Morrison. I do not think that is exactly correct. I 
think it is correct to say that the Department, because of this 
bill, it has been brought to light that those other private 
property interests do lie in other monuments and we are going 
to take a study to determine where those lie and see if there 
are any issues there.
    Mrs. Christensen. Do you know of any issues? Do you know of 
any condemnation of any private property within a monument, 
that it now exists, or any ways in which the Bureau of Land 
Management has infringed upon the private property rights of 
any land holders within current monuments?
    Ms. Morrison. No. We have no concerns currently, 
Congresswoman.
    Mrs. Christensen. If H.R. 4822 were, in fact, enacted, 
would the BLM need new legislation or a new proclamation to add 
any acquired lands to the monument?
    Ms. Morrison. No, not at this time. I know of nothing that 
would require new legislation.
    Mrs. Christensen. You would need the legislation to modify 
the boundaries.
    Ms. Morrison. I apologize. Could you ask the question 
again?
    Mrs. Christensen. If H.R. 4822 were, in fact, enacted, 
would the BLM need new legislation or a new proclamation to add 
any acquired lands to the monument?
    Ms. Morrison. Yes, ma'am, we would.
    Mrs. Christensen. My time is up.
    Mr. Radanovich. I want to make sure everybody gets a chance 
to ask questions. Mr. Rehberg?
    Mr. Rehberg. Thank you, Mr. Chairman.
    Thank you, Ms. Morrison. Who drew the boundaries for the 
monument and why did they include private and State lands?
    Ms. Morrison. It is my understanding that that was done by 
the proclamation itself, that there was an attachment to that, 
so given that President Clinton did the proclamation, I am 
making an assumption--I do not know for sure--that President 
Clinton drew those boundaries.
    Mr. Rehberg. You may not know this, but maybe somebody 
within your Department does. When was the map made available to 
the public?
    Ms. Morrison. I do not know. I can certainly find that out 
and get that information back to you.
    Mr. Rehberg. OK. That is important, because part of the 
discussion was the fact that the private property owners did 
not know that their land was going to be included within the 
boundary, and so it is important to know exactly when the map 
became available to the public. I know as a Congressman, I 
asked for the map and was told--before the proclamation--was 
told that there was no map at that time that was made available 
to the public, so I would like to know exactly when that map 
was made available.
    Why can the BLM not just redraw the map for purposes of 
management administratively? Why does it take an act of 
Congress to actually show what the monument management actually 
is?
    Ms. Morrison. The BLM is under a process that began on 
April 24 of 2002 for the formal planning of the monument. The 
question of why can they not draw a boundary for management 
purposes, I do not specifically know what their management 
plans allow for them, but they are undertaking public comment 
between July 8 and August 6 of this year for that management 
plan. So I am just letting you know that that planning process 
is going on. I do not know specifically why they cannot draw a 
second boundary, if you will, to say, this is the management 
boundary.
    Mr. Rehberg. Mr. Chairman, originally, that is what we had 
asked of the Department, is that everybody would be satisfied 
if a management map was created specifically delineating the 
fact that private property is not included in the monument. 
That is what got us to this point. Somehow or some way, the 
Administration has told us that they are either unwilling or 
unable to create a second map. They can go ahead and create 
this map, if they wish, under the proclamation, as their wish 
list for the year 2050. We want to own all the property inside 
that boundary. But all we want is a clear delineation of the 
fact that private property cannot be included for management 
purposes.
    Ms. Morrison--go ahead.
    [Pause.]
    Ms. Morrison. I am sorry, Congressman Rehberg. Your 
question?
    Mr. Rehberg. Like you, I have read the proclamation 
establishing the Upper Missouri River Breaks Monument. In your 
reading of the proclamation, could you find what the immediate 
threat was to the 377,000 acres that were included? What 
created the urgency on the part of the Administration, the past 
Administration, to create the boundaries before the public had 
an opportunity to see where the boundaries were going to be 
created? What was the imminent threat?
    Ms. Morrison. I cannot speak to that, sir.
    Mr. Rehberg. Do you know of one?
    Ms. Morrison. No, sir.
    Mr. Rehberg. No further questions.
    Mr. Radanovich. Ms. Solis?
    Ms. Solis. Yes. Thank you, Mr. Chairman.
    I wanted to ask Ms. Stevenson if I could ask her some 
questions regarding my bill, H.R. 2534. I appreciate your being 
here and the statements you made earlier associating the 
legislation to ongoing efforts that the Park Service is 
conducting now on the lower part of the Los Angeles River. The 
San Gabriel Valley River currently falls under a State 
conservancy that was worked out several years ago. I happened 
to be involved in carrying that legislation and establishing 
that and we do have representation by various Federal agencies 
that sit on that conservancy board.
    One of the concerns I guess I have is you brought up this 
other legislation that is also being introduced but not being 
heard at this time and bringing them together. While I am not 
opposed to looking at where they do converge on the lower Los 
Angeles River, I think it is very important to understand that 
the dynamics of the communities that we are talking about, 
because they are very much for local control and it is very 
highly--well, more densely populated in urbanized than, say, 
the Santa Monica Conservancy, which is mostly open and vast 
land that has been protected and most homeowners there have 
purchased properties to keep people away, whereas this area 
that we are talking about in the San Gabriel Valley is very 
much opposite looking in terms of lots of population, many 
projects that are currently there, and I hope the potential of 
getting some of our communities more involved. How would the 
Park Service handle the diverse kinds of issues that might come 
up with respect to outreach to the different communities?
    Ms. Stevenson. The way we traditionally handle that is 
through public hearings and public involvement. We usually have 
a fairly long process with many opportunities for the public to 
comment, both in writing, in person, on the Internet, whatever 
way we can get public involvement and public comment.
    Ms. Solis. Does your involvement also include different 
languages or posting so that people from different communities 
might be--we have a large Asian population, as an example, and 
also Hispanic population, so materials would be made available 
so that folks could come to town hall meetings or meetings that 
you would conduct?
    Ms. Stevenson. Yes, ma'am.
    Ms. Solis. Very good. What do you see as some of the 
challenges in putting this study together?
    Ms. Stevenson. Well, every time we do a study like this, 
you have to assess suitability and feasibility and significance 
of areas, and this is quite a large area, and as you point out, 
it is an urban area. So we would have a lot of work to do to 
figure out whether a national park was the best solution, 
whether a heritage area was the best solution, or even some 
other alternative, and that not only requires our thinking, but 
it requires the thinking of the community so that we assess all 
alternatives.
    Ms. Solis. I appreciate your comments and do look forward 
to working with you on finding out how we can make this project 
work and appreciate your being here.
    Ms. Stevenson. Thank you, Congresswoman.
    Ms. Solis. Thank you very much.
    Mr. Radanovich. Mr. Simpson--or Mr. Rehberg, anybody 
wishing to ask questions.
    Mr. Simpson. Thank you, Mr. Chairman, and I thank both of 
you for your testimony and I appreciate the Administration's 
support of the legislation on the Missouri Breaks.
    Let me ask you, was it the intent, or do you believe it was 
the intent when this was originally created that at some point 
in time, those private landowners would be purchased and become 
part of the Missouri Breaks, that that private land would 
become part of this monument?
    Ms. Morrison. I do not believe the Department has a 
position on that, of the intent of further acquisition. I think 
it was only saying if further acquisition happens.
    Mr. Simpson. So during, I suspect, the long debate that 
went on over years of studying this and so forth, public 
hearings and so forth that always accompanies the creation of a 
national monument--I am being a little facetious here--that 
that was never a part of the discussion?
    Ms. Morrison. I do not know.
    Mr. Simpson. Has the BLM received any complaints from the 
private landowners, the inholders within the Missouri Breaks? 
Have you received any?
    Ms. Morrison. I am not personally familiar with any 
concerns that have been raised, but that is not to say they 
have not been within the BLM. Just a point of clarification. 
Secretary Norton did send out some letters requesting comment 
and there were some landowners that responded to those letters, 
yes, sir.
    Mr. Simpson. Is part of their concern or a majority of 
their concern access to their private lands?
    Ms. Morrison. It is my understanding that that is one of 
the points, is access, yes.
    Mr. Simpson. Is the BLM doing any surveying of those 
private landowners as to how they access the private lands, how 
often they access, for what purpose they access their private 
lands?
    Ms. Morrison. I believe that that would be part and parcel 
of the scoping meetings that are going to be on I referred to 
earlier this summer, that those issues should be fully fleshed 
out during those meetings.
    Mr. Simpson. And I guess the reason I ask this, we just 
held a hearing last Saturday out on the Steens Wilderness and 
the implementation of the Steens Wilderness legislation out in 
Oregon, and I got a copy of a survey that the BLM had sent out 
to the inholders, the private land inholders, where they are 
asking the private inholders the activity for which they access 
their private land--I mean, this is private land, but the 
activity for which they access their private land, the type of 
vehicles they use, the number of trips they access their 
private land a year, the approximate dates, the justification 
for using motorized access to their private land, and the 
historic number of trips and type of vehicles they use and so 
forth.
    I am wondering, I get a concern when the BLM or any Federal 
agency starts surveying private landowners as to how often they 
use their private land, and I am wondering if that type of 
thing is a concern to these private landowners within the 
Missouri Breaks or if it will become a concern whether or not 
this legislation passes.
    Ms. Morrison. I think in answering, if I can kind of draw a 
loop around what we are trying to get at here, the proclamation 
itself restricts types of activities on monuments, as does 
specifically for the Upper Missouri River Breaks, and it sounds 
to me from your question that what the BLM is trying to get at 
is if there is a private inholding that is completely 
surrounded by Federal property, then how does that access 
affect the Federal lands.
    Mr. Simpson. Right.
    Ms. Morrison. So I think it is really an attempt through 
their surveys to try to find out how the Federal lands will 
then be impacted by the private users.
    Mr. Simpson. As you are probably aware, some people suggest 
that Federal lands surrounding private lands really have no 
effect on those private lands because they are private lands 
and the private landowners have the same rights they always 
have. We have also seen examples where the Federal Government 
denies access to those private lands or tries to decide what 
activities can occur on those private lands by allowing or not 
allowing access across Federal lands to get to those.
    I have some real concerns about that, and, of course, the 
alternative is that, eventually, we will buy that private 
landowner out and it will be through that term that we all 
love, willing seller-willing buyer. Well, you surround a 
private inholding and deny access to that individual, you have 
just made a willing seller pretty probable.
    So I would encourage you, regardless of the outcome of this 
legislation, that access to these private inholdings are going 
to be something of a great deal of concern to this Committee 
and to me particularly.
    Ms. Morrison. And I think it is a concern of the BLM, as 
well, because they have been given these monuments to manage 
and they are going to have to exercise their stewardship in 
managing them as best they can, given the proclamation in front 
of us.
    Mr. Simpson. I appreciate that. Thank you, Mr. Chairman.
    Mr. Radanovich. Mr. Rehberg?
    Mr. Rehberg. Thank you, Mr. Chairman.
    In my testimony, in my opening statement, I alluded to the 
fact that the landowners had not yet received notification that 
their land was included in the boundary. Perhaps I should not 
have rushed to a conclusion. Would the Department please 
provide for the Committee and myself any document that has been 
sent to landowners before the proclamation that their property 
was going to be or being considered to be included inside the 
boundary.
    Maybe there was notification that the landowners that I 
talked to were not aware of or did not receive, or maybe they 
did not remember it. So I would like proof that the Bureau of 
Land Management, the Department of Interior, or President 
Clinton himself personally called these people and said, ``Your 
property is going to be included inside this boundary when I 
draw that boundary.''
    Ms. Morrison. I am not personally aware of anything 
existing or not existing, so we will just have to look into 
that. Anything that was provided, we would be happy to share 
with you.
    Mr. Rehberg. Thank you. Mr. Chairman, Ms. Morrison's 
testimony really points out the problem with promises in 
government, and that is continuity of administrations. While 
the last administration may have promised something, this 
administration is not bound by that promise and the 
institutional knowledge is lacking, then, in the creation of 
the monument and the promises that were made. That is what 
really creates the fear in the minds of the private property 
owners, is, one, they were not consulted ahead of time. Two, 
they do not want to be in it. And three, they are being told, 
trust your government, and that creates the problem that brings 
this bill forward today. Thank you, Mr. Chairman.
    Mr. Radanovich. You are welcome.
    Any other questions of the witnesses? I do have a question 
for Ms. Stevenson regarding H.R. 2534, the issue for the Los 
Angeles and the adjacent river basins. In your study of 
proposals such as this, do you study it in light of--I know 
that the request is a national park, but do you also study it 
in terms of it qualifying for other things like national 
recreation areas or national seashores?
    Ms. Stevenson. Actually, we look at all possibilities, not 
just units of the National Park System, the ones you describe 
and others, but also its eligibility perhaps as a National 
Heritage area or State management or local management. We look 
at the entire range of possibilities, not just a national park.
    Mr. Radanovich. So you may come out and say, well, no, the 
request was it be a national park. We may not recommend that, 
but we would recommend this or nothing in some way?
    Ms. Stevenson. Yes, sir.
    Mr. Radanovich. OK. Thank you.
    Are there any other questions?
    [No response.]
    Mr. Radanovich. Thank you very much, Ms. Morrison and Ms. 
Stevenson, for being here to testify. We appreciate it.
    Mr. Radanovich. With that, we will call our next panel, 
panel three, Mr. Steven Pilcher, the Executive Vice President 
of the Montana Stockgrowers Association from Helena, Montana, 
and Mr. Hugo Tureck, Friends of the Missouri Breaks Monument, 
Coffee Creek in Montana. They are here to speak, both of them, 
on H.R. 4822.
    I think what we are going to do, in order to expedite the 
hearing, is call up all the rest of the witnesses and do panels 
three and four at the same time. So if you do not mind just a 
little bit of table sharing, then please, we will go ahead and 
call up panel four, as well, which is Ms. Betty Huskins, Vice 
President of Public Affairs and Corporate Development of the 
AdvantageWest North Carolina from Fletcher, North Carolina; Ms. 
Becky Anderson, Executive Director of HandMade in America in 
Asheville, North Carolina; The Honorable Lara Larramendi 
Blakely, Mayor of the city of Monrovia, Monrovia, California; 
and Mr. Rick Ruiz, Governing Board Member of San Gabriel and 
Lower Los Angeles Rivers and Mountains Conservancy, Santa 
Monica, California.
    Thank you very much. I know that it is going to make a 
crowded panel, but I think it will make it easier for all of us 
to conduct the business of the Committee.
    What I would like to do is if we could begin with 
everybody's testimony and then we will open up the panel for 
questions after everybody gets a chance to testify, it would be 
much appreciated. And again, I want to draw attention to the 
clocks here. In the course of smooth running of the Committee, 
if you could keep your comments to under 5 minutes, that would 
be appreciated. If you do begin to run over 5 minutes, I might 
let you know you are.
    So if we want to start to my left, it would be Mr. Ruiz. If 
you would like to begin, I would sure appreciate it, and again, 
please keep your testimony under 5 minutes.

 STATEMENT OF JOSEPH R. ``RICK'' RUIZ, GOVERNING BOARD MEMBER, 
    SAN GABRIEL AND LOWER LOS ANGELES RIVERS AND MOUNTAINS 
             CONSERVANCY, SANTA MONICA, CALIFORNIA

    Mr. Ruiz. I think I can do that. Do I need to give my name 
or any of that stuff?
    Mr. Radanovich. Yes, I think it would be a good thing.
    Mr. Ruiz. My name is Rick Ruiz. I am a member of the 
Governing Board of the San Gabriel and Lower Los Angeles River 
Conservancy, appointed by Governor Davis as the environmental 
representative on that board.
    Mr. Chairman, Ranking Member Christensen, thank you for 
allowing me to be here today to talk about a subject that I 
think is very important for the future of Southern California. 
I am very much in support of Member Solis's bill to study the 
possibility of creating a national park or some other national 
designation for the San Gabriel and Lower Los Angeles River 
area.
    I grew up in Maywood, which is a tiny little town of about 
10,000 people in Southern California, not far from downtown Los 
Angeles. But do not confuse Maywood for Mayberry. It is a very 
industrialized town, surrounded by steel mills. It used to be 
surrounded by car factories. The one little park we had was 
very inadequate for the things that we wanted to do when we 
were kids, so we wound up playing in the Los Angeles River. We 
did not know any better in the time. The river was nothing 
really more than a conduit for all the industrial waste from 
Los Angeles to flow down to the Long Beach area and out into 
the ocean. Frankly, I am surprised I am alive and able to talk 
to you today because of all the time I spent in that river.
    Things have changed a lot since I grew up and a lot of 
people have put a lot of effort into rethinking the way we use 
those rivers, and one of the results of the thinking which has 
gone into the last five to 10 years on how we use our rivers 
was Ms. Solis's bill that created the conservancy that I now 
sit on.
    Part of the thinking behind that bill is that if we could 
combine the resources of all the agencies that are tasked with 
managing these various resources in different ways--you have 
public works trying to get rid of water off the streets, you 
have recreational agencies looking for recreational 
opportunities, we have water agencies that are concerned about 
whether we put enough water in the ground so they can get water 
out for their customers. By combining the thinking and the 
resources of all those agencies, we can create a synergy that 
will actually be something greater than the whole of the 
individual parts.
    That is what the conservancy is now trying to do and that 
is why I support this bill. I believe this bill will, if we 
come to the conclusion that there is a justification for a 
national park, it will include all the resources, both 
financial and technical and the thinking and the imagination 
and all the staffing that goes along with the National Park 
Service. That would be a great asset for us in trying to do the 
best job we can of creating new recreational opportunities so 
kids do not have to go out and play in the Los Angeles River 
anymore, or if they do, so that river will not be a detriment 
to their health, and the economic opportunities that go along 
with being a national park and new recreation areas, the 
environmental and habitat opportunities, because there are 
great opportunities out there today in land that is not 
developed that we can use to restore wetlands and other 
wildlife habitat.
    So to me, from a policy point of view as well as the 
personal point of view of a kid who grew up along the banks of 
the Los Angeles River and wants to see something better, I 
think bringing the National Park Service and those resources in 
could be a boon both to the economy and to the recreation and 
to the environment of Southern California, and with that I will 
wind up my remarks. Thank you very much for this opportunity.
    Mr. Radanovich. Thank you very much, Mr. Ruiz.
    [The prepared statement of Mr. Ruiz follows:]

   Statement of Joseph R. ``Rick'' Ruiz, Governing Board Member, San 
Gabriel and Lower Los Angeles Rivers and Mountains Conservancy, on H.R. 
                                  2534

    Mr. Chairman, Ranking Member Christian-Christensen, and Members of 
the Committee, I am very grateful to have this opportunity to testify 
on this bill today. I am supporting Representative Solis' Bill for some 
very personal reasons as well as some important policy reasons.
    I grew up in Maywood, a tiny little city of about 10,000 residents 
located along the banks of the Lower Los Angeles River, just down 
stream from downtown Los Angeles. Please don't confuse Maywood for 
Mayberry. My hometown was surrounded by steel mills, paint factories, 
warehouses, slaughterhouses--it was the industrial heartland of post 
war Southern California. There was one tiny little park in Maywood, not 
nearly enough to satisfy everyone. So what did we do? We made the Los 
Angeles River our playground.
    The Los Angeles River is a concrete ditch that runs about 50 miles 
from the San Fernando Valley to Long Beach. Most of the concrete was 
poured in the 1930s in order to provide jobs and flood control. It was 
not much more than an open sewer for carrying away industrial wastes, 
stormwater runoff, slaughterhouse debris and who knows what else. 
Frankly, I'm a little surprised that I survived. My personal reason for 
supporting this study is that I believe that we can create better 
places for kids to play in the future. I want the children of tomorrow 
to play in a clean, healthy and environmentally dynamic Los Angeles 
River, not the river I grew up with.
    Granted, much has changed since my childhood in the late 1950s and 
1960s. Local activists like Lewis McAdams, Andy Lipkis, Dorothy Green, 
Melanie Winters and a host of others taught us to see the Los Angeles 
River, and all rivers, for that matter, as a potential resource, not 
just a conduit for waste. Later, forward thinking legislators like Rep. 
Solis created a conservancy for both the Los Angeles and San Gabriel 
Rivers. With significant help from Governor Gray Davis, the Conservancy 
was brought to life about two years ago and is now helping to give 
focus to the vision.
    The San Gabriel and Lower Los Angeles Rivers and Mountains 
Conservancy encompasses about 1,500 square miles. More than 7 million 
people live within its boundaries. I'm proud to say that we recently 
produced an award-winning land use plan called ``Common Ground: from 
the Mountains to the Sea.'' In a nutshell, the conservancy's job is to 
preserve and enhance the recreational and environmental resources of 
these rivers and the watersheds from which they spring. It's a huge 
job, we are just beginning, and we could use some help. I jumped at the 
chance to talk to you today because, from a policy perspective, it 
makes a great deal of sense to study the possibility of creating a new 
urban national park in Southern California. A few years ago it would 
have sounded insane to use Los Angeles River and national park in the 
same sentence. Today it is beginning to make a great deal of sense.
    These two watersheds are central to the prosperity of the region. 
They provide much of the drinking water for more than 5 million people 
in the San Fernando and San Gabriel Valleys and for neighborhoods 
further south all the way to Long Beach. Without a well-managed water 
supply this region simply could not exist as we know it today. It is 
vital to protect the quality of our water supply and enhance the way we 
use it for recreational, business and environmental purposes.
    I believe that the National Park Service might help us do that. As 
I mentioned earlier, recreational land is scarce in Southern 
California. The Sustainable Cities Program at the University of 
Southern California estimates that a healthy community should have 
about three to four acres of open space for each 1,000 residents. The 
San Gabriel Valley has about one-half acre per 1,000 residents. It's 
worse in some other neighborhoods.
    National park status could help us provide better recreational and 
economic development opportunities associated with increased tourism 
and recreation. While much of the land that would be studied under this 
bill is dense, urbanized and overdeveloped, we also have some of the 
most rugged mountains in the country. Within a few miles of the San 
Gabriel Valley, which is home to over one million people, portions of 
the upper San Gabriel River are so wild that they are eligible for wild 
and scenic river status. It is an incredibly rich environment that is 
home to birds, bears, deer, coyotes, mountain lions, bobcats and many 
other important plants and animals.
    Sadly, the Conservancy's Land Use Plan contains a list more than 
four pages long of the threatened and endangered species that live 
within our boundaries.
    The national parks have historically been there to help us protect 
the nation's environmental resources and it seems likely that they 
could help us in Southern California.
    Many of us believe that expanding our partnership with the Federal 
Government through the establishment of a national park would result in 
a tremendous synergy.
    I know that this is a big step that would require a serious 
commitment of resources. I also understand that we all have questions, 
and we all need answers. That's why the study proposed in H.R. 2534 is 
a vital first step.
    Thank you again for giving me this time to address you today.
                                 ______
                                 
    Mr. Radanovich. Mr. Hugo Tureck, welcome.

  STATEMENT OF HUGO J. TURECK, FRIENDS OF THE MISSOURI BREAKS 
                MONUMENT, COFFEE CREEK, MONTANA

    Mr. Tureck. Thank you very much. My name is Hugo Tureck. I 
represent the Friends of the Missouri Breaks National Monument, 
an organization made up of businessmen, conservationists, 
recreationists, and just people who really, truly like open 
spaces. I also ranch and farm on public land 25 miles outside 
of the monument, and so I am a public lands rancher.
    I am here today to speak in opposition to Representative 
Rehberg's bill. I feel that the bill serves no purpose. It 
potentially does harm.
    As you just heard Patricia Morrison of the BLM, ``The 
American people need the reassurance, the reaffirmation and 
comfort that their national heritage is not compromised by ill-
informed, wrong-headed legislation.'' I agree with that, and I 
think the Friends do. I think this legislation being proposed 
is that, it takes away the chance for historically significant 
sites that are on private land, if they are required by the 
government to become a part of the monument from a willing 
seller.
    I live near the monument and the whole world of ranching is 
changing. I am not sure I am going to be there in 20 years. A 
large ranch just north of me has changed hands two or three 
times. The last two ranches to change hands within the monument 
in the last several years went to out-of-Staters. One went to 
an owner from New Jersey. The other went to the McMillan family 
from the Cargill Corporation, known as the PN Ranch. The PN 
Ranch has a very interesting history. It started out as an old 
ranch, became a grazing association, and then has changed hands 
two or three times since then.
    These ranches in the Breaks are changing hands all the 
time. There are willing sellers all the time. And if there are 
historical sites, if there is something important on there, I 
think that the government should have a chance to bid on that 
if it fits within the monument itself, and if it does so, then 
it becomes a part of that monument. No condemnation is possible 
here.
    Ranchers are fairly good businessmen. I happen to be one, 
and I like to think of myself that way. And we are going to 
sell to the highest bidder. If it happened to be that, that 
would be it.
    I brought an example. Just as I was getting on the plane 
yesterday, somebody handed this to me. This is from Northwest 
Realty, an ad in the paper. ``Historic Heller Bottom in the 
Missouri River, 206 deeded acres with one-and-one-fourth mile 
of Missouri River frontage in the heart of the Upper Missouri 
River Breaks National Monument. First time offering. A 34 by 
50-foot cabin with artesian well, wood heat, septic and phone 
in place. Wildlife abounds with deer, elk, bighorn sheep, and 
more. Beautiful view and very secluded and private. This 
property was mentioned in Lewis and Clark's journals of 1805. 
This is truly the most unique property you will ever find.'' 
The price is a bit pricey, $2.5 million, but there are willing 
sellers out there and here is one listed with great historic 
value, at least as it is written in this advertisement.
    I look at my fellow rancher as a fairly bright person, and 
what I am seeing is people taking advantage of this monument, 
trying to sell their property around because it is increasing 
in value.
    In my area, property no longer sells for production value. 
We recently aquired a piece of property and I told my son, 
look, that is probably the last piece of property we will buy 
because property in our area now sells more for recreation 
value and more of our land is sold to people out of State than 
Montanans.
    A very quick aside--and I feel very passionate about this--
if ranches are bought up by out-of-Staters, there is no 
guarantee they are going to continue to produce cattle, or if 
they have private land that raises grain, they are going to do 
that. In fact, a lot of the ranches and farms have been taken 
out of production and become pheasant habitat in our area and 
things like that.
    On the other hand, if a ranch or farm within the Monument 
is bought by the Federal Government and becomes a part of that 
Monument, does it not then, have grazing continue because 
grazing is mandated? It will be, in a sense, managed through 
the Taylor Grazing Act. Under those conditions, I argue that 
the ranchers and the farmers could actually increase their 
herds within there.
    I would like to point out there really are only one or two 
fourth and fifth generation ranchers out there. Most of the 
ranchers out there are first and second generation ranchers. I 
happen to be a second generation rancher on our place. Let's be 
candid about this.
    I see my time is up, and I will pass on.
    Mr. Radanovich. Thank you, Mr. Tureck.
    [The prepared statement of Mr. Tureck follows:]

  Statement of Hugo J. Tureck, Vice-Chairman, Friends of the Missouri 
                            Breaks Monument

    Mr. Chairman, representative Rehberg and Members of the 
Subcommittee, my name is Hugo Tureck, and I am Vice-Chairman of the 
Friends of the Missouri Breaks Monument. Our organization is made up of 
business people, hunters, farmers and ranchers and those who love open 
spaces. As a unified coalition, we are committed to protecting and 
preserving the Upper Missouri River Breaks Monument in its present 
form.
    I thank you for the opportunity today to testify in opposition to 
H.R. 4822, submitted by Representative Rehberg. I would also like the 
attached documents and editorials submitted for the record.
    My family and I have the privilege of being public land ranchers 
not far from the Monument. We raise cattle and small grains on a dry 
land operation that is beginning its fourth year of drought. I was also 
the Chairman of the Bureau of Land Management, Central Montana Resource 
Advisory Council, (RAC), from 1999 until 2002. Our RAC is made up of 15 
individuals representing many different points of view including 
ranchers, sportsmen, conservationists, elected officials and 
individuals representing oil and gas and timber interests. Being a 
consensus council, our job is to find common ground.
    After visiting the Missouri Breaks in the summer of 1999, the 
Secretary of the Interior requested that the RAC take on the task of 
finding out how Montanans felt about this vast and wondrous landscape 
of mostly public lands. Our charge was to find out what Montanans 
agreed upon and what we held in common. As Chairman of the RAC, I 
oversaw the preparation for and development of the report that we 
presented to the Secretary. To reach the greatest number of people 
living in the area, we conducted hearings in several communities in 
Central Montana. To encourage participation we accepted testimony 
during the day as well as in the evening. Hundreds of Montanans from 
all walks of life felt this issue important enough, that they took time 
from their busy lives to attend the meeting presenting statements and 
listening to others. We also received hundreds of letters.
    As I listened to the testimony and read the many letters, I was 
moved by the passion that Montanans felt for this place. Rancher or 
floater, hiker or hunter, bird watcher or just a person seeking 
solitude; it made no difference. All felt a special love for this land 
we call the Missouri Breaks.
    This is what the RAC told the Secretary of the Interior: Montanans 
want this enchanted place to remain as wild tomorrow as it is today. 
Montanans also want to see the cultural and historical artifacts that 
abound in this Monument protected and they consider it critical that 
wildlife habitat be enhanced. The people of my state also want to see 
traditional uses including hunting, fishing and grazing to continue. 
Finally, and of critical importance, Montanans want to make sure that 
all private property rights are protected.
    I can tell you today that the majority of Montanans that testified 
or wrote letters supported the idea of a Monument as the best way to 
protect this landscape. They were also adamant in voicing that public 
land belongs to all Montanans and to all Americans. It was a small but 
vocal minority that opposed the Monument.
    When the President of the United States, using the powers given to 
him through the Antiquities Act, created the Monument, he did so using 
the report from the RAC to the secretary stressing what the people of 
Montana so strongly agreed upon as the foundation of the proclamation, 
including protecting private property rights.
    The Monument Proclamation states that the: ``establishment of this 
Monument is subject to valid existing rights''. The proclamation 
further states that ``....there are hereby set apart and reserved as 
the Upper Missouri River Breaks National Monument, for the purpose of 
protecting the objects identified above, all lands and interests in 
lands owned or controlled by the United States.''
    Unfortunately, H.R. 4822, does not protect private property rights 
by removing such lands from the Monument. Private property rights were 
and are already protected by the proclamation and within existing 
government law and policy. We live in a system that protects private 
property rights. The Presidential Proclamation reassures us that 
private property rights are protected. By placing this language in the 
proclamation, the President also lets us know that it would take an act 
of Congress to remove this protection as this hearing today attests to.
    The Proclamation also explains why private property was included 
within the boundaries of the Monument. What the proclamation clearly 
states is that if property with significant historical, cultural, 
wildlife or landscape qualities are purchased by the United States from 
a willing seller, these lands will be ``reserved as part of the 
Monument.''
    Why is this important? There are a significant number of historical 
and cultural sites that are on private land, but are an integral part 
of the historic and wildlife landscape. Sites like the Nez Pearce trail 
where in 1877 Chief Joseph led his band across the Missouri River and 
up Cow Creek toward his final battle with General Miles. Sites like the 
Kid Curry hangout where gunfighters and rustlers hid from the law. 
Sites like the Bull Whacker Trail where bull trains hauled supplies 
from cow island to Ft. Benton when the water levels were so low that 
river travel was impossible. These and other sites are a part of our 
national identity. These are sites that help us define ourselves as 
Americans and deserve adequate protection for future generations to 
enjoy. Today, if a landowner chooses to sell his land that contains one 
of these sites to the government, it becomes a part of the Monument and 
is protected for all Americans. If this legislation passes, that will 
not be the case.
    I would argue that without the current expectation(that land sold 
to the Government will become part of the Monument) there is a shift in 
perspective and expectation away from protecting these resources to 
doing nothing. There will be less interest in purchasing or trading 
public lands for in holdings from willing sellers if there is no 
guarantee, as there is now that the land become part of the Monument. 
The future of the Monument and its abundant wildlife, historical, and 
ecological values now within the boundary will be jeopardized and our 
ability to preserve a piece of history and wildness, will be ultimately 
lost.
    Throughout this testimony, I have stressed the important concept of 
willing sellers. There are numerous rumors about how our government has 
cynically tried to force or intimidate individual landowners into 
selling, or how our government has attempted to restrict private 
property rights. As a public lands rancher I am naturally curious if 
any of these rumors can be substantiated. I have called upon those 
making these claims to give us evidence. I have yet to see any. I have, 
however come across 43 U.S.C. 1715(a) that states that the BLM has no 
eminent domain authority meaning that by law, the BLM is prohibited 
from condemning private lands.
    Representative Rehberg recently told the editorial board of the 
Havre Daily News that ``he wants to eliminate any worries the 
landowners may have that the Federal Government would somehow try to 
restrict the landowners use of their own property.'' The Havre Daily 
News responded in their editorial as follows: ``Rather than 
exacerbating people's fears, Rehberg should be reassuring landowners 
that they have nothing to worry about.'' Representative Rehberg has 
also stated that including private land within the boundaries of the 
Monument will open that land up to vandalism and trespass. But in 
reality drawing a line on a map would be of little help. On our ranch, 
our private lands are checker boarded with public lands. It is almost 
impossible for a person to tell where my private land ends and the 
public's land begins. If I want to keep the public off of my property 
and on the public land, I would need to clearly mark my boundaries. 
This is already my right and my responsibility.
    There is something very troubling about this proposed legislation. 
Apparently those asking for this legislation have little trust in their 
government to treat its citizens fairly. It also seems those asking for 
this legislation have little faith in their fellow citizens, yet ask 
these citizens to trust them when they proclaim that they are the 
stewards of these public lands.
    Finally, I know that Representative Rehberg feels that little 
thought went into drawing the current boundaries. I have visited with 
local field office managers, the state director of the BLM and with 
some BLM staff in Washington. Let me assure you that the boundaries of 
the Monument were drawn in accordance with the Antiquities Act that 
``...the smallest area compatible with the proper care and management 
of the objects to be protected.'' The boundaries are based on input 
from local, state and Federal scientists and land managers to include 
those special objects of significance, then adjusted in response to 
citizen input. Areas with major developments and/or high percentages of 
private lands were removed.
    Twenty-six years ago, Congress led by Senator Metcalf of Montana 
created the Upper Missouri River Wild and Scenic River. Forty-six 
percent or 35,800 of the 81,000 acres that this bill would remove from 
the monument are within the boundaries of the wild and scenic 
designation. Just think, twenty-six years ago Congress knew that they 
could do this and private property rights would not be violated. 
Twenty-six years later, we know Congress was right: that private 
property rights were not violated and that the river was better 
protected than before.
    Twenty-six years later the President of the United States using the 
powers granted to him through the Antiquities Act acted to create a 
monument protecting a much larger area for future generations. This 
monument with its inspiring landscape celebrates Lewis and Clark and 
their role in the building of a nation. It celebrates so much of what 
they stood for.
    Let us not weaken this Monument by passing legislation such as 
this. Rather, let us work together to put in place a management plan 
for this new Monument that serves not just a few special interests but 
the interests of all Americans now and for future generations.
                                 ______
                                 
    NOTE: A Proclamation by the President of the United States 
entitled ``Establishment of the Upper Missouri River Breaks 
National Monument'' and a paper entitled ``Private Property in 
the Upper Missouri River Breaks National Monument'' have been 
retained in the Committee's official files.

    [Attachments to Mr. Tureck's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0171.002
    
    [GRAPHIC] [TIFF OMITTED] T0171.003
    
    [GRAPHIC] [TIFF OMITTED] T0171.004
    
    [GRAPHIC] [TIFF OMITTED] T0171.005
    
    [GRAPHIC] [TIFF OMITTED] T0171.006
    
    [GRAPHIC] [TIFF OMITTED] T0171.007
    
    [GRAPHIC] [TIFF OMITTED] T0171.008
    
    [GRAPHIC] [TIFF OMITTED] T0171.009
    
    [GRAPHIC] [TIFF OMITTED] T0171.010
    
    Mr. Radanovich. Mr. Pilcher, welcome to the Committee.

   STATEMENT OF STEVEN L. PILCHER, EXECUTIVE VICE PRESIDENT, 
       MONTANA STOCKGROWERS ASSOCIATION, HELENA, MONTANA

    Mr. Pilcher. Thank you. Mr. Chairman and members of the 
Committee, for the record, my name is Steve Pilcher. I am 
Executive Vice President for the Montana Stockgrowers 
Association and I appear before you today in strong support for 
H.R. 4822, to address an issue within the Upper Missouri River 
Breaks National Monument in Central Montana.
    The Montana Stockgrowers Association, for your information, 
represents over 2,100 ranchers and others involved in the 
livestock industry, many of whom own private land that we have 
been discussing today and are also stewards of the Federal 
lands associated with the monument area.
    This issue began approximately 3 years ago when then-
Secretary of Interior Babbitt floated this section of the 
Missouri River and proclaimed it to be a special place. While 
we may have had our differences with the past Secretary on a 
number of issues, this is an area in which we wholeheartedly 
agree. It is a special place and deserves much recognition.
    For nearly 150 miles, the Missouri River has changed very 
little from the conditions noted in the journals of Lewis and 
Clark as they traversed these areas nearly 200 years ago. But 
the point is, for at least 150 years of that time, these same 
lands have played a very important role in helping to build 
Montana's agricultural economy and the culture into what we 
know today. During that time, it is the Montana ranch families 
that have been successful in preserving the scenic landscape of 
that area, including the historic sites that we are talking 
about today.
    But despite this evidence, President Clinton created the 
national monument, and while we continue to feel that such 
action is probably not justified, we have chosen to look ahead 
rather than back and focus on those issues that are created 
with the establishment of the monument, which obviously brings 
us to the legislation before you today.
    Contained within that 377,000 acres of monument land is, as 
has been stated, 81,000 acres of private land owned by Montana 
ranchers, not the Federal Government. The Antiquities Act 
clearly states, and Federal officials agree, that private lands 
are not to be subjected to the provisions of designation under 
this Act, and therefore, some contend, the private lands are 
not impacted.
    However, the reality remains that if private lands continue 
to be shown within the monument boundary, they will be impacted 
and the public may well have an inappropriate expectation of 
their ability to utilize those lands. While it is clear the 
Antiquities Act cannot be used to acquire private lands, the 
inclusion of private lands within the boundary creates an 
unnecessary cloud on those same lands. It is recognized that 
the boundary lines were identified by a very informal process, 
basically by a small group of agency officials using a map 
around a conference room table and a magic marker, and the 
results of that action are merely lines drawn a map that may 
forever change the utilization of these lands.
    I can only imagine how quickly such action would have been 
challenged had that procedure been used to deal with many of 
the other natural resource issues that the agency deals with. 
Yes, there was much discussion of the monument designation, but 
it all came about after the lines had been drawn.
    The boundary, it would seem, has been created in 
recognition of including certain private lands as a matter of 
convenience and for the possible future acquisition of 
additional private lands. Federal officials state that the 
acquisition, as has been discussed well, would only be through 
willing buyers and willing sellers, but I would suggest that to 
continue to include these lands within the monument certainly 
enhances the willingness to sell by creating at least the 
perception that they may already be in some way impacted by the 
monument.
    Ranchers who own private land within the monument are 
currently circulating a petition that will be submitted to the 
appropriate entities upon completion in support of this 
legislation and we will share this with you in the future.
    In summary, these people were not asked, or did not ask to 
have their land included in the monument. They were not 
consulted before the boundary lines were drawn. These are proud 
people, proud of their independence. They are proud of the 
lands that they have worked and cared for for so many years. We 
ask that you take this small step to clarify that independence 
and to help minimize the confusion that exists by having 
private lands included within the monument boundary. If, as 
Federal officials contend, the monument designation does not 
apply to private lands, then there really should be little 
opposition to legislation to formally exclude those private 
lands.
    We appreciate Representative Rehberg's efforts to bring 
this bill forward and ask for your support of H.R. 4822, and I 
very much appreciate the opportunity to appear before you this 
morning. Thank you.
    Mr. Radanovich. Thank you very much, Mr. Pilcher.
    [The prepared statement of Mr. Pilcher follows:]

   Statement of Steven L. Pilcher, Executive Vice President, Montana 
                        Stockgrowers Association

    Chairman Radanovich, and members of the House Subcommittee on 
National Parks, Recreation and Public Lands, my name is Steve Pilcher, 
Executive Vice President for the Montana Stockgrowers Association and I 
am appearing before you today in support of H.R. 4822 submitted by 
Representative Dennis Rehberg. This legislation attempts to address an 
issue relative to a decision by the previous administration to create a 
national monument under the Antiquities Act, for a special area known 
as the Missouri River breaks in central Montana. The Montana 
Stockgrowers Association represents over 2100 ranchers and others 
involved with our industry including many who own private land, and are 
stewards of Federal lands in the area that has now been designated as a 
national monument.
    This issue began approximately three years ago at this time of year 
when, then Secretary of Interior, Bruce Babbitt floated the Missouri 
River in this area and proclaimed it to be a special place, one in need 
of some type of protection. While we may have had a number of 
differences with the past Secretary, we wholeheartedly agree that this 
is truly a special place. For nearly 150 miles, the Missouri River in 
this area has changed little from the conditions documented in the 
journals of Lewis and Clark as they explored, at the direction of 
President Jefferson, the Louisiana Purchase to determine the potential 
for development and find a pathway to the Pacific.
    Today, areas as such as the White Cliffs, the Judith Landing, Cow 
Island and others appear nearly identical to the conditions observed by 
those explorers nearly 200 years ago. For 150 or more years these same 
areas have played an important role in helping to build Montana's 
agricultural economy and culture. These same Montana ranch families 
played a fundamental role in maintaining and preserving Montana's 
scenic landscapes, including the historic sites mentioned above. 
Disregarding that success, the past Secretary was able to convince then 
President Clinton that it was necessary to protect the area from the 
very people who had preserved it for that entire time and the Upper 
Missouri River Breaks National Monument was created. That monument 
encompasses approximately 377,000 acres, acres that contribute to the 
agricultural economy of the central Montana. While we continue to feel 
the designation cannot be justified, we have chosen to look forward 
rather than back and respond to the issues that the designation of a 
monument creates. However, there remains an unresolved issue that will 
make it virtually impossible for ranchers and the river community to 
accept the designation. It is for that reason that I have traveled here 
today to provide testimony on this important legislation.
    Contained within the 377,000 acres of land within the monument 
boundary is 81,000 acres of private land owned by ranchers, not the 
Federal Government. The Antiquities Act clearly states, and Federal 
agency representatives agree, that private lands are not to be 
subjected to the provisions of the designation as a monument under the 
Antiquities Act. However, the reality remains that if private lands are 
shown to be within the boundaries of the Missouri River Breaks Monument 
area, the public may well have inappropriate expectations of their 
ability to use those lands. It has been stated that the monument 
designation does not impact private lands. This is totally false. The 
interim management plan that has been developed by the Bureau of Land 
Management (BLM) contains recommendations and requirements that will no 
doubt, indirectly impact these private lands. This special designation 
should not penalize the state's ranching families.
    If provided the opportunity, our members will continue to manage 
the lands in this area in a manner that has preserved them for 150 
years. Continued land productivity is essential to the long-term 
viability of ranches in this area. However, our organization, as well 
as ranchers in the Missouri River Breaks Monument area, is concerned 
with the process that was employed to determine the boundaries of a 
national monument. It is recognized that the boundaries that were 
established were the result of a small group of Montana BLM officials 
gathered around a conference room table in Billings, Montana with a 
magic marker and a map and proposed a boundary for a National Monument. 
There was no public input, no analysis of the impacts of such a 
decision, merely lines drawn on a map that may forever change the 
utilization of these lands. I can only imagine how quickly that 
decision would be litigated had that process been utilized in making 
other natural resource decisions.
    As flawed as that process might have been, we must accept the fact 
that the creation of a monument in this area is not likely to be 
overturned. However, in their haste to draw the boundaries, BLM 
officials inappropriately included 81,000 acres of private lands and 
39,000 acres of land owned by the State of Montana. While it is clear 
the Antiquities Act cannot be used to acquire private lands nor can the 
management plans adopted for a national monument created under that Act 
be imposed on private lands, private lands are clearly included within 
the perimeter boundary of the Missouri River Breaks National Monument. 
It would appear Federal officials have included private lands that, if 
acquired by the Federal Government in the future, would be a good 
addition to the monument itself. Those same officials are quick to 
state that such acquisition would only occur if there was a ``willing 
seller'' of the private land. In many cases, a private property owner's 
willingness to sell may be enhanced by creating the impression that 
these lands are already a part of a national monument.
    The inclusion of private and state owned lands within the monument 
boundary clearly create confusion for visitors to the area. People will 
obviously assume they are free to recreate on all lands within the 
monument boundary and will likely show little respect for private 
property rights. While private property owners cannot avoid some of the 
impacts associated with adjacent lands being managed as a national 
monument, it is inappropriate to add to the confusion by leaving them 
within the boundary. If, as Federal officials have stated from the very 
beginning, the designation as a national monument does not apply to 
private or state owned lands, the deletion of the same should have 
absolutely no impact on the remaining Federal lands within the monument 
boundary.
    While decisions regarding 81,000 acres of private land and 39,000 
acres of state owned land may not seem important in a state like 
Montana with 93 million acres, it is critically important to those 
ranchers whose families have owned and worked those lands for four and 
five generations. Attached to this testimony you will find a copy of a 
petition being circulated by ranchers in the area of the monument 
expressing support for legislation to withdraw private lands from the 
monument. When completed, this petition will be made available to 
Representative Rehberg for him to share with the Subcommittee. These 
people did not asked to have their land included within the monument 
area and they were consulted before the action was taken. They are 
proud people, proud of their independence and proud of the lands they 
have worked for those many years. We ask that you take this step to 
clarify that independence and to help minimize the confusion created 
when private lands are included within the monument boundary.
    Thank you for the opportunity to share these thoughts and this 
information with you.

Summary of Testimony:
    The Upper Missouri River Breaks National Monument was created 
during the final moments of the Clinton Administration. In doing so, 
81,000 acres of private land and 39,000 acres of land owned by the 
State of Montana, were included within the monument boundary. This 
action was not taken at the request of the landowners involved nor were 
they consulted with respect to their land being included within the 
monument. Federal officials have frequently stated that the monument 
designation does not apply to these lands but as long as they are 
included within the boundary, confusion will exist. Likewise, leaving 
private lands within the monument boundary may in the future be used to 
force landowners into becoming ``willing sellers'' so that the property 
can be acquired by the Federal Government. H.R. 4822 will not harm the 
remaining designated Federal lands but would do much to address the 
private property concerns.
                                 ______
                                 
    Mr. Radanovich. Here to speak on H.R. 4530 is Ms. Becky 
Anderson, the Executive Director of HandMade in America. 
Welcome, Ms. Anderson.

 STATEMENT OF BECKY ANDERSON, EXECUTIVE DIRECTOR, HANDMADE IN 
               AMERICA, ASHEVILLE, NORTH CAROLINA

    Ms. Anderson. Thank you. I will shift your attention to the 
Eastern part of the United States now. In our testimony here, I 
am going to speak and my colleague beside me will speak to the 
natural resources of our area and I am going to speak to the 
cultural resources of this area that we present for heritage 
designation.
    I would certainly be remiss if I did not start with the 
original culture, which was the Cherokee culture. History 
brings back the Cherokee 11,000 years, with a culture that 
included a permanent village, cornfields, dances, games, 
ceremonies, the sacred fires, council houses, and a social 
organization based on a clan system which exists today. From 
the 1750's to the 1850's, the Cherokee were the first to 
develop a written language, a written constitution, 
representative government, and they were the first of the 
Indian nations to have a bilingual newspaper.
    Today, they are a living legacy in our region. There are 
currently 10,000 members of the Eastern Band of the Cherokee 
who reside on the reservation there and in Western North 
Carolina. They are the only Federally recognized tribe in the 
State of North Carolina and they have the largest population of 
the Cherokee Indian outside of the reservation in Oklahoma. 
They are a living legacy in that they provide examples every 
day of their culture and their heritage and their history to 
us.
    Two that I am going to mention to you include the Cherokee 
Museum, one of the best in the nation, not only exemplifying 
their history but working all day, every day, in education 
programs, outreach, exhibitions, festivals, and events that 
educate the visitor and the members of the tribe of their 
history, and then the remote community of Snowbird, which today 
still speaks in two dialects of the Cherokee language and 
adheres to all of the traditions and ceremonies of and 
practices of the Cherokee. We have documented these over a 
series of over 50 hearings into a book that will be published 
this fall on the heritage of the Cherokee, documenting 100 
sites and 17 events.
    In addition to the Cherokee culture, I would like to speak 
to the craft heritage of our region. It was influenced by the 
Cherokee, whose pottery began somewhere around the Puopic Age, 
and today it is noted for their basketry and their beadwork. 
They were the first to establish the first Native American 
craft cooperative in the United States.
    Our region is home to both the beginning of the traditional 
craft movement in this country and the contemporary craft 
movement. In the traditional craft movement, we have the oldest 
continuing folk school operating, the John C. Campbell Folk 
School. We have the second oldest guild in the United States, 
the Southern Highland Guild, which operates the oldest 
continuing craft shop, Allenstand, which is located on our Blue 
Ridge Parkway. It is home to the Penland School of Craft, one 
of the foremost schools in our nation. If you are a 
professional craftsperson, at some time in your career, you 
will spend time at Penland.
    The contemporary movement for this country was established 
in the 1940's when the Bauhaus was disbanded in Germany and 
craftspeople and artists moved to Black Mountain, North 
Carolina, to establish the Black Mountain College, which became 
America's think tank for a period of time.
    And last but not least, Haywood Community College was the 
first community college in the United States, 30 years ago, to 
establish a degreed program in the making, marketing, and 
business of craft. Today, that program is emulated in 30 of our 
States in their community college system.
    But this is a living legacy. There are over 4,000 
craftspeople who live in our region. It is the third largest 
concentration in the United States, behind New York City and 
the Hudson River Valley and the San Francisco Bay area. They 
contribute $122 million a year to our region's economy. We have 
helped them by establishing the first heritage guidebook in 
North Carolina of the Craft Heritage Trail system that is now 
being used by 13 other States to develop a heritage tourism 
program.
    And finally, I would be very remiss if I did not bring to 
your attention the traditional music of our region, whether it 
is string band, bluegrass, unaccompanied ballad singing, the 
Piedmont blues, or shape note singing and the sacred music 
venue. We are home to the Blue Ridge Music Center built by the 
National Park Service on the Blue Ridge Parkway to carry 
forward this tradition. The National Endowment for the Arts has 
awarded its prestigious National Heritage Fellowship to 12 of 
our traditional musicians, the largest number in the United 
States and is the home of the oldest folk festival, located in 
Asheville, the Mountain Dance and Folk Festival.
    But it is, again, a living legacy. Tonight, on June the 
13th in one small rural county in North Carolina, four places 
will be alive with music. The Bluff Mountain Music Festival 
will have 50 entries of people singing on the mountain. At the 
Depot in Marshall, there will be people doing the traditional 
clogging dance and square dancing of the region. The Junior 
Appalachian Musicians Program will train young musicians in 
string band music at Walnut School. And Doc Watson, the 
foremost traditional musician of our time, will be playing at a 
concert tonight. His last festival 2 weeks ago drew 77,000 
people and contributed $12 million to our region's economy. 
Thank you.
    Mr. Radanovich. Thank you very much, Ms. Anderson.
    [The prepared statement of Ms. Anderson follows:]

 Statement of Becky Anderson, Executive Director, HandMade In America, 
                       Asheville, North Carolina

Craft Heritage
    The study area is home to over 4,000 craftspeople, both full-time 
professionals and second-income producers who contribute $122 million 
annually to the region's economy. This concentration of craftspeople is 
the third largest in the United States surpassed only by New York City/
Hudson River Valley and San Francisco Bay Area. The region is the 
origin of both the traditional craft movement (1800s - early 1900s) and 
the contemporary craft movement (1940s) in the United States. Three of 
the country's most famous craft schools are found in the region, 
attracting hundreds of students and craftspeople to settle in places 
such as the John C. Campbell Folk School at Brasstown, Haywood 
Community College at Waynesville, and Penland School of Craft at 
Penland. In addition to the large guild, the Southern Highland Craft 
Guild, there are numerous small local guilds for weavers, spinners and 
quilters.
    The region's first craft influence was by the Cherokee Indians 
resulting from the region's wealth of natural resources. The resources 
included honeysuckle, river cane and white oak for baskets; willows for 
furniture; silver bell and rhododendron for making canes; and the 
country's largest variety of wood for carving bowls, spoons and 
statues. Natural dyes were derived from wild pokeberries, blueberries, 
black walnuts, yellow root and numerous other plants. Kaolin clay for 
pottery is of such high quality that English tableware manufacturer 
Josiah Wedgwood used it to make his famous Queensware. A Wedgwood 
dinner service of Macon County clay graced the tables of Catherine the 
Great.
    As previously stated in this study, the arrival of the Scotch-Irish 
in the early 17th century dominated the development of the region's 
heritage and culture. It is their influence in the region's music, 
arts, language, dance and craft that has dominated until recent years. 
In the beginning, craft was created for function--clothes, furniture, 
farm implements, dishes and utensils. In the isolated sections of the 
mountains, family farms supplied many of their own needs; and what was 
produced by tradespeople elsewhere was often domestic work life in the 
mountains. Older forms of domestic weaving, pottery, basketry and other 
folk crafts survived long enough to be written about, organized and 
cast in an altered form for the modern age. While not all these crafts 
were unique to the region, what was unusual about them was their 
persistence after they had disappeared in the remainder of the country.
    As the industrial revolution took place in the early 1900s, two 
major influences on craft and architecture were directly credited to 
George Vanderbilt, son of Cornelius Vanderbilt of shipping and railroad 
fame, and Edwin Grove, entrepreneur and inventor of Grove's Chill 
Tonic. When construction began on the Biltmore House, it became 
apparent that European craftsmen would be needed to do the work. Over 
1,000 individuals contributed to the construction of the house, 
including stonecutters, woodworkers, masons, sculptors, carvers, 
carpenters, tile-makers, glaziers, blacksmiths, painters, and their 
apprentices. After construction of the house, many remained in 
Asheville where their legacy lives on in the city's architecture, 
housing, churches, streetscapes, stone carvings and ironwork.
    In addition, Edith Vanderbilt organized Biltmore Industries, a 
training school for young men and women in mountain crafts, 
particularly woodcarving and weaving. The industry continued for 70 
years. During its heyday, 40 looms wove products that garnered an 
international reputation. In the early ``80s, the industry was closed, 
and currently, the Biltmore Homespun Museum operates at its location.
    Just as the study area fostered the traditional craft movement in 
the United States, so has it served as the national site for the origin 
of the Contemporary Crafts Movement. The Black Mountain College 
initiated this movement in the 1930s-1950s. The college was founded in 
1932 by John Andrews Rice and located in Black Mountain, near 
Asheville. It was a small liberal arts school with a then radical 
approach to the educational process. It attempted to bring together the 
concepts of individual creativity and community responsibility to form 
an environment of mutual inspiration. The college struggled through 24 
years of existence until closing in 1956. Principle leaders were Rice, 
Annie and Joseph Albers, and Charles Olsen. It was at the college that 
the Albers introduced contemporary design influenced by the German 
Bauhaus movement, often reflected in Annie Albers' weaving. The college 
served as a seminal atmosphere for many of the 20th century's important 
figures in the arts including Buckminster Fuller, Kenneth Noland, 
Jonathan Williams, Robert Rauschenberg, Mare Cunningham, Ed Dorn, Arin 
Siskind, Alfred Kazin and many others.

Craft Heritage Trails Project
    A 1994 economic impact study sponsored by HandMade showed that 
craft contributed $122 million per year to the region's economy. Based 
on these assets and the educational needs of the region, HandMade has 
focused on the development of entrepreneurial, educational and 
community revitalization efforts for craftspeople and citizens.
    ``The Craft Heritage Trails of Western North Carolina----Working 
with craftspeople, business owners, chambers of commerce, the Host 
organizations, tourism offices, state and local governments, and the 
Eastern Band of Cherokee Indians, HandMade produced the first heritage 
tourism guidebook for North Carolina. A series of seven driving trails 
takes visitors to more than 400 historic craft sites, private studios, 
shops and galleries, historic lodgings and restaurants featuring local 
cuisine. A total of 40,000 guidebooks have been sold to date. Shops and 
gallery owners have increased sales by 24 percent. Seventy-three 
percent of trail visitors have spent over $200 for crafts.
    HandMade will continue to market their craft trails through 
updating and continued publication of their guidebook. This publication 
is already in its second printing and continues to grow each year, both 
in content and in distribution. The overall marketing and advertising 
program will help to promote the guidebook to visitors.
    HandMade has plans to explore new marketing arenas, such as High 
Point Furniture Show and converting closed schools to training 
facilities and studio incubators. In addition, they are in the process 
of developing package tours and itineraries for group tours. They are 
currently working with Smithsonian Tours to accomplish this goal.
    Plans are on the drawing board to expand use of Craft Across 
Curriculum program to teach math, science, and language arts in the 
public schools, develop apprenticeships in craft studios, and offer 
training in marketing and business planning for craft entrepreneurs

TRADITIONAL MUSIC
    Western North Carolina is home to music traditions of national, and 
even international, significance. Distinctive styles of stringband 
music, bluegrass, unaccompanied ballad singing, blues, and sacred music 
such as unaccompanied lined-out hymn singing, shape note singing, and 
gospel music have developed and flourished in the Southern Appalachians 
of North Carolina and surrounding states over many generations.
    Ralph Rinzler, creator of the Smithsonian's Festival of American 
Folklife held annually on the Washington Mall, acknowledged the 
cultural importance of western North Carolina when he described it as 
``one of the richest repositories of folk song and lore in the 
southeastern United States.'' The state first attracted the attention 
of folk song collectors in the early decades of the twentieth century, 
when British scholar Cecil Sharp visited the Southern Appalachians to 
document ballad singing. His English Folk Songs of the Southern 
Appalachians, a monumental work that first appeared in 1917, documented 
more ballads and singers in North Carolina than in any other state in 
the southeast.
    Like Sharp, other music scholars and collectors including Rinzler, 
Robert W. Gordon and Alan Lomax from the Library of Congress, Frank C. 
Brown of Duke University, folk singer Pete Seeger, and Frank and Anne 
Warner, among others, have been attracted to the region to document the 
artistry of western North Carolina's traditional musicians. Their 
recordings, along with commercial releases by record companies that 
date back to the 1920s, constitute an astounding archive that documents 
deep community music traditions and extraordinary individual artistry. 
The recordings of some musicians from the region, such as Doc Watson, 
Frank Profitt, Bascom Lamar Lunsford, and Etta Baker, have proved so 
powerful that audiences across our country and throughout the world 
have embraced the music and even journeyed to North Carolina to hear 
it.
    The National Park Service recognized the wealth and vitality of 
these traditions when it established the Blue Ridge Music Center on the 
Blue Ridge Parkway near the North Carolina and Virginia state line. The 
Interpretive Plan for the Center notes that southern Appalachian folk 
music and dance are among our nation's richest traditions, testifying 
to ``the creativity of people from the region'' and recording ``the 
cultural history of mountain communities over generations.'' In further 
acknowledgment of the importance of the music traditions of the Blue 
Ridge, the National Endowment of the Arts has awarded prestigious 
National Heritage Fellowships to twelve traditional musicians from 
western North Carolina and Virginia.

History
    The development of the music heard in the region today began prior 
to the Revolutionary War. Parties of Germans, Scotch-Irish, and English 
``border people'' moved down the Valley Road from Pennsylvania into 
western Virginia and North Carolina during the colonial era. These 
groups brought ballads, instrumental dance tunes, and hymns from their 
diverse homelands. Some of this music survives today in forms that are 
recognizable as ``old country'' traditions. However, musical exchange 
between communities proved particularly potent over time. Eventually 
music of Southern Appalachians changed into something altogether new as 
people moved and settled together.
    The influence of African culture is particularly important to the 
development of musical traditions in the region. The European settlers 
who journeyed down the Valley Road encountered African Americans 
brought as slaves to foothills farms and plantations when land closer 
to the coast was worn out by the unrelenting planting of tobacco. In 
the Southern Appalachians, the musical concepts from Europe and Africa 
were fused into whole new ways of thinking about, and playing, music. 
The banjo, an African instrument, was combined with the European fiddle 
to form a uniquely American ensemble--and create a sound that would 
eventually shape blues, bluegrass, and Country and Western music, among 
other genres.
    Many different styles of religious songs and congregational singing 
developed in western North Carolina churches throughout the 1800s, and 
many of them continue in use. One of the older styles--practiced by 
whites, blacks, and Cherokees--had unaccompanied congregational singing 
of hymn texts to traditional ballad melodies. Where congregations had 
few hymn books or could not read, a song leader would ``line out'' or 
chant a line or two of the text, then pause while the congregation 
repeated that text singing a familiar hymn tune, sometimes in a highly 
ornamented version. Such singing is practiced by Primitive Baptists and 
German Baptist Brethren still.
    Early Methodists developed another style of unaccompanied song that 
could be caught easily by ear. Their camp-meeting and revival 
spirituals had texts with repeated lines and choruses and often used 
melodies derived from traditional dance tunes. Shape-note hymnbooks--
ones that used a special shape for each note of the scale to facilitate 
sight reading--picked up both of these repertories but arranged them 
for three- or four-part unaccompanied choral performances. Singing 
masters taught rural people how to read this musical notation, and the 
song settings came into use both in church worship and in periodic 
singing conventions. The most popular of these books in the Blue Ridge 
were William Walker's The Southern Harmony and Musical Companion (1835) 
and his The Christian Harmony (1867), the latter still used in 
``singings.''
    In Primitive Baptist churches today, and in Methodist and other 
churches for many years, musical instruments were not allowed. The 
churches did not find them authorized by the New Testament or disliked 
their association with dissolute behavior, so the church singing was 
unaccompanied and stood in contrast to much of the music in the secular 
world outside. By the twentieth century yet another style of singing 
entered both black and white mountain churches, up-tempo gospel songs 
performed with pianos, guitars, and other instruments, together with 
solo performances by featured groups.

Blue Ridge Music Trails
    Traditional music continues to thrive in mountain communities of 
western North Carolina. Cultural specialists who surveyed the region in 
1999 to create a resource inventory for a heritage tourism project 
called the Blue Ridge Music Trails found a variety of public venues 
where traditional music is presented on a regular basis. Fiddlers' 
conventions, large and small, are held on many weekends throughout the 
spring and summer months. Community centers, restaurants, old school 
houses, campgrounds, and VFW halls are the sites of weekly gatherings 
of musicians and local residents. Presentation ranges from ``picking 
sessions,'' where the relationship between musicians and listeners is 
relaxed and informal, to seated concerts staged at numerous ``hometown 
oprys.'' African American and European American churches host shape-
note singings and welcome all who love this old form of unaccompanied 
harmony singing.
    In addition to this grassroots infrastructure for presenting 
traditional music, regional colleges and universities have embraced 
regional culture and offer programs and events where folklorists and 
cultural specialists supplement performances of traditional music with 
interpretation. Western Carolina University in Cullowhee produces 
``Mountain Heritage Day,'' an annual festival that attracts large 
audiences to hear traditional music, eat regional foods, and buy 
crafts. Mars Hill College and Warren Wilson College in North Carolina 
organize traditional music ``camps'' where musical instruction is 
offered along with concerts and workshop performances. Wilkes Community 
College sponsors MerleFest, a festival that focuses upon the talents of 
Doc Watson, one of our nation's best-known traditional musicians. In 
2001 this event attracted an audience of 77,000 and brought an 
estimated twelve million dollars into the economies of local 
communities.
    Music traditions in western North Carolina continue to evolve. 
Young people in mountain communities learn to play traditional music 
through informal apprenticeships with relatives and friends, by 
attending community musical events, and by taking more formal lessons 
offered in after-school programs. Colleges that offer traditional music 
camps and workshops provide scholarships so that promising young 
musicians in the region can learn from experienced players. People from 
outside of the state are moving to Asheville, Boone, and other towns in 
an effort to be part of North Carolina's community of traditional 
musicians. They are bringing new musical ideas and styles to the older 
traditions and are attracting an enthusiastic young audience to the 
music. North Carolina's musical traditions continue to be highlighted 
in popular culture through films like Songcatcher and in best-selling 
novels such as Charles Frazier's Cold Mountain.
    The Blue Ridge Music Trails is bringing national attention to the 
vitality and richness of traditional music in western North Carolina. 
Through a guidebook and website visitors can find venues where they 
traditional music is experienced in its community settings. These 
publications include descriptions of the venues and the communities 
where they are located, information on the roots and development of 
Appalachian musical traditions, profiles of individual musicians, and 
extraordinary documentary photography.
    Educational programs have developed alongside the guidebook and 
website. Lesson plans and activities that use traditional music to 
teach the fourth grade curriculum are now under development in public 
schools in four western North Carolina counties. The teachers and 
administrators piloting this program are supported by faculty in the 
School of Education at the University of North Carolina at Chapel Hill 
and staff at the North Carolina Arts Council. The Arts Council has also 
committed funds to expand the Junior Appalachian Musicians program 
(JAM). This after-school programs use local traditional musicians to 
teach fifth through eighth graders to play traditional music. This 
year, with NEA Challenge America funds, the Arts Council provided 
grants to four local rural arts agencies to launch JAM programs.
    Projects are also underway to make documentation of the region's 
finest traditional musicians--now preserved in archives that not easily 
accessible to the public--available through sound recordings issued 
with interpretive notes and historic photographs.

CHEROKEE HISTORY AND CULTURE
    The Cherokees, unlike most other people living in the Southern 
Appalachians, believe they have always been here. Their myths and 
legends mention Pilot Knob in the Shining Rock Wilderness area near the 
Blue Ridge Parkway as the home of Kanati and Selu, the first man and 
woman, and they refer to the Kituwah mound site near Bryson City, North 
Carolina as the site of the mother town of the Cherokee people.
    Whatever their origins, it is clear that members of the Eastern 
Band of Cherokee Indians are descendants of people who have been in the 
region for a long time. The archaeological record reveals a period of 
human habitation in the southern Appalachians dating back more than 
11,000 years. According to linguists, the Cherokee language, which is 
part of the Iroquoian language family, emerged as a separate distinct 
language by at least 1500 BC, and by 1,000 AD a distinctively Cherokee 
way of life had emerged. By that point, Cherokee people had established 
cultural patterns that continue to influence their communities. These 
included permanent villages, cornfields and gardens, dances, games, 
ceremonies, the sacred fire, council houses, social organization based 
on a clan system, and a well developed system of beliefs and practices.
    Europeans entered the outskirts of their territory as early as 1540 
when Hernando deSoto's expedition passed through, and by the 1650s, 
Cherokees had also met the British and had begun growing peaches and 
watermelons acquired through trade. After 1700, the full impact of 
European contact became evident in cultural exchange, trade goods, 
intermarriage between Cherokee women and Scots traders, and trips to 
England by Cherokee leaders. On the negative side, contact also 
resulted in smallpox epidemics that decimated the population, military 
campaigns that destroyed Cherokee towns, and the loss of Cherokee 
territory through treaties.
    Between 1759 and 1839, the Cherokees made a remarkable recovery 
from defeat and devastation. They became a civilization with written 
language, schools, churches, farms, business enterprises, a written 
constitution, representative government, and a bilingual newspaper--a 
period historians call the Cherokee Renaissance. Missionaries also 
entered their lives. Moravians, Presbyterians, Congregationalists, 
Baptists, and Methodists offered Cherokees education in English, 
religion, farming, and domestic arts.
    Cherokee accomplishments did not protect the Cherokees from 
removal, however. In 1838 Federal soldiers and state militia began 
moving most of the Cherokee nation to Indian Territory in Oklahoma. 
Among those who remained in North Carolina were some who had 
successfully applied for citizenship and others that hid in the 
mountains. A few others escaped from the Trail of Tears or walked back 
to the mountains of western North Carolina from Oklahoma. About a 
thousand in all managed to avoid removal. Many members of the Eastern 
Band of Cherokee Indians today are their descendants.
    Although Cherokee political and social institutions were severely 
disrupted by the removal, the Eastern Cherokees maintained rich 
cultural traditions. Two dialects of the Cherokee language continue to 
be spoken and the tribe actively supports language preservation 
efforts. Cherokee traditional artists have received recognition at 
state and national levels for their outstanding work. Cherokee music 
and dance, not as widely known as Cherokee crafts, include older 
ceremonial dances and songs that exist alongside the fancy dances and 
drum groups associated with more modern powwow celebrations. Bluegrass 
and country music coexist with hymn singing and other sacred song 
traditions that contribute to the musical life of Cherokees.

Cherokee Heritage Trails Project
    The Cherokee Heritage Trails project recognizes the heritage and 
traditional culture of the Eastern Band of Cherokee Indians as one of 
the most compelling and important stories of the Appalachian region. 
Like the Blue Ridge Music Trails project, it takes a regional, 
interstate approach that combines sustainable economic development and 
cultural conservation. The trail's focus on traditional culture is one 
that holds unusual promise for being both educational and economically 
sustainable as it seeks out undervalued cultural assets such as 
significant Cherokee traditions, authentic tradition bearers, historic 
sites, and historically important collections that the Eastern band and 
local mountain communities want to make more accessible.
    Although the project encompasses regions of North Carolina, 
Tennessee, and Georgia that constituted the old homeland of the 
Cherokee, the project draws mainly on the expertise and participation 
of members of the Eastern Band, who constitute a majority of the 
Cherokee Heritage Trails task force and who have worked 
enthusiastically with other project partners since the project began. 
In addition to identifying existing venues where tribal members could 
tell their own stories and interact with visitors, the task force 
recommended adding sites throughout the region to further enrich the 
cultural interpretation of an area already noted for its scenic beauty 
and recreational opportunities. On the basis of cultural inventories 
developed for the project, the task force eventually approved, and 
sought approval from, more than 100 sites and 17 events in North North 
Carolina, Tennessee and Georgia for inclusion in the Cherokee Heritage 
Trails.
    In developing the trail system, the task force identified six 
regional interpretative centers for the project. The main ``hub'' is 
the town of Cherokee, North Carolina, located at the southern end of 
the Blue Ridge Parkway and at the heart of the Qualla Boundary Cherokee 
Reservation. This area is home to approximately 10,000 members of the 
Eastern Band of Cherokee Indians, North Carolina's only Federally 
recognized tribe and the largest population of Cherokee Indians outside 
the Cherokee Nation in Oklahoma. Cherokee, North Carolina, has been a 
tourist destination for many years, but its tourist attractions have 
often obscured the fact that hundreds of Cherokee artists still 
practice distinctive traditions of woodcarving, pottery, basketweaving, 
music, storytelling and other traditional arts.
    The institutional home for this project is the Museum of the 
Cherokee Indian, which not only offers a historical overview of the 
Cherokee, but also develops the theme of ``Cherokee People Today'' as 
it guides visitors in their explorations of sites in and around the 
town of Cherokee and along the Blue Ridge Parkway. Under the energetic 
and imaginative leadership of its current director Ken Blankenship, the 
museum was entirely renovated and a new award-winning exhibit 
constructed in 1998 that combines artifacts, graphics, text, and 
computer-generated images to tell the story of the Cherokee people from 
11,000 years ago to the present day. The museum's focus is not simply 
historical, however. Through its staff (almost all are members of the 
Eastern Band) and through its educational and outreach programs, 
festivals, and workshops, the museum regularly brings its visitors 
together with many of the best local Cherokee artists.
    The Snowbird Cherokee community and the story of one of its 
important leaders, Junaluska, provide the interpretive focus for the 
Junaluska Memorial and Museum in Robbinsville, North Carolina. Here 
visitors will not only receive an orientation to the area but may also 
meet Cherokee people, hear the Cherokee language spoken, and learn 
about some of the most traditional Cherokee practices. As an outgrowth 
of the Heritage Trails project, the museum has been awarded funding to 
develop a medicine trail on the museum grounds and to produce an 
interpretive video about the medicine trail and the Cherokee Snowbird 
community.
    The Cherokee Historical Museum in Murphy, North Carolina is 
developing an exhibit focused on the places and events in the Murphy 
area related to Cherokee culture and the Trail of Tears. Known to the 
Cherokee as ``the place of the leech,'' Murphy still figures in 
Cherokee legend. At the junction of the Valley and Hiwassee Rivers, 
Tlanusi, the giant leech, once lived and snatched Cherokee children who 
came close to the riverbank. About four hundred members of the Eastern 
Band still live on 5,575 acres scattered throughout Cherokee County, 
near the old Cherokee communities and homesteads of Tomotla, Grape 
Creek, and Hanging Dog. Scenic drives and side trips from Murphy take 
visitors to the locations of old Cherokee town sites and mountain 
trails, including the National Millennium Trail segment of the Unicoi 
Turnpike.
    The town of Franklin, North Carolina plans to host interpretive 
centers for visitors exploring the sites and stories of more than a 
dozen Cherokee villages that existed along the Little Tennessee River 
and its tributaries in the 18th century. Franklin itself is on the site 
of the old Cherokee town of Nikwasi, and the Nikwasi Mound, once the 
spiritual center for this area, still stands--close to its original 
height'' in downtown Franklin. The Scottish Tartans Museum, which 
focuses on the history of the tartan, includes an exhibit of the 
Cherokees' relationship with the Scots and the Scots-Irish traders. 
Near Franklin, the Smoky Mountain Host Visitors Center will provide 
information about the Cherokee heritage of the area as well as an 
overview of the project and other tourist-related information. A series 
of scenic drives outlined in the guidebook will allow visitors to 
explore and interpret the lands surrounding Franklin.
    Initial products of the Cherokee Heritage Trails include (1) the 
Cherokee Artist Directory, a guide to more than 50 Cherokee artists who 
offer public presentations of Cherokee culture published in 2001 by the 
Museum of the Cherokee Indian in collaboration with the North Carolina 
Arts Council and the Cultural Resources Division of the Eastern Band of 
the Cherokee Indian; (2) a website at www.CherokeeHeritageTrails.org, 
which serves as a guide to visitors and includes online purchasing 
information for trail-related materials; and (3) the Cherokee Heritage 
Trails Guidebook, now in process at the University of North Carolina 
Press with a projected publication date of winter 2002. The guidebook 
will identify and thematically connect culturally important Cherokee 
sites and provide interpretation that includes the Cherokee 
perspective.

Agricultural Heritage
    The Cherokee and their ancestors have lived in WNC for thousands of 
years. They farmed the fertile bottomlands along streams and rivers 
where periodic flooding enriched the soil. The men burned forested 
areas to open up small clearings and fertilize the soil--a method known 
as slash and burn. Women were the primary farmers, planting corn, beans 
and squash together in large mounds or hills of earth. This method 
ensured good drainage during wet months, simplified weeding and 
provided uniform spacing for crops. At the Oconaluftee Indian Village 
in Cherokee, herb gardens and nature trails reveal trees used for 
canoes and multiple plants used for healing. Seventy-five percent of 
medicinal plants known to grow in the United States grow in the region. 
Most revered of all crops was ``selu'' or corn around which the Green 
Corn Ceremony the tribe's most solemn annual function evolved.
    In the late 1700s, English, German, Scotch-Irish, French, Welsh and 
African settlers came seeking land and more prosperous lives. Settlers 
farmed lands previously cultivated by the Cherokee or cleared small 
amounts of ``new ground,'' readily adopting the agricultural practices 
of Native Americans. Their small self-sufficient farms, often called 
``scratch ankle'' farms, provided for the basic needs of food, clothing 
and shelter as well as foods hunted and gathered from the forests. They 
introduced a European pattern of raising livestock both for food and 
trade. Cattle and sheep foraged on pastures or on grassy balds while 
pigs roamed the forests and orchards. This pattern did not require much 
attention from farmers busy raising crops and clearing land. Thus, 
mountain farmers combined cultural patterns of growing crops and 
raising livestock.
    Currently, farming patterns are demonstrated and preserved at 
several sites around the region. The Mountain Farm Museum at the 
Oconaluftee Visitor Center in Cherokee depicts the early 1900s farming 
lifestyle with its collection of historic log buildings moved to the 
site in the 1950s. In addition, farm animals move freely about the 
grounds and in barns filled with antique farm implements. The Miller 
Century Farm in Ashe County is a microcosm of Blue Ridge agricultural 
heritage. This fifth generation farm continues to produce corn, 
molasses, wheat and cattle using antique farm tools. Currently, its 
produce is grown in greenhouses for year-round production. The Historic 
Johnson Farm in Henderson County, a 19th-century tobacco farm, features 
15 acres of grassy fields, forests and a barn-loft museum containing 
early farm artifacts.
    After the Civil War, WNC experienced great changes as a result of 
industrialization, urbanization, and railroad construction. New rail 
lines opened the region to extraction companies changing the landscape 
and the economy. Land purchased for timber and mining companies, and 
for inclusion in national forests and parks decreased the amount of 
property left for farming. Farms decreased in acreage and in number. By 
the 1930s, farmers were growing specialized crops as tobacco to earn 
cash. Following World Wars II, many people never returned to the farm, 
or if they did return it was with different expectations. Technological 
developments during the war led to new pesticides, herbicides and 
automated equipment along with more involvement from the Federal 
Government in technical assistance and subsidies.
    A symbol of this change wrought by the industrial revolution was 
the construction of the Biltmore Estate. The 75-acres of gardens at the 
estate, designed by landscape architect Olmsted, are internationally 
renowned for annual and perennial displays of tulips, daffodils, roses, 
dogwoods and azaleas. Each spring, the annual Festival of Flowers 
provides a Victorian celebration of gardens. In 1983, the Biltmore 
Estate Wine Company was established. The first vineyards, planted in 
1971, contained French-American hybrids followed by vinifera plantings 
a few years later. After years of experimentation and research the 
Winery opened in 1985 with state-of-the-art production technology. It 
is considered to be the most visited winery in the world, with over 
500,000 visitors annually.
    In the foothills, the Town of Valdese is home to Waldensian 
emigrants from Italy, whose ancestry dates back prior to the religious 
Reformation. Many present-day descendants still live within the 
original settlement and reflect their heritage in festivals, dramas, 
museums and churches. The Villar Vintners Winery is maintained by 
descendants of the original families. Concord and Niagara grapes are 
fermented and bottled into light, different dry, semi-sweet and sweet 
wines producing more than 4,000 gallons each year. Although many of the 
grapes are grown in New York's Finger Lake region, a demonstration 
vineyard now produces 200 gallons annually and has begun purchasing 
grapes from local farmers.
    Today's farmers are exploring a combination of strategies including 
diversifying crops, preserving farmland and increased marketing to the 
regional community. Vegetable crops, ornamentals, Christmas trees, 
mushrooms and trout farming have become part of the diversification. 
Farmers are producing crops in greenhouses, growing hydroponic lettuce, 
cultivating herbs, planting native botanicals such as ginseng and 
golden seal, and managing pick-your-own businesses. Farming for the 
region's future will be a cultural evolution. Thus, the region's 
agricultural heritage of working the land will continue to be a basic 
element in its culture and national identity.
    The Study Area contains the largest number of specialty crop farms 
in North Carolina. At Perry's Water Gardens in Macon County, 13 acres 
of walking trails provide a study of thousands of blooms at the largest 
aquatic nursery in the United States. In Graham County, at the end of 
the ``road to nowhere,'' a Jersey Dairy is one of four licensed cheese 
facilities in WNC where the Yellow Creek Pottery and Cheese produces 
cheddar and jalapeno varieties as well as a working pottery studio. The 
Posey Hollow Farm in Polk County produces a variety of vegetables and a 
kitchen manufacturing facility for jams, jellies, pickles, relish, 
chutneys, honey and hot sauces. The Sandy Mush Herb Nursery typifies 
many of these specialty crop farms with five water gardens, 80 
varieties of herbs, shrubbery and trees.

Farms, Gardens, and Countryside Trails of Western North Carolina 
        Project
    In January of 1998, HandMade in America organized a criteria-
setting meeting in which citizens from 17 public and private interests 
established criteria for sites to be included in the ``Farms, Gardens 
and Countryside Trails of Western North Carolina.'' A total of 11 
community meetings with over 100 citizens resulted in the 
identification of agricultural and horticultural resources in their 
communities. The guidebook features over 450 sites of farms, gardens, 
orchards, farmer's markets, vineyards, nurseries with demonstration 
gardens, garden art shops, bed and breakfasts with garden areas, 
restaurants featuring local produce, walking trails, nature attraction 
and agricultural heritage sites.
    The HandMade in America Website, wnccrafts.org, will provide 
information for trail-related products and publications. In addition, 
links will be made to travel and tourism venues for the region's 
farming community, and the agri-trails project has received funding 
from the Appalachian Regional Commission and Golden Leaf Foundation to 
develop business, marketing, and hospitality training for trail 
participants. It is anticipated that a series of cluster modules for 
training will develop along each of the six trails. Other products 
include the development of tours and weekend itineraries for visitors 
with an emphasis on educational programs.
    The tours and itineraries being developed include bonsai or 
perennial garden weeks, weekend gardening and cooking schools combos 
such as ``Garden to Table'' and ``Seeds to Sauce,'' packages for family 
and child-oriented vacations at the farm, and educational curriculums 
for third and fourth graders to be used in school systems throughout 
the region.
                                 ______
                                 
    Mr. Radanovich. Now, we will move on to Betty Huskins of 
AdvantageWest here to speak on the same bill, I presume. Thank 
you.

 STATEMENT OF BETTY R. HUSKINS, VICE PRESIDENT, PUBLIC AFFAIRS 
   AND CORPORATE DEVELOPMENT, ADVANTAGEWEST NORTH CAROLINA, 
                    FLETCHER, NORTH CAROLINA

    Ms. Huskins. Yes. Mr. Chairman, I am Betty Huskins, Vice 
President of AdvantageWest, and we are a public-private 
regional commission in the mountains of North Carolina. I am 
pleased to testify today on behalf of AdvantageWest and all of 
our partners who work diligently to preserve and celebrate our 
heritage.
    I am going to shorten my remarks today because I can see 
that you have a busy schedule, and in the interest of time, I 
would just like to refer to you a document that you have in 
front of you which is actually the feasibility study that we 
have conducted for this designation.
    In reference to the comments made by the National Park 
Service, we are not asking for funding or assistance to be able 
to conduct that feasibility study. We have been working in our 
region for the last 6 years to prepare for this designation and 
we have our original organizations working cooperatively. We 
have secured resources to be able to carry this project forward 
and we also have the support of not only the General Assembly 
in the State of North Carolina, but also our Governor, and that 
is all documented in this document.
    And last, I would like to tell you that I was asked to 
deliver this beautiful book to you today from the Chief of the 
Cherokee, and you also should have that in front of you. That 
is a new publication hot off the press, and you have the first 
copies in your hands here today. We believe that we will be 
able to carry out the feasibility study requirements, and if 
you look in the back, you will see that we have answered all 
the questions. We also believe that we would be able to get the 
designation even if the new legislation which you are 
considering right now were in place at this time, because we 
have met all those requirements.
    Thank you. I appreciate being here today.
    Mr. Radanovich. Very well. Thank you very, very much, and 
the book looks gorgeous.
    [The prepared statement of Ms. Huskins follows:]

Statement of Betty Huskins, Vice President--Public Affairs & Corporate 
               Development, AdvantageWest North Carolina

    Mr. Chairman, I am Betty Huskins, vice president of AdvantageWest a 
public/private regional commission in the mountains of North Carolina. 
I'm pleased to testify today on behalf of AdvantageWest and all of our 
partners who work diligently to preserve and celebrate our heritage.
    Much of my life's work has been in tourism within our region, and 
I've watched as national and international interest in the culture, 
heritage and landscape of the North Carolina mountains has grown in 
volume and stature. From 1995--2000, we saw the economic impact of 
tourism in our region increase an impressive 23 percent, to a total of 
$1.7 billion, not including the revenue from the Cherokee Indian 
Reservation, as gauged by Tourism Industry of America. It's also worth 
noting that Charles Frazier, best-selling author and western North 
Carolina native, earlier this year received an $8 million advance and 
$3 million film deal--the largest advance ever paid for a work of 
fiction for a follow-up to his New York Times Best-Seller Cold 
Mountain. Frazier's first book and current project are both works of 
historical fiction based in the North Carolina mountains.
    This demonstrates the interest our region and its culture today 
receive, but why? World travelers, tourists, consumers, governments, 
scholars, historians and our own citizenry recognize, embrace and guard 
our rich heritage, its products, and its origins--the mountains 
themselves. A Natural Heritage Area Designation would further enhance 
our ability to protect, preserve and promote the heritage and culture 
that marks our region as a national treasure. Indeed, I believe that a 
National Heritage Area Designation is needed to ensure perpetually that 
the national and international attention our heritage already receives 
makes our region strong, and does not endanger this same heritage and 
its origins.
    The mountains of North Carolina are among the oldest mountains on 
Earth and have played a prominent role in shaping the people, plants, 
and animals living in the region since long before the first colonial 
settlers arrived in our great nation. The unique range of plant and 
animal life reflects the most biologically diverse temperate-climate 
environment on the planet. The terrain boasts some of the highest 
mountains and the deepest gorge east of the Mississippi River.
    Unique among the original colonies, the land of western North 
Carolina--its bounty and its barriers--has been the single most 
defining factor in the colonization of the mountains and the creation 
of our mountain heritage and culture.
    Our unique geography has shaped the patterns of human activity in 
this region by creating a culture having grown in isolation for many 
years. The culture of the region is rich in the traditions of 
``handmade'' crafts, unique mountain music and dance, mountain folklore 
and storytelling--all shaped by the influence of the native Cherokee 
and Scotch-Irish settlers.
    Through it all, the mountains have promised hope and opportunity 
for those who would make the journey. The natives who first settled 
here, Spanish explorers in search of gold, and Europeans fleeing 
tyranny and famine, all had their hopes fulfilled by this enchanted 
land. Even early American entrepreneurs found their fortunes in the 
virgin timber and precious minerals.
    Centuries before Europeans landed on the continent, the Cherokee 
Indians had developed an advanced early civilization in this region. 
Much of what went into creating the distinctive mix of arts and crafts, 
music and dance, language and lore that makes up our mountain culture 
was influenced by the Cherokees and based on their own accomplishments.
    Since the mid-16th century, Spaniards, French, British, Africans, 
and Scandinavians have lived in the mountains, but it was the influence 
of the Scotch-Irish that gave our cultural heritage much of the unique 
character it has today. Once in America, many of the Scotch-Irish 
traveled south through the Cumberland Gap, and ended up in the 
mountains of North Carolina, where they combined their European 
traditions with traditions they discovered among the Cherokee.
    The language, religion, arts, crafts, and music of the Scotch-Irish 
all proved to be lasting influences on the mountain culture. Settlers 
who followed added texture to the cultural heritage of the region and 
brought a renewed appreciation of its natural resources. What has 
emerged over the centuries is an intricate and exciting legacy that all 
of America deserves to learn about and enjoy.
    With its bounty of natural and cultural treasures, western North 
Carolina is a prime candidate for US. Park Service designation as a 
National Heritage Area. The region has a number of natural and cultural 
heritage sites that are already recognized as being of national 
significance, including the Great Smoky Mountains National Park, the 
Blue Ridge Parkway, Mount Mitchell, Grandfather Mountain, Whiteside 
Mountain, Joyce Kilmer Memorial Forest, Linville Gorge Wilderness, the 
New River, the Nantahala River, Roan Mountain, and Fontana Lake--just 
to name a few. The people, organizations, and government entities in 
the region have already taken important steps and made significant 
accomplishments to preserve natural and cultural heritage--building a 
solid foundation for making significant advances as a National Heritage 
Area.
    These individuals and groups have established productive, 
partnering relationships over the past decade and developed state, 
local, and private funding sources to match Federal dollars. The 
partners have identified clear and achievable objectives for preserving 
the region's natural and cultural heritage. They have specified a 
professional and responsible management group, outlined workable 
business plans, and established a working timeline for their projects. 
Thus, the region stands poised to realize its goal of establishing a 
unique heritage identity to encourage others to enjoy its resources and 
learn about this important part of the fabric of a greater American 
natural and cultural heritage.
    Receiving official designation as a National Heritage Area would do 
much to help the people of Western North Carolina realize this noble 
goal--something that would benefit Americans everywhere.
    Mr. Chairman, we respectfully thank you and members of this 
Committee for the support you have already demonstrated during this 
hearing, and stand ready to assist you in any way during this process.
    Thank you.
                                 ______
                                 
    Mr. Radanovich. Ms. Lara Larramendi Blakely, Mayor of the 
city of Monrovia, Monrovia, California, welcome to the 
Committee, here to speak on H.R. 2534, moving from the East 
Coast to the West Coast.

STATEMENT OF LARA LARRAMENDI BLAKELY, MAYOR, CITY OF MONROVIA, 
                           CALIFORNIA

    Ms. Blakely. Good morning. I was going to say that, and 
further South.
    [Laughter.]
    Mr. Radanovich. And further South.
    Ms. Blakely. Not North. Mr. Chairman and Ranking Member 
Christensen and distinguished members of this Committee and 
audience, thank you for the opportunity to testify before you 
today on behalf of H.R. 2534.
    You mentioned that I am the Mayor of the city of Monrovia, 
but I also wear a couple of other hats. I am President of the 
San Gabriel Valley Council of Governments, which worked very 
strongly with then-Senator Hilda Solis, now our Congresswoman, 
to create the Lower Los Angeles and San Gabriel Rivers and 
Mountains Conservancy, which is the subject area of this 
feasibility study.
    This conservancy was created back in 1999 to enhance urban 
open space and a habitat for the enjoyment and appreciation of 
present and future generations. As we go into our next century, 
we have tremendous challenges before us to preserve what we 
have and restore the rivers and some of our watersheds, and my 
colleague on the conservancy, Rick Ruiz, talked about how he is 
lucky to be here today to testify.
    So one of the things that we are looking for is to work on 
revitalizing both Los Angeles and the San Gabriel River and 
also acquiring open space in the San Gabriel Mountains, which 
is something very important. We have a lot of development 
pressures along the foothills, development pressures along the 
rivers, and we would certainly like to take a look at some of 
those developments in relation to enhance and benefit the 
rivers.
    There is a groundswell of residents of our diverse 
communities within this conservancy territory in the proposal 
to be studied that is looking for recreational opportunities, 
environmental opportunities, and also economic opportunities 
that come with the designation, whatever that may be, as a 
result of the study.
    It is very important to preserve the quality of life of our 
mountains and rivers because it is very important to our 
residents. The Congresswoman talked about the density in terms 
of livability, sustainable communities, three to four acres per 
1,000 individuals, and the fact that in this conservancy 
territory, we are looking at approximately less than half-an-
acre for 1,000 people. The population of Los Angeles County is 
increasing tremendously and it will certainly be a benefit to 
all of our communities to increase the opportunities for 
recreation and for environmental awareness of this area as we 
proceed into the next 10 years and 20 years and more.
    We welcome the Secretary to consult with our conservancy 
and the appropriate State agencies and the local communities in 
order to conduct this study. One of the uniqueness of our 
conservancy, the Rivers and Mountains Conservancy, is that it 
respects the principles of local control for the local 
jurisdictions, the city and the county. It also respects 
property rights in terms of it does not have the right of 
eminent domain.
    The cities and the property owners are partners. We are 
partners in our efforts currently with a couple of the Federal 
agencies that are non-voting members of our conservancy, the 
Forest Service and also the Army Corps of Engineers and we are 
working together.
    We hope that this study, if you choose to approve it, and 
we strongly encourage that you do, continues that partnership 
to benefit an area that is of great significance and importance 
to the communities within the San Gabriel Valley and Los 
Angeles County. Thank you.
    Mr. Radanovich. Thank you very much, Ms. Blakely.
    [The prepared statement of Ms. Blakely follows:]

  Statement of The Honorable Lara Larramendi Blakely, Mayor, City of 
                          Monrovia, California

    Mr. Chairman, Ranking Member Christian-Christensen, distinguished 
Members of this Committee and audience, thank you for the opportunity 
to testify before you today on this bill, H.R. 2534.
    My name is Lara Larramendi Blakely. I am the Mayor of the City of 
Monrovia, CA, President of the San Gabriel Valley Council of 
Governments, and Vice-Chair of the San Gabriel and Lower Los Angeles 
Rivers and Mountains Conservancy, also know as the Rivers and Mountains 
Conservancy.
    H.R. 2534, the ``Lower Los Angeles River and San Gabriel River 
Watershed Study Act of 2001'' authorizes the Secretary of the Interior 
to conduct a special resource study of the suitability and feasibility 
of potential designation and the establishment of a National Park 
within the boundaries of the Rivers and Mountains Conservancy. The 
linked watersheds of the San Gabriel and Los Angeles Rivers drain 
approximately 1,513 square miles from the San Gabriel Mountains to the 
Pacific Ocean and is home to more than 7 million people.
    The Rivers and Mountains Conservancy was created via SB 216 (Solis) 
and AB 1355 (Havice) in 1999 to preserve and enhance urban open space 
and habitat for the enjoyment of, and appreciation by, present and 
future generations.
    As we proceed into the next century, we have unprecedented 
challenges before us. We all have a unique opportunity to make a big 
difference in our communities and improve our quality of life. That 
opportunity is the challenge to preserve our precious local 
environment, our beloved rivers and mountains.
    The preservation of the upper and lower San Gabriel River and the 
San Gabriel Mountains is a pressing yet timeless issue. John Robinson 
writes in The San Gabriels (late 1880's), ``Contrary to popular belief, 
it was not an aesthetic love for the mountain scenery or recreational 
desires that set in motion the crusade for forest preservation. These 
motives came much later. It was a real fear of watershed destruction, 
expressed by valley agricultural and civic interests, that led to the 
Federal protection of Southern California forest and brush lands in the 
late 1880's.'' The Angeles National Forest and the San Gabriel River 
were set aside for this purpose. One hundred years later, it is time we 
do our part to continue the preservation of these valuable resources 
for future generations.
    As the economy has strengthened, development pressures have become 
critical along the San Gabriel Mountain foothill communities. Cities 
are experiencing the potential destruction of important hillside lands 
that are critical for wildlife preservation, open space, and low impact 
recreational and educational uses.
    All along the Foothills, it is vital to preserve hillside lands 
that provide valuable watershed for numerous blue-line streams. The 
value of the surrounding upland habitats is enhanced by the presence of 
the riparian and other wetland habitats. These habitats provide water 
for a variety of wildlife species including mammals, reptiles, 
amphibians, and many species of resident and migratory birds.
    It is important to conserve hillside lands that contain a wealth of 
habitats, such as chaparral, coastal sage scrub, riparian woodland, oak 
and sycamore woodlands, and alluvial fan scrub. It is also important to 
conserve hillside lands as these habitats provide foraging, breeding, 
resting areas for raptors, coyotes, badgers, skunks, possums, raccoons, 
rodents, mountain lions, bobcats, mule deer, gray foxes, California 
black bears and other native and migratory wildlife species.
    These ecological communities provide valuable habitats for the 
resident and migratory birds, insects, mammals and other native animals 
and plants. These habitats also serve as movement corridors for 
wildlife. People may live in particular cities and communities, but 
wildlife needs a biological linkage or movements corridors along the 
foothills. These habitat and wildlife corridors need to span the 
foothill cities to provide adequate range and survival options for 
wildlife.
    As development pressures increase, there is a groundswell of 
residents that are advocating preservation of our hillsides and our 
rivers. Local conservancies have been created by our residents to 
acquire and preserve these precious resources. Preserving the quality 
of life that our mountains and rivers afford is important to all our 
residents. Studies conducted on usage of the San Gabriel Mountains show 
that the southeast area residents of Los Angeles County frequently use 
these recreational areas. A Sustainable Cities Program sponsored by USC 
(University of Southern California) recommends 3-4 acres of open/green 
space per 1,000 people. In the San Gabriel Valley, the reality is less 
than one half acre per 1,000 people is dedicated opens and/or green 
space. As Los Angeles County grows, the opportunities for recreation in 
our mountains and along our rivers must also continue to grow.
    We welcome the Secretary to consult with our San Gabriel and Lower 
Los Angeles Rivers and Mountains Conservancy, the appropriate State 
agencies and local government entities. Our conservancy was created on 
the principle of respecting the local jurisdiction and the rights of 
the property owners. We are partners in providing good stewardship of 
our natural resources.
    Again, thank you for the opportunity to address you today. I 
strongly encourage an ``aye'' vote on H.R. 2534.
                                 ______
                                 
    Mr. Radanovich. Is anybody wishing to ask questions? Ms. 
Solis, do you want to go first?
    Ms. Solis. Yes. Thank you, Mr. Chairman.
    The question I have goes back to Mr. Ruiz. He talked about 
his upbringing in the lower part of the Los Angeles River, but 
could you elaborate on plans that you are now undertaking with 
the other State conservancy there with respect to the San 
Gabriel River and maybe kind of shed some light on things that 
are going on there?
    Mr. Ruiz. Yes. Thank you very much. There are some very 
important things that are going on along the San Gabriel River 
and I wish we had an opportunity to let everybody see the maps 
that we have along the wall over there.
    We had a presentation from some of our consultants that are 
working on our land use plans just about a week ago and that 
map shows a series of small green dots moving up the rivers 
that indicate new parks that are being proposed or worked on 
and existing parks. So we are beginning to see that there is a 
string of projects all the way up and down the rivers that are 
beginning to sort of make this vision of river parkways and 
environmental habitat restoration, recreational opportunities, 
a reality.
    Probably one of the most important projects that we are 
working on is called the Duck Farm. It was a 54-acre piece of 
land adjacent to the San Gabriel River that was recently 
purchased by the Trust for Public Land with the understanding 
that our conservancy is going to buy that and then manage it 
after putting together a plan for the various types of uses 
that it might be best suited for. That is the kind of thing 
that we are going to be engaged in as a conservancy on into the 
future, but this is probably our first real opportunity to dig 
in with something very substantial.
    It is adjacent to the river. We can use it for wetland 
habitat restoration. We can use it for recreational 
opportunities, picnicking, probably not active recreation like 
soccer or basketball or some of those things, because those 
other opportunities exist right nearby. But it is a great piece 
of property and it just shows exactly the kind of thing that we 
are trying to do, bringing the various agencies together, L.A. 
Public Works, the Federal agencies that manage the upper 
rivershed, the cities, which, as Ms. Blakely said, it is very 
important that the cities get involved with these issues, as 
well.
    Ms. Solis. Thank you.
    Mr. Radanovich. Thank you.
    Mr. Ruiz, since we are talking about another issue in 
Montana about private property and these designations, on your 
map of this particular area, is there private property included 
in the study areas?
    Mr. Ruiz. I believe there is. I think the--and Ms. Blakely 
may be able to talk better to this point, but the agreement 
going forward, not only on the conservancy but with the cities 
that would be involved in any study of a national park, there 
is an understanding that there is not going to be eminent 
domain within the power of national park. We do not have it as 
a conservancy because the cities are very careful to guard 
their jurisdiction and their rights to manage their communities 
and we think that is appropriate. That is a central principle 
of our conservancy and we hope that will be part of any study 
because we believe it would need to be part of the principle of 
any kind of national park or other national designation.
    Mr. Radanovich. Thank you.
    Ms. Blakely, can you expound on something for me. It was 
mentioned that there is a lack of recreational opportunities in 
that particular area, and yet you do have, as mentioned, the 
Angeles National Forest, Seal Beach National Wildlife Refuge, 
Santa Monica Mountains National Recreation Area, which all is 
within a short drive, I think, for people to have access in the 
area. Do you believe you need more even though you have those?
    Ms. Blakely. Yes, we need more. A short drive, it is 
relative in regards to time. In Southern California, in some of 
our areas, you are talking about an hour by car. Many 
individuals in our communities do not have private vehicles and 
they use public transportation in regards to that.
    We were talking about the disparity in terms of the amount 
of acres per 1,000 in population that is desirable. There is a 
great need. Santa Monica Mountains Recreation Area, if I 
recall, there are just a couple of small pockets, maybe in the 
city of Whittier, out in Diamond Bar. So they are in very 
extreme corners of this conservancy area, but yes, we need 
more.
    Mr. Radanovich. Help me deal with something. In Yosemite, 
we have a facility called the Heche Heche Dam, which flooded a 
gorgeous valley similar to Yosemite Valley for water for San 
Francisco, so there is a dam that is managed inside the park 
and I know that there are flood control dams, I think, if I am 
not mistaken, on both the San Gabriel and Los Angeles Rivers.
    Ms. Blakely. Correct.
    Mr. Radanovich. But I guess the problem I have is I think, 
if I am not mistaken, it is the San Gabriel River that is 
almost all cement now.
    Ms. Blakely. No.
    Ms. Solis. If the gentleman would yield--
    Mr. Radanovich. Yes, go ahead and clarify it for me.
    Ms. Solis. Yes. In fact, some of the photos that I passed 
out earlier to the members of the Committee--
    Mr. Radanovich. Which I have here.
    Ms. Solis. Yes, they are the San Gabriel Valley, and I 
would say, if anything, the San Gabriel River is probably the 
most widely open and accessible river that is still, and almost 
in its current status that it probably was thousands of years 
ago, if not, maybe hundreds.
    I would say that one of the provisions that I am taking on 
in this bill is that we not obstruct any flood channel or flood 
control program that is already in place. In fact, the bottom 
of the flood control district portion in the San Gabriel 
Valley, which is only like four miles, is actually open. The 
bottom is still natural. So it is just the sides.
    And on the sides of that flood channel, there is still open 
space there. Some of it is owned by some of our utilities. Some 
of it is run now by nurseries, and I am sure that we would 
honor whatever rights that people would want to use the area 
for, or if they want to sell it, then that would also be an 
option, to have possibly bike trails and horse trails, because 
there is also horse trails that currently exist along portions 
of the river.
    Mr. Radanovich. It is the lower Los Angeles River that is 
channelized, that is all cement?
    Ms. Solis. Yes, and along there, as Mr. Ruiz said earlier, 
there is already ongoing activities, and this map probably is 
not a good view, but if you were to take a closer look at it, 
the lower L.A. River portion, there are already parks and small 
pocket urban parks that are already in place that are coming 
about because people feel so compelled that they want to have 
open space, because even a playground yard is cemented. Their 
only access is maybe alongside a portion of the undeveloped 
area along the L.A. River.
    So people have been working on this for about the last 15 
years that I am aware, and it is more to preserve what is there 
and, hopefully, allow for flexibility for potential 
restoration, recreation, because we are talking about families. 
It is very different, the makeup of the San Gabriel area from, 
say, the Santa Monica-Malibu area, which, as I said earlier, is 
not as densely populated. So folks in our area, I think, will 
pay. The tax-paying dollars go in now to use some of the parks 
that are there. They want to have this available for their 
kids.
    Mr. Radanovich. Are there any plans to take out all the 
concrete out of the river if it does become a national park?
    Ms. Solis. No. No. And that is not even an issue--
    Mr. Radanovich. Well, it should be. If you want national 
park status, you should be getting the cement out of there.
    Ms. Solis. Part of our negotiations with the local 
municipalities, even in the creation of the State conservancy, 
was to allow for that to continue, and that is why local 
control is a big part of this bill.
    Mr. Radanovich. OK. I am going to take the Chairman's 
prerogative. I am going to ask a couple more questions and 
then, if I may, go ahead and turn it over, if you do not mind.
    Mr. Tureck, you mentioned that you are a cattle rancher. I 
am not sure if you own private land or you run cattle on public 
land, but if you are selling cattle and you are forced to sell 
cattle to only one person when you are ready to take your cows 
to market, do you call that a willing seller?
    Mr. Tureck. Let me respond by saying, of course not, but 
there is nothing now that says that these ranchers have to sell 
to the government, either.
    Mr. Radanovich. Yes, but if you are concerned about--you 
are in business for profit and you have got cattle and you are 
ready to sell to somebody, if you are restricted to only sell 
it to one person, that does restrict your right to be able to 
earn as much as you can off those cattle, does it not?
    Mr. Tureck. Of course, but there is nothing that says that 
the people who own land have to sell to one person, or have to 
sell to the government. They can sell to whomever they want.
    Mr. Radanovich. Well, by the designation on this monument, 
the only way that they can sell it is to the Federal 
Government.
    Mr. Tureck. No. No. The Federal Government can bid on that 
land. My assumption is, landownwers will sell it to the highest 
bidder. There is nothing that says that they have to sell to 
the government.
    Mr. Radanovich. So if somebody was going to sell it with 
the idea that this was going to be in the monument in 
perpetuity, do you view that as being a devaluation of the 
property? I mean, you are restricting it. Sooner or later, it 
is going to be owned by the Federal Government. Why would 
somebody be interested in buying that property if they knew 
that, sooner or later, the Federal Government was going to be 
involved in it?
    Mr. Tureck. I think you are making an assumption that I am 
not sure is valid, and that is that, sooner or later, the 
government is going to own it. It could change hands many 
times, as it has now.
    35,600 of these 81,000 privately-owned acres are already in 
the Wild and Scenic River. They were included in that 26 years 
ago by a Congress that felt that their land management agency 
would not go out, and condemn it, even though there were some 
condemnation powers in it. 26 years later, the land is still in 
private hands. I think there has been one purchase made that I 
know of down there by the Federal Government. I think it was 
for a camp site.
    But what happens is, if the Federal Government purchases 
any of those 39,000 private acres, they become a part of the 
Wild and Scenic River. That is, I think, pretty much hard proof 
that a lot of these places that have those acres down there in 
that 39,000 have sold and resold. There is no guarantee that 
the government is going to buy this.
    Mr. Radanovich. Let me explain. If, perhaps, Mr. Rehberg's 
legislation did pass and those private properties were left out 
of the monument and there were negotiations between the 
government as being one of many people who could purchase the 
property and it was purchased by the Federal Government and 
then included by legislation, which would have to come to the 
Congress, to include that land within the wilderness, do you 
see any problem with that process at all?
    Mr. Tureck. Yes. I think, first of all, the incentive for 
the government to purchase, on behalf of the American people is 
going to decline. That incentive is going to be gone. As long 
as those lands automatically become a part of the monument, I 
think there is a greater incentive to take those sites that are 
of historical relevance and to bid on them, especially those 
sites that might be lost if they are sold to private 
landowners.
    Mr. Radanovich. I would like to bring a case in point. In 
Sequoia National Park in my district, there was a Dylan Grove. 
It was a piece of private property, I think about 5,000 acres, 
that adjoined the boundary of Sequoia National Park. It was 
never included in the park and it was held in private hands. A 
nature conservancy group, a conservation group bought the 
property and proposed that the National Park Service lines be 
drawn to include this grove because the people who bought it 
were willing to offer it to the government for that particular 
purpose, and that thing worked very, very smoothly and it did 
not take anything to have those lines redrawn.
    It would be my proposition to you that that method protects 
much more the willing seller aspect and private property 
ownership than does designating--putting a cloud, I think, 
basically a cloud of title over a piece of property and then 
putting the eventual notice that someday that property is going 
to have to be in Federal land ownership. Those types of 
negotiations to re-include private property that is being 
offered to the Federal Government work very easy in this 
Congress.
    Thank you very much. I am going to turn the gavel over to 
Mr. Rehberg, as I have another meeting I need to go to, but 
thank you for being here.
    I recognize Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    I do not have any questions on H.R. 2534 or H.R. 4530, but 
I do appreciate all of you being here and I appreciated 
listening to your testimony and your beautiful books. They are 
really neat. We in the West sometimes think that we live in the 
prettiest part of this country, but the more I get around it 
and the more I travel across it, I find out that every part of 
it is just as uniquely beautiful and that really is some 
gorgeous country you have all got.
    Thank you, Mayor, for being here. I know it is a long way 
to travel and we appreciate it any time any local officials are 
able to come out and offer testimony here, so thank you.
    I would just tell the Chairman now that I was thinking of 
supporting his legislation and then I have seen these books, 
and I know that there are pretty books on Montana, but I have 
not seen any--
    [Laughter.]
    Mr. Simpson. Let me ask a couple of questions along the 
same line that the Chairman was, Mr. Tureck, on this Missouri 
Breaks legislation. You say you are a public land rancher. Do 
you own any private land within--
    Mr. Tureck. Oh, yes. In fact, our private land is 
checkerboarded within public lands.
    Mr. Simpson. Do you have private lands within the borders 
of this newly designated Missouri Breaks?
    Mr. Tureck. No, I am 25 miles out. I am up on what they 
call Arrow Creek, and it is probably about 25 miles as the crow 
flies.
    Mr. Simpson. So this designation really does not affect 
your private lands?
    Mr. Tureck. No, it does not.
    Mr. Simpson. Do you think it is legal to include private 
lands, given the 1906 Antiquities Act, legal to include private 
lands within the designation of a national monument?
    Mr. Tureck. It is my understanding that it is. I am not a 
lawyer, but after talking to lawyers and talking to those who 
have dealt with the Antiquities Act, that is my understanding.
    Mr. Simpson. I have been working on the Antiquities Act for 
quite some time, and it is an Act, quite frankly, that I 
support, the original intent of what the Antiquities Act was. I 
repeat, the original intent of what the Antiquities Act was. 
Could you tell me what the eminent threat was that required 
this designation to be made on January 17, I think, a few hours 
before the President left office, that included 377,000 acres 
in this designation?
    Mr. Tureck. Can I do a quick personal history of my 
involvement with it?
    Mr. Simpson. Sure.
    Mr. Tureck. Would that help?
    Mr. Simpson. Sure.
    Mr. Tureck. I was the Chairman of the RAC, or the Montana 
Resource Advisory Council of the BLM. In 1999, Secretary 
Babbitt flew out, and as the Chairman, they asked me to be on 
the river with him and Senator Baucus and, of course, his 
entourage of press that follows Senators and Representatives 
and Secretaries wherever they go.
    Mr. Simpson. Senators.
    [Laughter.]
    Mr. Tureck. I talked to the Secretary about it. Historian 
Stephen Ambrose was there at that same time. Stephen Ambrose 
had proposed that this become a national park. I went pale, and 
I had no feelings about this in any way, shape, or form at that 
time. In fact, I probably approached more of the jaundiced 
view.
    The Secretary of the Interior asked the RAC to go ahead and 
take hearings and find out what the people of Montana really--
how they felt about this area, and we are a consensus council, 
so the only thing we can really do is talk about what people 
agree on. That is what consensus councils are for.
    After we get through that, those areas of disagreement are 
going to have to be resolved by those people in power. All we 
do is provide information that we as Americans, or we as 
Montanans, hold in common, and with Representative Rehberg's 
proposed consensus council at the national level, I support 
that legislation completely. But what it is going to do is tell 
what people agree on. It is not going to resolve all the 
problems. Where there is disagreement, those in power are still 
going to have to exert their duties.
    Over time, these hearings, and this is in my report, I am 
not going to repeat it, but it became evident that people held 
a lot of things in common about this place, rancher, farmer, 
recreationist, hiker. A lot of people came out and spoke. It is 
unbelievable, in a rural State like Montana, when you can hold 
these kind of hearings and have this many people either respond 
in written form or come out and testify in a public setting.
    But in this process, what they held in common was they 
wanted to see this area remain as it is. They wanted to see it 
remain wild.
    Now, I live in Montana and something is happening in 
Montana and its wildness is slowly and methodically eroding 
away. We have been discovered. If you look at the Gallatin 
Valley where I grew up as a child, if you look at Livingston, 
there are no wild places left much anymore. If you even look 
where I ranch and farm outside of that, most of the farms and 
ranches selling there now are selling for recreation and being 
pulled out of production.
    So I looked at this mass of public land out there and over 
time said, yes, I think it needs to be protected, and maybe one 
of the ways of protecting it is to put a designation around it. 
But we as a RAC did not recommend that.
    Mr. Simpson. Mr. Chairman, I would ask unanimous consent if 
I could ask a couple more questions.
    That is interesting, and I appreciate what you do. I have 
been involved in a lot of these things in Idaho, but the 
question was, what was the eminent threat, not what did people 
want or anything else, because the Antiquities Act is a 
specific piece of legislation which gives any President the 
authority to go out and unilaterally, without input or with 
input, decide to do it, to declare a national monument, but 
there are certain restrictions on it.
    They have to use the smallest amount of space possible or 
land possible in order to make the designation, to protect the 
resources that they are trying to protect. It has to be under 
some type of eminent threat, and what I am asking is, in using 
the Antiquities Act to declare a national monument here, they 
did not have to go through Congress, which is by Constitution 
given the authority to determine land use in this country, but 
they did not have to go through the Congress, they did not have 
to debate any of the issues which we are now having to come 
back and correct, and that has happened in a designation in 
Idaho and we have a bill over in the Senate correcting some of 
the things, and they did not have to bring this map forth.
    When you talk about gerrymandering going through 
redistricting, this would make any map of redistricting look 
like it had straight lines. This is the craziest thing I have 
ever seen, and I do not know how they go down. I am sure that 
every line on the boundary is absolutely essential, but it is 
interesting how we come along and all of a sudden there are a 
couple of Native American lands in here that, by golly, we are 
going to draw the map to exclude them, but right next to it is 
a private landowner and a State land, but the heck with them. 
We are going to include them.
    And you go throughout here and you do not--and this is the 
weirdest thing I have ever seen. Even though I support, and I 
think Congressman Rehberg does, protecting the Missouri Breaks, 
but there are private landowners in here, and in this country, 
private landowners have some rights.
    And you said during your testimony that you think that this 
bill does harm. Harm to who, to the private landowners? To the 
Federal Government? To the Missouri Breaks? Who does it harm? 
If you take this private land out of this monument, there is 
nothing that prevents the Federal Government at some point in 
time to enter into negotiations with a private landowner and 
say, you know, we would like to include this at some point in 
the Missouri Breaks and we think it would be a good addition 
and we are going to offer you some money for it. They might get 
offers from somebody else, but then the Federal Government 
purchasing that and at some point including it in the Missouri 
Breaks if they want to.
    What advantage does it have having it in the Missouri 
Breaks now unless the pressure is, we are going to put 
restrictions on you, whether it is through access to your 
private lands or use of your private lands, and I can tell you 
that I have seen it happen in other places, so that eventually, 
you become a willing seller whether you want to be a willing 
seller or not because you do not have full use of your private 
lands.
    I have seen places in Idaho that are inholdings of timber 
where the guys want to go in and they want to do some salvage 
timber. They want to cut some of their trees. But in order to 
get the trees out, they have got to take it across Forest 
Service lands. The Forest Service does not want them to cut 
those trees, so all they do is deny them use of taking a 
logging truck across their land.
    The Federal Government has a great deal of control if you 
are an inholder, and all we are trying to do is say, private 
landowners have some rights here. I know that is a long 
question.
    [Laughter.]
    Mr. Tureck. A number of things. OK. First of all, I think 
there are threats. I think the Lewis and Clark Bicentennial is 
going to have an impact on the area. The fact there are more 
people going to be moving in, purchasing land. We do not know 
what the use of that. There are plans within the monument on 
restricting certain kinds of motorized use. You begin to plan 
as a unit. Once you draw boundaries around this, you plan as a 
unit, not the private land, but the public land.
    Now, when you said at the end here, and this--well, there 
are two things, but one thing that bothers me is that you said 
that they could restrict the access to the land. Taking their 
land out of the monument is not going to assure that access any 
more than having it in the monument. That does not address it.
    Mr. Simpson. So what is the difference of whether you have 
it in or out then?
    Mr. Tureck. The very simple thing is it saves the--is that 
lands of historical significance that fit within the integrity 
of the monument itself, that help enhance it, if they come to 
sell are more likely to be bid on and incorporated in without 
an act of Congress. It becomes something automatic, and I think 
Congress has more to do than do this all the time.
    Mr. Simpson. I would just say, it does not take an act of 
Congress for the Federal Government to purchase that land now. 
We appropriate $500, $600, $700 million every year to go to the 
Land and Water Conservation Fund where they buy private land 
every year. In fact, in Idaho in the Sawtooth National 
Recreation Area, they go in and purchase easement rights of 
cattle grazers up there and have been purchasing those for a 
long time, and quite frankly, I support it and we will have 
them purchased out before too long. But it has been part of the 
process since the beginning.
    Mr. Tureck. I think within Montana, and once again, I am 
going to put myself out here on a limb, there was a bill a few 
years back to buy the PN Ranch. The PN Ranch was actually 
offered to the Federal Government and the BLM and it was going 
to be purchased. That money was actually approved, and I am not 
sure if it was Representative Hill at that time or Senator 
Burns or both of them, but actually had that money pulled.
    Now the PN has the boundaries drawn around it. It is 
historically a very significant place. It is where the Judith 
River and the Missouri River comes together. It has one of the 
best cottonwood riparian areas left, because the Missouri River 
riparian areas, the cottonwoods are quite threatened, not 
because of ranching but because of dams and so on.
    If that comes for sale now and it is within the monument, 
my argument is that it will be more likely to see support. It 
had support before, by the way. It was just pulled out at the 
behest of a Montana Representative that--
    Mr. Simpson. Well, that could happen whether that land is 
in the monument or out of the monument.
    Mr. Tureck. It could. I am just saying it is less likely.
    Mr. Simpson. I see my time is up, Mr. Chairman, if I might 
have some more afterwards.
    Mr. Rehberg. [Presiding.] Thank you.
    Ms. Solis?
    Ms. Solis. Thank you, Mr. Chairman.
    I just want to thank the witnesses that came out to speak 
on behalf of my bill and all the other witnesses that came. I 
appreciate the book. It is very nice. We have a similar one on 
the river in San Gabriel Valley. I will be happy to share that 
with members.
    [Laughter.]
    Ms. Solis. I am sorry that Mr. Radanovich, our Chair, left, 
but I did find something I did want to mention and kind of 
provide for the record, and that is that the lower part of the 
L.A. River, while he asked his question if it was completely 
cemented, actually, only 5 percent of the lower L.A. River is 
cemented, and that is the portion that we want to include in 
the study. And then the San Gabriel River, which runs 
approximately 640 square miles, only 26 percent of that, four 
miles, is actually covered by any kind of cement on both sides. 
So I did want to clarify for that for the record.
    I again thank the witnesses and also the Committee. Thank 
you.
    Mr. Rehberg. Thank you.
    Mr. Tureck, in this Committee, words kind of matter, so I 
just want to clarify some of the things you said. You said that 
my legislation takes away the chance to include land in the 
monument. How?
    Mr. Tureck. Automatically.
    Mr. Rehberg. How does it take away the chance?
    Mr. Tureck. OK. I should have said automatically becoming 
part of the monument. I apologize.
    Mr. Rehberg. OK. So we could still go through the process 
and--
    Mr. Tureck. You could--
    Mr. Rehberg. I will reiterate what Congressman Simpson 
said, and that is the fact that every year, this Congress 
appropriates well over $500 million to purchase lands 
throughout the United States, and, in fact, Conrad and I both 
supported this last year the purchase of the Taylor Fork down 
in Gallatin County, which is a little over $7 million worth of 
property.
    I am aware of a landowner within the Missouri Breaks that 
wants to sell property. It only costs about $1 million. He has 
come forward to Conrad and I asking our support in introducing 
that legislation to appropriate the funds to purchase the 
property to include in the monument. We will do that.
    So this legislation in no way, shape, or form limits or 
prohibits a person's opportunity to have their land included in 
the monument. All it requires is they come to Congress and ask 
for the money, which they would have to do anyhow.
    Mr. Tureck. But what this legislation does is that when 
those--I argue that those lines we are drawing, recognizing 
either the landscape or the historical or cultural importances, 
OK, and I cannot turn around and defend every one because I am 
going to have to take this as a matter of faith on some. Some 
things, I can mention.
    Mr. Rehberg. As Chairman of the RAC, did you have an 
opportunity to see the map before the proclamation?
    Mr. Tureck. No, but let me finish my statement first, if I 
may. What it does is the monument as it stands now recognizes, 
OK, by including those lands, that they are important either 
landscape, historical, cultural, and so on. That is why they 
were included to begin with. They are an integral part of the 
integrity of that monument to the degree that they express 
those very values the monument was created for.
    Now, to answer the second part of your question, when 
Secretary Babbitt came to Montana, he had a map that was what 
we call the segregation map, and I happened to end up--I had 
not seen that, but I ended up where Senator Burns came out and 
held a meeting in Fort Benton and they brought that map out 
that he had drawn and there was great ado about the segregation 
order, and, of course, the segregation order, basically all it 
did was stop any Federal land from changing hands during a 
limited period of time, 2 years. But he rescinded that order.
    That map very closely follows this map, and that is all I 
can tell you. I did not see, I had nothing to do with the input 
of that in its direct sense, OK. I guess my guess was, every 
rancher saw that and saw that those lines had been drawn 2 
years before.
    You have to remember, the ranchers refused to participate. 
They came and testified to the RAC, there will be no monument. 
When the Secretary came to Montana he asked the ranchers to sit 
down with other groups interested in creating a monument and 
drawing boundaries. They met in Stanford, Montana. I happened 
to arrange the meeting room. I did not go because I did not 
feel it was my place, as I was the RAC Chairman. And they 
walked away, all of them saying, we have nothing in common. 
There will be no monument.
    So the ranchers simply started out with the idea there was 
going to be no monument. They never came to the table to talk 
about, how can we create one? Now, this is what we are doing.
    Mr. Rehberg. In your written testimony, you said President 
Clinton's proclamation was based on the findings of the RAC. 
First of all, there were 15 members of the Resource Advisory 
Committee, the RAC. How many of those were landowners within 
the boundary designation?
    Mr. Tureck. At that time, because I brought that today for 
some strange reason, and so there were none. Actually, 
landowners that are now inside the monument are involved with 
the RAC. I had been encouraging people to get involved with the 
RAC before, because I said these are public lands issues, and I 
had been encouraging people from that particular area. But let 
me give you the structure of the RAC that considered this, OK.
    It was made up of seven ranchers and farmers out of 15.
    Mr. Rehberg. None of which owned property inside the 
boundaries.
    Mr. Tureck. No. I said there was--I said nobody owned 
property. Out of that seven, five were public lands ranchers, 
OK--
    Mr. Rehberg. Again, none within the boundaries of the 
monument.
    Mr. Tureck. Sure. That has been established. I admitted 
that. It was never a question. I think ranchers' interests were 
very well represented.
    Mr. Rehberg. Except landowners that owned property inside 
the boundaries of the monument.
    Mr. Tureck. What you are saying is that public lands 
ranchers outside the monument have a different set of values 
than public lands ranchers within the monument and I have to 
disagree.
    Mr. Rehberg. No, what I am saying is you say that you can 
better manage somebody else's property that you do not own. You 
can make a better management decision as to whether their 
property ought to be included when yours was not included.
    Mr. Tureck. We did not make that recommendation their 
property should be included.
    Mr. Rehberg. Well, then how can you in your written 
testimony say that President Clinton's proclamation was based 
on the findings of the RAC, and you say in your written 
testimony that a consensus was reached on private property 
issues, yet the final RAC report clearly indicates that no 
consensus was reached.
    Mr. Tureck. Oh, private property issues was that private 
property rights would be respected. That was our statement, and 
that is exactly what he said and that is exactly what the 
President did in the proclamation. Private property rights will 
not be violated. They are respected.
    Mr. Rehberg. I have the report to the Secretary dated 
December 1999 from the RAC Committee in which it says, 
``Motions approved with full consensus,'' ``Motions without 
full consensus,'' and then on page 16, ``Issues not covered.'' 
``With adhering to the tight schedule of submitting the report 
to the Secretary, we were unable to completely all address all 
issue and management recommendations that need to be considered 
for the Missouri Breaks. The following are issues that we had 
brainstormed and were unable to address, but we feel they must 
be considered in your final decision: Private property, 
boundary issues, and Federal land holdings increase.''
    The three things that my bill addresses tries to answer and 
tries to clarify, your consensus council could not address the 
issue. It was not covered in your recommendation.
    Mr. Tureck. In all respect, Representative Rehberg, we 
talked those issues. We knew that people of Montana had 
disagreements on a number of these issues. We, therefore, as a 
consensus council, could not come to that. We told them that. 
That is what that says. Those, as anybody knows, those in power 
are going to make some hard decisions.
    You are not disagreeing with the consensus council. You are 
disagreeing with what the Secretary recommend to the President 
and he did under the Antiquities Act. And so what they did, you 
are trying to undo from there. It has nothing to do with--we 
knew there was--
    Mr. Rehberg. All I am responding to, Mr. Tureck, is your 
comment in your written testimony that says a consensus was 
reached on private property issues.
    Mr. Tureck. And said private property rights will be 
respected.
    Mr. Rehberg. That is not what the final report says. It 
says it is included under the issues not covered, private 
property, mixed landownership combined.
    Let me move on. Mr. Tureck, in one instance of your 
testimony, you state, ``Let me assure you that the boundaries 
of the monument were created in accordance with the Antiquities 
Act to include the least possible amount of land consistent 
with proper care and management of the monument.'' Yet in 
another part of your testimony, you directly contradict that 
statement by explaining that private property was included not 
for proper care of the monument, but so that significant 
historical, cultural, wildlife, or landscape qualities could be 
purchased by the United States and reserved as part of the 
monument.
    You cannot have it both ways. Either the Antiquities Act 
was used to pick just the smallest amount of land possible, or 
it was done by drawing lines around private property so that in 
the year 2050 or whatever, we could, as a Federal Government, 
own that property.
    Now, BLM in their testimony, and maybe you want to refute 
what they said, said that they had no knowledge or proof that 
the BLM ever intended that the additional property be added to 
the monument, but in your testimony, you say there was. Which 
is true? Do we believe the BLM or your testimony? Was the 
discussion of the RAC, or the understanding of the Secretary is 
that those lines would be drawn around private property so that 
someday, that property could be owned by the Federal 
Government?
    Mr. Tureck. I would assume--I am going to have to interpret 
the Secretary here, and simply what the Secretary is saying, or 
what the President is saying, please, because it is the 
President's proclamation in the end, not the Secretary's--is 
saying that in the resources that we are trying to protect, 
there are private lands and those private lands are integral to 
the monument. They have such things as the trails I mentioned, 
the Nez Perce Trail, the Bullwhacker, and so on landscape-wise. 
I cannot go through each one.
    But the President felt those enhanced and were the smallest 
thing within what he was trying to protect. Now, we are arguing 
about what was he trying to protect and I cannot--I guess we 
could be here days making that argument and I do not think it 
would go anywhere because I am not sure of everything.
    I have to say that they had an image and I think that comes 
out probably within the management--as that management plan 
unfolds, that will become part of it. But I am not privy to 
every piece of why--every line they drew. Some, I do 
understand. I do understand, I think, why we included, let us 
say, the PN, most of it. I think I do understand why they 
include the Bullwhacker Trail and why they included Cow Island 
and those places like that, because they represent a part of 
our heritage.
    And the upper part of that monument, that first line coming 
down, that narrow, narrow part, all of that was in there. That 
is why all those private lands were in there. Nothing was added 
there that I know of. Where the private lands were added and it 
has an impact is where you see that larger mass there at the 
bottom, OK, but nothing-but that upper part of that, that Fort 
Benton coming down, that was an integral part of the Wild and 
Scenic, and I have no idea how your legislation is going to 
affect the Wild and Scenic.
    Mr. Rehberg. It does not. It does not address it at all, 
and so again, I go back to Congressman Simpson's question. What 
was the imminent danger? If the Lewis and Clark Bicentennial is 
going to have this huge effect, the effect would probably be on 
the river, and if the river was already included in the Wild 
and Scenic and this legislation does not address it, again, 
what was the imminent danger that Congressman Simpson alluded 
to?
    Mr. Tureck. I would disagree it is only going to be on the 
river. I think there is more and more activity off the river 
and more and more historical sites for their importance are 
being recognized off the river. My land is off the river and it 
is impacted more every year, and so is the public land that I 
have the privilege of grazing on impacted more every year.
    But let me reverse that and ask the question, if that 30--
what your legislation is really going to do, then, in the end, 
is only affect 38,000 acres or so. It is not really going to 
affect 81,000, because the other are still in there, you are 
saying. Am I right?
    Mr. Rehberg. The legislation, for your knowledge, would 
protect private property rights, and I am going to come down on 
the side of private property rights every single time.
    Congressman Simpson, do you have additional questions?
    Mr. Simpson. Not a question. Again, I want to thank all of 
you for being here, and I know that we have kind of been 
concentrating on Missouri because the others are studies. But 
this really demonstrates one of the problems with the 
Antiquities Act. As I said earlier, it is an Act I support in 
its original intent, but it has been abused, not by 
Republicans, not by Democrats, by Presidents, because Congress 
has given too much authority to the Administration and then let 
them do that.
    A President does not have the right just to declare a 
monument because he thinks it is cool. There are certain 
provisions that he has to follow and certain things he has to 
do and certain requirements that are followed. For him to 
unilaterally go out without any input from the Congress--I 
mean, we do not even require him to hold one hearing, to talk 
to one person. But we allow him to create a national monument 
to protect certain historic and geologically significant areas, 
and that is a heck of a power we have given them.
    As they use it to do things like this, or the Craters of 
the Moon expansion in Idaho--which I supported--I told them I 
would run legislation to do it, but they wanted to do it 
through a national monument status.
    But how this ought to be working is by first doing a study, 
as these individuals are doing, to look at the area, to get 
people involved, to come to some consensus on some of these 
things, to address some of the problems that we are now having 
to address right here that should have been done long before 
this was ever considered for this type of designation, and that 
is the problem that the Antiquities Act as it is currently used 
is creating, and I think it is creating some real distrust 
between the public and those people that would like to protect 
some of these areas. Frankly, I think most of the public would 
like to protect these areas. But how you go about it is 
important, and just declaring it is not the way to do it.
    Thank you, Mr. Chairman.
    Mr. Rehberg. Mr. Pilcher, just so you do not feel lonely 
and left out, I will ask you a couple of questions. Were you 
aware, at the time of the designation, did Governor Martz 
support or oppose the Missouri River Breaks designation as it 
existed with the boundary lines?
    Mr. Pilcher. Mr. Chairman, I think it is pretty well known 
that the Governor has steadfastly opposed the designation from 
its first discussion, as has the Montana legislature in--
    Mr. Rehberg. I was going to ask you that. The Montana 
legislature, have they taken an official position as the 
elected representatives for the entire State of Montana?
    Mr. Pilcher. On two separate occasions, the entire 
legislature did, in fact, adopt a resolution in opposition to 
the designation as a monument.
    Mr. Rehberg. Were the Stockgrowers actively involved in the 
formation of the monument boundary?
    Mr. Pilcher. To the best of my knowledge, Mr. Chairman, the 
only people involved in the delineation of the monument 
boundary were BLM officials.
    Mr. Rehberg. In Montana or in Washington or in a 
combination?
    Mr. Pilcher. It is my understanding that it was initially 
drawn, as I indicated, by a small group of BLM officials 
meeting in a conference room in Billings around a table with a 
map and a magic marker.
    Mr. Rehberg. I thank you both. In fact, I thank all the 
panel, and I apologize for not including you. If you want to 
get into the middle of a Montana natural resources discussion, 
we would love to have you get involved.
    [Laughter.]
    Mr. Rehberg. If I might, I will ask Ms. Huskins a couple 
other questions. In your meetings with local groups and 
individuals, did you find that there were concerns from private 
property owners within the proposed Heritage Area, and are 
there other groups that have expressed concern over the 
designation of the area?
    Ms. Huskins. None whatsoever, Mr. Chairman. We have had 
nothing but tremendous support within our region.
    Mr. Rehberg. The proposed area includes a large portion of 
North Carolina, 25 counties in the Western part of the State. 
Why is it necessary to designate such a large region?
    Ms. Huskins. Well, that region is actually joined together 
by the Blue Ridge Parkway and the cultural events that take 
place in that region actually take place in the mountains and 
they have logical reasons for working together.
    Mr. Rehberg. Again, I want to thank all of you for taking 
time out of your busy schedules to travel all the way to 
Washington. We know what an inconvenience that can be.
    If there are no further questions, since I am all that is 
left, I thank all the witnesses for their testimony and the 
Committee stands adjourned.
    [Whereupon, at 12:32 p.m., the Subcommittee was adjourned.]


</pre></body></html>
